<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-334]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 109-334, Pt. 2

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                                   District of Columbia

                                                         Appropriations


                                                            Fiscal Year
                                                                   2007

                                         109th CONGRESS, SECOND SESSION

                                                                S. 3660

PART 2
        DISTRICT OF COLUMBIA


                                                 S. Hrg. 109-334, Pt. 2
 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2007

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 3660

  AN ACT MAKING APPROPRIATIONS FOR THE GOVERNMENT OF THE DISTRICT OF 
 COLUMBIA AND OTHER ACTIVITIES CHARGEABLE IN WHOLE OR IN PART AGAINST 
THE REVENUES OF SAID DISTRICT FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 
                      2007, AND FOR OTHER PURPOSES

                               __________

                                 PART 2

                          District of Columbia

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
27-993                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                               __________
                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                    SAM BROWNBACK, Kansas, Chairman
MIKE DeWINE, Ohio                    MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi (ex        ROBERT C. BYRD, West Virginia (ex 
    officio)                             officio)

                           Professional Staff

                             Mary Dietrich
                        Kate Eltrich (Minority)

                         Administrative Support

                            LaShawnda Smith


                            C O N T E N T S

                              ----------                              

                        Tuesday, March 14, 2006

                                                                   Page
District of Columbia: Courts.....................................     1

                        Thursday, June 22, 2006

District of Columbia.............................................    35


        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        TUESDAY, MARCH 14, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:03 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Sam Brownback (chairman) 
presiding.
    Present: Senators Brownback and Landrieu.

                          DISTRICT OF COLUMBIA

                                 Courts

STATEMENT OF HON. ERIC T. WASHINGTON, CHIEF JUDGE, 
            DISTRICT OF COLUMBIA COURT OF APPEALS, AND 
            CHAIR, JOINT COMMITTEE ON JUDICIAL 
            ADMINISTRATION
ACCOMPANIED BY:
        HON. RUFUS G. KING III, CHIEF JUDGE, SUPERIOR COURT OF THE 
            DISTRICT OF COLUMBIA
        HON. ANITA JOSEY HERRING, PRESIDING JUDGE, FAMILY COURT
        ANNE WICKS, EXECUTIVE OFFICER, DISTRICT OF COLUMBIA COURTS
        JOSEPH SANCHEZ, ADMINISTRATIVE OFFICER, DISTRICT OF COLUMBIA 
            COURTS


               opening statement of senator sam brownback


    Senator Brownback. The subcommittee will come to order. I 
have just been informed that we have a series of stacked votes 
this afternoon starting at 5 minutes after 3 p.m. Therefore, if 
it is seven and these are going to be 10 minutes apart votes, 
we are just not going to get much of a hearing going. So I am 
going to put my statement in the record. What I would like to 
do is just briefly introduce each of you, and could each of you 
make a couple of statements about your key points so we can get 
that much at least in the record. Your full statement will be 
in the record, because what I am fearful of is otherwise we are 
just--we will have to cancel the hearing, and I would really 
like to get at least some of your thoughts into the record of 
what we need to do.
    The Honorable Eric Washington, the Chief Judge, District of 
Columbia Court of Appeals. Good to have you here, Judge 
Washington; the Honorable Rufus King, Chief Judge, District of 
Columbia Superior Court; Ms. Avis Buchanan, Director, Public 
Defender Service; Honorable Paul Quander, Jr., Director of 
Court Services and Offender Supervision Agency; and Reverend 
Donald Isaac, Executive Director of East of the River Clergy-
Police-Community Partnership and Assistant Pastor of Southeast 
Tabernacle Baptist Church.
    We will start off with Chief Judge Washington, if we could. 
I am apologetic for doing this, but I do not think you want to 
reschedule this and we have got everybody here. So if you can 
just make really a couple summary statements, and all of your 
written material will be in the record.
    [The statements follow:]
              Prepared Statement of Senator Sam Brownback
    Good afternoon. This hearing will come to order. Today, we are 
considering the fiscal year 2007 budget requests for the District of 
Columbia Courts, the Court Services and Offender Supervision Agency, 
and the Public Defender Service. Since the enactment of the National 
Capital Revitalization Act of 1997, the federal government has provided 
the sole source of funding for these agencies.
    For fiscal year 2007, the President has requested $196.7 million 
for the Courts, which is $20.1 million below the fiscal year 2006 
enacted level. I would like to hear from Chief Judge Washington about 
how this proposed funding cut might affect the ongoing Courthouse 
renovation and construction projects, which are critical to the 
fulfillment of the D.C. Family Court Act of 2001.
    Today we will also hear from Ms. Avis Buchanan, Director of the 
Public Defender Service for the District of Columbia, who will present 
her agency's fiscal year 2007 budget request. PDS provides legal 
representation to indigent adults and children facing criminal charges 
in the District of Columbia. Ms. Buchanan's agency also provides legal 
representation for individuals in the mental health system and for 
children in the delinquency system, including those who have special 
education needs due to learning disabilities.
    Finally, Mr. Paul Quander, Director of the Court Services and 
Offender Supervision Agency, will present his agency's budget request. 
CSOSA is responsible for supervising adults who are on pretrial 
release, probation, or parole supervision in the District of Columbia. 
The President has requested $214.4 million for CSOSA in fiscal year 
2007, an increase of $15 million over the fiscal year 2006 enacted 
level.
    I am particularly interested in how CSOSA is working with the faith 
community to help ex-offenders successfully return to their 
communities. CSOSA's ``Faith Community Partnership program'' embraces 
more than 25 member institutions, and its volunteer mentoring program 
has matched more than 80 returning offenders with individuals who are 
committed to helping offenders stay out of prison.
    Joining Mr. Quander today is one of CSOSA's key faith partners, the 
Reverend Donald Isaac. Rev. Isaac is Executive Director of the ``East 
of the River Clergy Police Community Partnership.'' Last year, this 
subcommittee provided $300,000 to help Rev. Isaac's organization 
renovate a building to begin operations of a 15 bed transitional 
housing facility for ex-offenders. I'm eager to hear more from Rev. 
Isaac about how these funds are helping the faith community serve the 
critical need for housing for ex-offenders.
    Thank you all for appearing before this subcommittee today. You 
will be limited to 5 minutes for your oral remarks, while copies of 
your written statements will be placed in the record in their entirety. 
The record will remain open for 30 days.
    I want to congratulate Chief Judge Eric Washington who began a 4-
year term as Chief Judge of the District of Columbia Court of Appeals 
on August 6, 2005. This is his first appearance before this 
Subcommittee and we welcome him as he presents the Courts budget.
    Now I would like to recognize the Ranking Member of the 
Subcommittee, Senator Landrieu, who has passionately advocated for 
Family Court reform here in the District and who has helped steer this 
subcommittee to ensure adequate funding of the Courts and with whom I 
have worked in the Senate on so many efforts to ensure the health, 
safety, and well-being of children and their families.
                                 ______
                                 
             Prepared Statement of Senator Mary L. Landrieu
    Good afternoon. As the first hearing of the District of Columbia 
subcommittee I would like to first thank Chairman Brownback for making 
the review of our Federal responsibilities a priority for our hearing 
schedule.
    Before I share some of my thoughts on the issue at hand, I would 
like to take this opportunity to suggest other areas for this committee 
to focus on this year. As you well know, the primary purpose of the 
D.C. subcommittee is to ensure the immediate and long term economic 
health of the District. There are many ways we can do that. We can 
continue our work to correct what GAO has identified as a structural 
imbalance between the cost of providing city services and their ability 
to take in revenue. But at the same time, we must focus on other tools 
for bringing greater prosperity and long term stability to the 
District. Cities that have good public schools, safe communities and 
strong families are cities that have strong economies. If we focus 
ourselves on providing these things in the District, we will go a long 
way toward the economic independence the city needs and deserves.
    I think we have come a long way toward reforming public education 
in the District. One of the driving forces behind this change has been 
public charter schools. In the District, charter school students now 
make up 20 percent of the public school population, some 16,500 
students. When people ask me why I support charter schools, I tell them 
it is because I believe in public education. I firmly believe that if 
we work to modernize the system of delivery for public education, allow 
greater opportunities for innovation and hold schools accountable for 
results, then we can provide a high quality public education for every 
child in America. One size does not fit all, and if we give our parents 
choices, they will choose what is best for their child.
    Until now, the focus of the charter school movement has been to 
increase the quantity of charter schools. But if we expect this to be 
more than a movement, we must shift our focus from quantity to quality. 
As the Washington Post put it, ``The District's experiment with charter 
schools has proved hugely popular with parents, but the schools vary 
widely in quality and have yet to demonstrate that they are doing 
better than the city's regular public schools in raising student 
achievement.''
    Our focus today is oversight of the Federal entities which provide 
the city's criminal justice functions, generally considered to be 
``state level function''. There are several areas in which this 
committee has invested in the city's infrastructure or services where 
we are striving for results. One of these projects, initiated by the 
committee in 2003, is the Court Services and Offender Supervision 
Agency (CSOSA) new Re-Entry and Sanctions Center at Karrick Hall which 
has made a difference in the lives of 1,500 D.C. residents rejoining 
the community after serving in prison. I hope to hear this was a 
successful investment made by this committee. Another major investment 
has been the revitalization of Judiciary Square and improvement of 
Court facilities. This is a substantial project, which I look forward 
to discussing shortly.
    The District's criminal justice activities are under the direct 
oversight of this subcommittee and are comprised of the main entities 
here today: the D.C. Courts, the CSOSA and the Public Defender Service. 
These agencies encompass the representation, adjudication, and 
supervision of offenders in the District. The final component of 
criminal justice, corrections, was successfully transitioned by the 
D.C. Correction's Trustee, closing Lorton prison and moving all adult 
felons to the Federal Bureau of Prisons in December 2001. Corrections 
of D.C. adult felons are now the sole responsibility of the Federal 
system; some 6,400 D.C. inmates housed in the Bureau of Prisons are 
scattered in 77 prisons nationwide. Though we do not fund the 
corrections of D.C. adult felons, we do fund re-entry of offenders and 
the ensuing challenges and impact on the District community--
particularly, the ability of offenders to maintain close ties with 
children and families.
    The CSOSA is the primary entity responsible for successful re-
entry, as well as supervision of citizens before trial and after 
conviction, or pre-sentencing. I welcome Director Paul Quander back to 
the committee, thank you for your leadership and we look forward to 
your testimony. In fiscal year 2007 CSOSA requests $214.4 million, an 
increase of $14.9 million (7.5 percent) from fiscal year 2006 and 
increases staff by 15 for a total of 1,486 positions (a 1 percent 
increase in staffing). The main increase ($3.4 million) is to staff the 
new Re-Entry and Sanctions Center which will provide a 30 day intensive 
re-entry program for the highest risk offenders. The President's budget 
also recommends increases over fiscal year 2006 for the two other 
primary functions, Pre-Trial and Public Defender Service, to continue 
their critical services. I look forward to hearing from their 
directors, Susan Schaffer and Avis Buchanan, to explore the request 
further and discuss creative areas of supporting your functions.
    The other Federal component under this subcommittee's jurisdiction, 
the D.C. Courts, is responsible for the administration of justice for 
District residents. I am glad to welcome back Chief Judge Rufus King 
and welcome the new head of the Joint Committee on Judicial 
Administration, Chief Judge Eric Washington. In addition, I would like 
to take this opportunity to recognize the new presiding judge of the 
Family Court, Anita Josey-Herring, who has served superbly as deputy 
and will continue the great gains made for children and families begun 
by Judge Lee Satterfield.
    The Courts have submitted a separate request for a total of $350 
million for fiscal year 2007. Funding is proposed to support court 
system operations and capital improvements. This is $131 million more 
than the enacted level in fiscal year 2006, which is nearly a 60 
percent increase. Of this increase, the majority is for the capital 
improvement plan for Judiciary Square, which entails major renovation 
of the five main buildings on the square. The President's request for 
fiscal year 2007 for the entire Court's is $196.6 million, which is a 
decrease of $20 million from fiscal year 2006 (or a cut of 10 percent). 
My primary concern is the President did not keep the promise in this 
budget to the restoration of Judiciary Square, a project which requires 
the renovation of multiple buildings simultaneously. The Courts budget 
justification states you will require $188.7 million in fiscal year 
2007 to continue the major renovations and the maintenance program. 
This request is an increase of $108 million over what was provided last 
year and it is impossible to see how this committee can provide such a 
substantial increase, but it is equally disheartening to think the 
renovations will be further delayed, possibly not complete until well 
beyond 2015. We have much work ahead of us to determine the needs of 
the Courts and how to meet them in a stretched Federal budget year. I 
would like to focus today on the critical gap in the President's 
request of $23 million to fully fund the contract, just signed by the 
Court, to restore and re-open the Old Courthouse. The committee has 
already provided $76 million for this project and we must focus on how 
to complete it.
    The Master Plan was begun in 2003 with our commitment to fund 
renovation of the entire court system, but with a particular eye to 
creating a model Family Court building. The committee has provided 
$142.5 million since fiscal year 2002 for renovations in the Capital 
Master Plan. I understand that each project hinges on the first being 
completed, because there is no room for swing space downtown. However, 
I am dismayed that the President's budget does not provide the 
remaining $23 million to have a functional Old Courthouse, which would 
allow people to move out of the Moultrie building to facilitate the 
Family Court expansion. Beyond this, I question spending greater sums 
on maintenance of buildings. We have limited resources. Chairman 
Brownback and I must write a bill which chooses among a limited pool of 
funding. None of us want court employees or the public that comes to 
the court every day to work in the conditions I have seen there. But we 
cannot do it all, and it may be sensible to complete major projects 
which drastically improve working conditions rather than ``band-
aiding'' small corridors for years to come.
    Under Chairman Brownback's leadership in 1997 the D.C. 
Revitalization Act eliminated the $600 million Federal payment 
appropriated by Congress to the District. The Act transferred several 
functions of the D.C. government to full Federal responsibility, areas 
traditionally carried out at the state level: criminal justice and 
District employee pensions. I hope Chairman Brownback and I can focus 
this year on the effect of the Revitalization Act, and work to find the 
appropriate balance between the Federal government and the District.
    I look forward to your testimony today and working together to meet 
the needs of the District's criminal justice sector, as well as meeting 
the responsibility of Congress to the city.

    Judge Washington. Thank you very much, Mr. Chairman. 
Basically----
    Senator Brownback. Would you get that on?
    Judge Washington. I think I am on now.
    Senator Brownback. Thank you.
    Judge Washington. Mr. Chairman, thank you for the 
opportunity to discuss the 2007 budget request of the District 
of Columbia Courts. I am Eric T. Washington. I am appearing in 
my capacity as the chair of the Joint Committee on Judicial 
Administration for the District of Columbia, which is the 
policymaking body for the D.C. Courts. As you know, I also 
serve as chief judge of District of Columbia Court of Appeals.
    I just want to introduce those who are with me today very 
quickly, because I think I am going to be the only one, unless 
you have some questions, who will be making an extensive, now 
modified, oral statement. With me this afternoon are: Chief 
Judge Rufus King of the Superior Court; Judge Anita Josey-
Herring, the Presiding Judge of Family Court; Ms. Anne Wicks, 
the court's executive officer; and Mr. Sanchez, Joseph Sanchez, 
our administrative officer.
    The critical focus, getting to the nub of the issue and 
your point, of our 2007 budget request is ensuring that the 
courts of this jurisdiction have a sound infrastructure and 
first-rate security for the approximately 10,000 members of the 
public who visit our courthouses each and every day. The 
courts' capital needs are significant because we are 
responsible for over 1 million gross square feet of space in 
Judiciary Square in five buildings, which range in age from 30 
years to 200 years. We must maintain, preserve, and build court 
facilities that are safe, functional, and emblematic of their 
public significance and character.
    The courts' capital budget addresses these responsibilities 
as a comprehensive matter based on the master plan for 
facilities, which delineates our space requirements, outlines 
plans to address maintenance needs, and provides a blueprint 
for optimal space utilization both in the near and in the long 
term.
    The old courthouse is an architectural jewel and an 
historic landmark. Built from 1821 to 1881, it is one of the 
oldest buildings in the District of Columbia. Inside its walls 
Daniel Webster and Francis Scott Key practiced law and John 
Surratt was tried for his role in the assassination of Abraham 
Lincoln.
    Because of its age and condition, the structure requires 
extensive work to meet health and safety building codes and to 
re-adapt it for modern use as a courthouse. The restoration of 
the old courthouse is pivotal to meeting the space needs of the 
court system as delineated in the master space plan. By 
relocating the court of appeals to the old courthouse, nearly 
40,000 square feet of space will become available in the 
Moultrie Courthouse, space needed for the relocation of 
Superior Court functions so that we can fully consolidate all 
of the services needed for family court.
    Thanks to your support, the old courthouse renovation 
project received funding in fiscal years 2005 and 2006. At the 
time, the General Services Administration and independent 
construction consultants believed that the renovation could be 
completed for the amount appropriated. However, since those 
cost estimates were made, construction costs have skyrocketed 
due to circumstances beyond our control. In addition, the 
unwillingness of construction companies to bid on a phased-
funding project delayed our start date for the construction, 
thus contributing to the overall increase in costs. As a 
result, appropriations to date will not permit the courts to 
complete the restoration of the old courthouse as approved by 
the Commission of Fine Arts, the National Capital Planning 
Commission, and the Historic Preservation Review Board.
    Just this past week we concluded our procurement process 
for that construction project and we learned that the 
construction contract for the renovation of the old courthouse 
requires an additional $23 million in fiscal year 2007.
    Should funding not be provided, the courts would have to 
reprogram nearly half of the capital funds included in the 
President's 2007 recommendation. This would bring the majority 
of our infrastructure maintenance initiatives to a standstill. 
The negative impact on the safety and security of the public we 
serve would be immeasurable. We will therefore be submitting a 
revised request to you shortly.
    The courts are committed to ensuring that the old 
courthouse renovation is completed on time and within budget, 
as have each of our prior capital projects.
    Another critical priority for the District of Columbia 
courts in 2007 is the enhancement of security for the public as 
well as for our staff and judges, particularly in light of the 
recent incidents around the Nation. The President's 2007 
recommendation for the courts finances additional security 
officers for the family court and some security enhancements 
for our facilities.

                           PREPARED STATEMENT

    I want to thank you, Mr. Chairman, and I want to recognize, 
of course, Senator Landrieu for your involvement and your 
leadership on issues involving the courts. We appreciate more 
than I can tell you the support we have received from Congress 
in the past, and we certainly look forward to working with you 
throughout the year on this appropriation.
    We are prepared to answer any questions you might have.
    Senator Brownback. Thank you very much, Judge Washington.
    [The statement follows:]
          Prepared Statement of Chief Judge Eric T. Washington
    Mister Chairman, Senator Landrieu, Subcommittee members, thank you 
for this opportunity to discuss the fiscal year 2007 budget request of 
the District of Columbia Courts. I am Eric T. Washington, and I am 
appearing in my capacity as the Chair of the Joint Committee on 
Judicial Administration in the District of Columbia, the policy-making 
body for the District of Columbia Courts. I also serve as Chief Judge 
of the District of Columbia Court of Appeals.
    As you know, this jurisdiction has a two-tier court system 
comprised of the D.C. Court of Appeals, our court of last resort, and 
the Superior Court of the District of Columbia, a trial court of 
general jurisdiction, which includes our Family Court. Administrative 
support functions for our Courts are provided by what is known as the 
Court System.
    My remarks this afternoon will summarize our overall budget request 
and highlight our most critical priority, our capital budget. With me 
this afternoon are Chief Judge Rufus King, III, Chief Judge of the 
Superior Court, Ms. Anne Wicks, the Executive Officer for the Courts, 
and Mr. Joseph Sanchez, our Administrative Officer. We are prepared to 
answer questions on the budget request for the D.C. Courts.

                              INTRODUCTION

    We live in a changing environment, facing new challenges to our 
nation, our Nation's Capital, and our court system. Whatever challenges 
we face, the fair and effective administration of justice remains 
crucial to our way of life. The District of Columbia Courts are 
committed to responding to the changing needs of our society and 
meeting these new challenges. We have been steadfast in our mission, 
which is to protect rights and liberties, uphold and interpret the law, 
and resolve disputes peacefully, fairly and efficiently in the Nation's 
Capital. Through our Strategic Plan, the D.C. Courts strive to enhance 
the administration of justice; broaden access to justice and service to 
the public; promote competence, professionalism, and civility; improve 
court facilities and technology; and build trust and confidence in our 
courts. We appreciate the support of this Subcommittee which makes 
possible the achievement of these goals for our community.
    The D.C. Courts are committed to fiscal prudence and sound 
financial management. Although we have requested funds for several 
important operating initiatives, the critical focus of our fiscal year 
2007 budget request is ensuring that the courts of this jurisdiction 
have a sound infrastructure and first-rate security. Only by investing 
in these areas will the Courts be in a position to ensure that our 
facilities are in a safe and healthy condition and that the type of 
security necessary to protect our citizens and our institution is in 
place. Focus on these capital areas is particularly critical now to 
meet these needs and to ensure that the quality of justice is not 
compromised.
    To support our mission and goals in fiscal year 2007, the Courts 
budget submission requested $334,839,000 for court operations and 
capital improvements. Of this amount, $9,529,000 is requested for the 
Court of Appeals; $94,675,000 is requested for the Superior Court; 
$57,175,000 is requested for the Court System; and $173,460,000 is 
requested for capital improvements for courthouse facilities. In 
addition, the Courts requested $54,000,000 for the Defender Services 
account.

                     THE PRESIDENT'S RECOMMENDATION

    I am pleased to report that the President's recommendation for 
fiscal year 2007 supports some of our most important priority items; 
however, the level of capital funding is not adequate to complete 
critical projects nor to keep our capital projects on the schedule 
established by our Master Plan for D.C. Courts Facilities (hereinafter 
Facilities Master Plan). The President's recommendation includes 
capital investment in physical security and funds to hire additional 
security officers for critical courtroom proceedings not protected by 
the United States Marshal Service, such as those in Family Court. The 
President's recommendation also finances completion of new holding 
facilities for juveniles appearing in Family Court and of Building A 
modernization, as well as continuation of much-needed infrastructure 
work.
    Unfortunately, the President's capital budget recommendation of $51 
million, from a $173 million request, is not adequate to complete 
construction of the Old Courthouse nor to initiate other facility 
projects scheduled to begin in fiscal 2007. Restoring the Old 
Courthouse for use by the Court of Appeals and preserving it for future 
generations is the lynchpin in the Courts' Facilities Master Plan. In 
2002, when the Facilities Master Plan was completed, there was a 
shortfall of 48,000 square feet for Court operations--with a projection 
of a 134,000 square footage shortfall within 10 years. The restoration 
of the Old Courthouse, and the subsequent relocation of the Court of 
Appeals from the Moultrie Courthouse, is critical to implementing our 
plan to ensure adequate space for the justice system in the Nation's 
Capital. Until this building is restored, the Courts cannot begin to 
renovate and relocate other court facilities and operations, including 
Family Court. To address courtwide space needs and facilities 
deficiencies, the Courts have developed a tight schedule of renovation, 
modernization, and reorganization. The President's recommended 2007 
funding level would delay numerous projects, and, as we have learned in 
a very painful manner recently, any delay in construction projects 
significantly increases their cost. Inadequate funding will also result 
in an inordinate delay in occupancy and reoccupancy of space critically 
needed for efficient court operations.
    We are gratified by the Presidents support for key items, but to 
meet our facilities needs in a timely and cost effective manner, 
additional resources are required in fiscal 2007.

                          RECENT ACHIEVEMENTS

    As the Courts approach the ninth year of direct federal funding in 
fiscal year 2007, we continue to enhance services to the community and 
demonstrate our commitment to fiscal responsibility. We are 
particularly proud of our recent achievements that include the 
following:
  --commencement of the restoration of the Old Courthouse, a building 
        of historic and architectural significance that is critical to 
        meeting our long term space needs, following approval of the 
        project by the National Capital Planning Commission, Commission 
        of Fine Arts and Historic Preservation Board;
  --development and approval by the National Capital Planning 
        Commission of a Master Plan for Judiciary Square, an urban 
        design and renewal plan to revitalize this historic area of the 
        District of Columbia that dates to the original L'Enfant Plan 
        for the Nation's Capital;
  --further implementation of the Family Court Act, including: newly 
        constructed, family friendly facility on the JM level of the 
        Moultrie Courthouse in fiscal year 2004, which houses the new 
        Central Intake Center to provide one-stop public service; 
        implementation of the one family-one judge principle; 
        development of attorney practice standards and creation of 
        attorney panels for neglect and juvenile cases; establishment 
        of a Family Treatment Court for mothers with substance abuse 
        issues and their children; creation of a Self-Help Center for 
        indigent and unrepresented litigants; opening the Mayor's 
        Services Liaison Center in the courthouse to coordinate the 
        provision of needed social services; and transferring all 
        required children's cases to Family Court judges;
  --courtwide implementation of a five-year strategic plan, Committed 
        to Justice in the Nation's Capital, to ensure that the Court's 
        goals, functions, and resources are strategically aligned for 
        maximum efficiency and effectiveness;
  --installation and conversion to a new case management system, the 
        Integrated Justice Information System (IJIS) which consolidates 
        19 distinct automated databases into one comprehensive system, 
        thereby ensuring complete information on all cases pertaining 
        to one individual or family to enhance case processing and 
        judicial decision-making;
  --establishment, by the Court of Appeals, of the District of Columbia 
        Access to Justice Commission to enhance access to justice for 
        all persons without regard to economic barriers;
  --comprehensive revision of the Court of Appeals rules of practice, 
        the first such revision since the mid-1980's;
  --development and implementation of a pilot appellate mediation 
        program to assist parties in reaching satisfactory case 
        outcomes more expeditiously, thereby saving them and the Court 
        of Appeals time and money;
  --revision of the Criminal Justice Act plan to improve quality legal 
        representation for indigent criminal defendants in the Court of 
        Appeals;
  --continued enhancements to the Courts' website, designed to increase 
        public information and access, including implementation of on-
        line juror services;
  --achievement of an ``unqualified'' opinion for the fourth year in a 
        row on the Courts' independent financial audit, conducted in 
        accordance with OMB Circular No. A-133;
  --creation of a Landlord Tenant Resource Center to provide free legal 
        information to unrepresented parties and referrals to legal and 
        social service providers;
  --promulgation of draft probate attorney practice standards and 
        creation of the Probate Review Task Force, to enhance service 
        to incapacitated adults and other parties in probate cases;
  --reengineering of the Appeals Coordinator's Office to enhance 
        service to the public and facilitate appellate case filings by 
        establishing a single point of filing for all appeals;
  --comprehensive space renovation, including mechanical, electrical 
        and security upgrades; new space for the Landlord Tenant and 
        Small Claims courts and juvenile probation (the Social Services 
        Division of the Family Court) in Building B; and renovated 
        space in Building A for the Crime Victims Compensation Program, 
        as the Courts' Facilities Master Plan is implemented.

           CRITICAL FISCAL YEAR 2007 PRIORITY--INFRASTRUCTURE

    The District of Columbia Courts serve approximately 10,000 
courthouse visitors each day, process more than 200,000 cases each 
year, and employ a staff of 1,200 who directly serve the public, 
process the cases, and provide administrative support. The District of 
Columbia Courts are among the busiest and most productive court systems 
in the United States \1\. For example, a published report indicates 
that the Superior Court of the District of Columbia has the tenth 
highest number of cases filed per judge, and the second highest number 
of civil case filings per capita of all state courts in the nation, and 
that our Court of Appeals has the highest number of appellate filings 
per capita among all states.
---------------------------------------------------------------------------
    \1\ See Examining the Work of State Courts 2004: A National 
Perspective from the Court Statistics Project, by R. Schauffler, R. 
LaFountain, N. Kauder, & S. Strickland (National Center for State 
Courts 2005).
---------------------------------------------------------------------------
    The Courts' capital needs are significant because we are 
responsible for five buildings, including the Moultrie Courthouse, one 
of the busiest and most heavily visited public buildings in the 
District of Columbia. Our funding requirements include projects 
critical to maintaining, preserving, and building safe and functional 
courthouse facilities essential to meeting the heavy demands of the 
administration of justice in our Nation's Capital. To effectively meet 
these demands, the Courts' facilities must be both functional and 
emblematic of their public significance and character. The 2007 capital 
budget seeks to address these issues in a comprehensive manner.
    Facilities that provide adequate and efficiently designed space are 
essential to enhance the administration of justice, simplify public 
interaction with courts, and improve access to justice for all. In 
contrast, facilities with inadequate space for employees to perform 
their work, with evidence of long-deferred maintenance and repair, and 
with inefficient layouts can detract from the public perception of the 
dignity and importance of a court and impair its ability to function in 
the community. This negative perception impacts public trust and 
confidence in courts, a nationally recognized critical requirement for 
the effective administration of justice. The National Center for State 
Courts succinctly states the relationship between courts and their 
facilities:

    ``Court facilities should not only be efficient and comfortable, 
but should also reflect the independence, dignity, and importance of 
our judicial system. . . . It is difficult for our citizens to have 
respect for the courts and the law, and for those who work in the 
court, if the community houses the court in facilities that detract 
from its stature.'' \2\
---------------------------------------------------------------------------
    \2\ Don Hardenbergh with Robert Tobin, Sr. and Chang-Ming Yeh, The 
Courthouse: A Planning and Design Guide for Court Facilities, National 
Center for State Courts, 1991, p. xiii.

    The D.C. Courts presently maintain 1.1 million gross square feet of 
space in Judiciary Square. The age of the Courts' buildings range from 
30 years to 200 years. Deferred maintenance forced by limited financial 
resources left these buildings in a state that may be perceived to 
detract from the stature of the Courts. We are beginning to see 
improvements, thanks to your support in recent years, but much work 
remains to be done.
    The Courts' fiscal year 2007 budget request seeks resources to meet 
health and safety building codes and to provide safe facilities for the 
public. For example, adequate ventilation must be provided in the 
courthouse buildings. Electrical systems must be upgraded, both to meet 
modern office needs and to limit risk of fire. Fire and security 
recommendations from the U.S. Marshals Service must be implemented. 
Safety hazards posed by disintegrating flooring materials must be 
remedied.
    The halls of justice in the District of Columbia must be well 
maintained, efficient, and adequately sized to inspire the confidence 
of the members of the public who enter our buildings. The Courts' 
facilities plans reflected in the fiscal year 2007 budget request will, 
over the next 10 years, meet the well-documented space needs of the 
Courts and return the buildings to a condition that inspires trust in 
the justice system of the Nation's Capital.
    The Courts' facilities plans will also enhance the efficient 
administration of justice and improve public access to justice in this 
jurisdiction by co-locating related functions. The restoration of the 
Old Courthouse for the Court of Appeals, for example, will provide the 
public with a single location for services that are currently located 
on different floors and in different buildings from most Court of 
Appeals offices. Offices related to the Family Court will be 
consolidated in the Moultrie Courthouse, which will be made possible 
only as we renovate space in other buildings, converting usage to 
public court proceedings and relocating operations from Moultrie. More 
efficient location of these offices will not only facilitate public 
access to the Courts, but will also enhance the efficiency of 
operations.
    In addition, basic mechanical systems impact the administration of 
justice. A broken air conditioning or heating system, for example, can 
force suspension of trials when courtroom temperatures reach unbearable 
levels.
Facilities in the Courts' Strategic Plan
    The capital projects included in this request are an integral part 
of the Courts' Strategic Plan, completed in fiscal 2003. I am pleased 
to have co-chaired the Strategic Planning Leadership Council, which, 
with broad input from the community, developed the Strategic Plan of 
the D.C. Courts, entitled Committed to Justice in the Nation's Capital. 
The Strategic Plan articulates the mission, vision, and values of the 
Courts in light of current initiatives, recent trends, and future 
challenges. It addresses issues such as implementation of a Family 
Court, increasing cultural diversity, economic disparity, complex 
social problems of court-involved individuals, the increasing presence 
of litigants without legal representation, rapidly evolving technology, 
the competitive funding environment, enhanced public accountability, 
competition for skilled personnel, and increased security risks.
    Facility improvements were identified as a high priority among all 
constituency groups surveyed by the Courts as the Strategic Plan was 
developed. Employees, judges, and stakeholders were asked to identify 
the most important issues the Courts must address in the coming years, 
and each ranked ``enhance court facilities'' among the highest 
priorities. In addition, approximately half of judges and 65 percent of 
employees reported inadequate light, heat, air conditioning, and 
ventilation in their workspaces.
    ``Improving Court Facilities and Technology'' is the Plan's 
Strategic Issue 4. The Strategic Plan states--

    ``The effective administration of justice requires an appropriate 
physical and technical environment. Court personnel and the public 
deserve facilities that are safe, comfortable, secure, and functional, 
and that meet the needs of those who use them. Technology must support 
the achievement of the Courts' mission.''
Overview of the D.C. Courts' Facilities
    In preparing the fiscal year 2007 capital budget request, the 
Courts carefully assessed the capital requirements essential to 
performing our statutory and constitutionally mandated functions. 
Significantly increased space needs for court operations and inadequate 
capital funding in prior years that necessitated maintenance deferral 
compel the Courts' significant capital request for fiscal year 2007. 
The Courts' request for capital funding is particularly critical in 
fiscal year 2007 because of the need: (1) to address essential public 
health and safety conditions in our busy court buildings, including the 
Moultrie Courthouse to which some 10,000 people come each day; (2) to 
meet the Courts' space requirements for conducting their business, 
which includes our new Family Court recently established by Congress; 
and (3) to avoid interruption of ongoing projects and the Facilities 
Master Plan schedule as delays result in substantially increased costs.
    The Courts currently maintain four buildings in Judiciary Square: 
the Old Courthouse at 451 Indiana Avenue, the Moultrie Courthouse at 
500 Indiana Avenue, N.W., and Buildings A and B, which are located 
between 4th and 5th Streets and E and F Streets, N.W. In addition, when 
the District government vacates Building C, the old Juvenile Court, 
later this year it will be returned to the Courts' inventory. Recent 
studies by the General Services Administration (GSA) have documented 
both the D.C. Courts' severe space shortage \3\ and the inadequacy of 
the physical condition of the Courts' facilities.\4\
---------------------------------------------------------------------------
    \3\ Master Plan for D.C. Courts Facilities, 2002.
    \4\ Building Evaluation Report, 2001.
---------------------------------------------------------------------------
    The Master Plan for D.C. Courts Facilities, conducted by experts in 
architecture and space planning, and secured through the GSA, defined a 
shortfall of 48,000 square feet of space in 2002, with a shortfall of 
134,000 square feet projected in the next decade. The experts proposed 
to meet the Courts' space needs through three mechanisms: (1) 
renovation of the Old Courthouse for use by this jurisdiction's court 
of last resort, the District of Columbia Court of Appeals, which will 
free critically needed space in the Moultrie Courthouse for trial court 
operations and Family Court consolidation; (2) construction of an 
addition to the Moultrie Courthouse, to include a separately accessible 
Family Court facility; and (3) the occupation of Building C, adjacent 
to the Old Courthouse.
            Old Courthouse
    The restoration of the Old Courthouse for use by the District of 
Columbia Court of Appeals is pivotal to meeting the space needs of the 
court system. Thanks to your support, this project received substantial 
funding over a two-year period in fiscal years 2005 and 2006. At the 
time, it was estimated by the GSA and independent construction 
consultants that the renovation could be completed for this amount. 
However, construction costs have skyrocketed because of market 
conditions which are beyond our control as well as the phased funding 
approach. Based on current market conditions, we now know that 
appropriations to date ($76.5 million) will not permit the Courts to 
complete the restoration as designed and approved by the Commission of 
Fine Arts, the National Capital Planning Commission, and the Historic 
Preservation Review Board. The Courts completed the procurement process 
last week and issued a Letter of Intent to the winning bidder. The 
construction contract for the Old Courthouse restoration is $99 
million. Therefore, the Courts are requesting that Congress provide an 
additional $23 million in fiscal year 2007 to fully fund the 
construction contract. The Courts have a history of completing capital 
projects on time and within budget. We are confident that the Old 
Courthouse restoration will be managed in the same manner.
    The Old Courthouse, built from 1821 to 1881, is one of the oldest 
public buildings in the District of Columbia. Inside the Old 
Courthouse, Daniel Webster and Francis Scott Key practiced law and John 
Surratt was tried for his part in the assassination of President 
Abraham Lincoln. The architectural and historical significance of the 
Old Courthouse led to its listing on the National Register of Historic 
Places and its designation as an official project of Save America's 
Treasures. The unique character of the building, together with its 
compact size, makes it ideal for occupancy by the highest court of the 
District of Columbia. At the same time, the structure requires 
extensive work to meet health and safety building codes and to readapt 
it for modern use as a courthouse. The restoration of the Old 
Courthouse for use as a functioning court building will not only 
provide much needed space for the Courts, but it will also preserve a 
historic treasure of our nation and impart new life to one of the most 
significant historic buildings and precincts in Washington, D.C. It 
will meet the needs of the Courts and benefit the community through an 
approach that strengthens a public institution, restores a historic 
landmark, and stimulates neighborhood economic activity.
            Moultrie Courthouse
    Investment in the restoration of the Old Courthouse not only will 
improve efficiency by co-locating the offices that support the Court of 
Appeals, but also will free up 37,000 square feet of space in the 
Moultrie Courthouse which is critically needed for Superior Court and 
Family Court functions. The Moultrie Courthouse is uniquely designed to 
meet the needs of a busy trial court. It has three separate and secure 
circulation systems--for judges, the public, and the large number of 
prisoners present in the courthouse each day. Built in 1978 for 44 
trial judges, today it is strained beyond capacity to accommodate 59 
trial judges and 24 magistrate judges in the trial court and 9 
appellate judges, as well as senior judges and support staff for the 
two courts. Essential criminal justice and social service agencies also 
occupy office space in the Moultrie Courthouse. The Courts have clearly 
outgrown the space available in the Moultrie Courthouse. The space is 
inadequate for this high volume court system to serve the public in the 
heavily populated metropolitan area in and around our Nation's Capital.
Master Plan for D.C. Courts Facilities
    The Courts have been working with GSA on a number of capital 
projects since fiscal year 1999, when the Courts assumed responsibility 
for our capital budget from the District's Department of Public Works. 
In 1999, GSA produced a study for the renovation of the Old Courthouse 
to house the D.C. Court of Appeals. In 2001, GSA prepared Building 
Evaluation Reports that assessed the condition of the D.C. Courts' 
facilities. These projects culminated in the development of the first 
Master Plan for D.C. Courts Facilities, which delineates the Courts' 
space requirements and provides a blueprint for optimal space 
utilization, both in the near and long term.
    The Master Plan for D.C. Courts Facilities, completed in December 
2002, incorporates significant research, analysis, and planning by 
experts in architecture, urban design and planning. During this study, 
GSA analyzed the Courts' current and future space requirements, 
particularly in light of the significantly increased space needs of the 
Family Court. The Master Plan examined such issues as alignment of 
related court components to meet evolving operational needs and enhance 
efficiency; the impact of the D.C. Family Court Act of 2001 (Public Law 
Number 107-114); accommodation of the Courts' space requirements 
through 2012; and plans to upgrade facilities, including, for example, 
security, telecommunications, and mechanical systems. The Plan 
identified a space shortfall for the Courts over the next decade of 
134,000 occupiable square feet, and, as noted above, proposed to meet 
that need through renovation of the Old Courthouse; construction of an 
addition to the Moultrie Courthouse; and reoccupation of Building C. In 
addition, the Plan determined that all court facilities must be 
modernized and upgraded to meet health and safety standards and to 
function with greater efficiency.
Family Court in the Master Plan
    The Facilities Master Plan incorporates an Interim Space Plan for 
the Family Court that provides the facilities necessary to implement 
fully the Family Court Act and to centralize the public face of Family 
Court operations.\5\ It also incorporates a Long Term Space Plan for 
Family Court that optimizes space and programmatic enhancements for the 
Family Court.
---------------------------------------------------------------------------
    \5\ By public face we mean those offices, courtrooms and waiting 
rooms that are used by children and families having business before the 
court. Administrative space, such as file rooms, was not included in 
the Interim Space Plan.
---------------------------------------------------------------------------
            Interim Family Court Space Plan
    The Interim Space Plan for Family Court was completed in the summer 
of 2004 and procedural changes have been implemented within the Family 
Court to meet the requirements of the Family Court Act. Recently 
completed components of the Plan are straightforward.
  --During fiscal year 2002, the Courts constructed and reconfigured 
        space in the Moultrie Courthouse to accommodate nine new Family 
        Court magistrate judges and their support staff. The Courts 
        also constructed four new hearing rooms in Building B for 
        Family Court magistrate judges hearing child abuse and neglect 
        cases, and renovated short-term space for the Mayor's Services 
        Liaison Office.
  --Two Superior Court operations formerly located on the JM level of 
        the Moultrie Courthouse, the Small Claims and Landlord Tenant 
        Branches of the Superior Court's Civil Division, were relocated 
        in November 2003 to renovated space in Building B to free space 
        for the Family Court in the Moultrie Courthouse.
  --Construction in JM Level of the Moultrie Courthouse for the Interim 
        Space Plan of the Family Court was completed in the summer of 
        2004, and significant progress has been made toward 
        establishing a fully consolidated Family Court. The project 
        provided the Family Court with three new courtrooms, three new 
        hearing rooms, the Mayor's Services Liaison Office, a 
        Centralized Family Court Case Filing and Intake Center, a 
        family-friendly child waiting area, and a new Family Court 
        entrance from the John Marshall Plaza into the Moultrie 
        Courthouse. In addition, the corridors and hallways along the 
        courthouse's JM-level were redesigned to create family-friendly 
        seating and waiting areas.
    Given the Courts' commitment to meet the requirements of the Family 
Court Act as expeditiously as possible, we decided to move forward with 
consolidating as much of the Family Court operations and offices as 
possible within existing space, pending the construction of an addition 
to the Moultrie Courthouse.
            Long-Term Family Court Space Plan
    The long-term plan for the Family Court includes expansion of the 
Moultrie Courthouse. Once complete, it will provide a state-of-the-art 
facility for Family Court operations, with its own identity and 
separate entrance, which will be a model for the nation. The plan 
envisions a safe facility that will be inviting and welcoming to 
families with children of all ages and that will incorporate a ``one-
stop'' concept by locating all related court and D.C. government units 
in one place to make it easier for families to access needed services. 
The interim Family Court plan is designed to transition smoothly into 
this long-term plan, and to maximize the efficient use of time and 
money.
    When the Family Court Act was enacted, the Courts studied the cost 
and feasibility of consolidating all functions and services required to 
meet the mandates of the Act in each of our facilities. After extensive 
study, it was determined that only the Moultrie Courthouse had the 
amount of space necessary to meet these requirements. Given that court 
operations already exceeded the capacity of the Moultrie Courthouse, it 
was apparent that certain court operations would need to be relocated 
to other buildings to make room for Family Court. The approach adopted 
in the Facilities Master Plan was developed with the overarching 
objectives of keeping the court system continually operating 
efficiently while carefully complying with the Family Court Act.
    Capital projects related to the Family Court Act include the 
renovation and expansion of the Old Courthouse for the Court of 
Appeals, to free space in the Moultrie Courthouse; renovation of 
Buildings A & B for civil court functions (including Small Claims and 
Landlord Tenant operations which have been relocated to Building B, 
thereby making Family Court space available on the JM level of the 
Moultrie Courthouse, and Probate and Multi-Door Dispute Resolution 
operations which will be moved to Building A at the end of 2006 and in 
early 2007); occupation and renovation of Building C for Information 
Technology and alternative dispute resolution operations, providing 
additional space in Moultrie for Family Court social services; leasing 
of space for court support functions (such as budget, personnel, 
procurement and contracts); and renovation and expansion of the 
Moultrie Courthouse. These projects will shift operations currently 
located in existing Court facilities (1) to create ``swing space'' that 
permits the required construction to take place in an operating 
courthouse that receives 10,000 visitors daily and (2) to make 
contiguous office space available for all related Family Court 
activities.
Historic Judiciary Square
    The historical and architectural significance of Judiciary Square 
lend dignity to the important business conducted by the Courts and, at 
the same time, complicate somewhat efforts to upgrade or alter the 
structures within the square. Great care has been exercised in 
designing the restoration of the Old Courthouse, the centerpiece of the 
square, to preserve the character not only of the building, but also of 
Judiciary Square. As one of the original and remaining historic green 
spaces identified in Pierre L'Enfant's plan for the capital of a new 
nation, Judiciary Square is of keen interest to the Nation's Capital.
    Buildings A, B, and C, dating from the 1930's, are situated 
symmetrically along the view corridor comprised of the National 
Building Museum, the Old Courthouse, and John Marshall Park and form 
part of the historic, formal composition of Judiciary Square. The 
Moultrie Courthouse, although not historic, is also located along the 
view corridor and reinforces the symmetry of Judiciary Square through 
its similar form and material to the municipal building located across 
the John Marshall Plaza. Currently the Moultrie Courthouse provides 
space for most Court of Appeals, Superior Court, and Family Court 
operations and clerk's offices.
Judiciary Square Master Plan
    The National Capital Planning Commission (NCPC) required that the 
D.C. Courts develop a Judiciary Square Master Plan--essentially an 
urban design plan--before any construction could be commenced in the 
area. The D.C. Courts have worked with all stakeholders on the Plan, 
including the United States Court of Appeals for the Armed Forces, the 
National Law Enforcement Officers Memorial Fund (Memorial Fund), the 
Newseum, and the Metropolitan Police Department. A draft Judiciary 
Square Master Plan was approved in August 2003. The final plan was 
approved in August 2005.
    The Judiciary Square Master Plan resolves important technical 
issues related to access, service, circulation, and security within a 
rapidly changing and publicly oriented area of the District, while re-
establishing the importance of this historic setting in the ``City of 
Washington.'' It provides a comprehensive framework for capital 
construction for all local entities, including the D.C. Courts, as we 
implement the Facilities Master Plan, and it lays the groundwork for 
the regulatory approval process with the National Capital Planning 
Commission, the U.S. Commission of Fine Arts, the District of Columbia 
Office of Historic Preservation, the District of Columbia Office of 
Planning, and the District of Columbia Department of Transportation, 
among others.
    The Judiciary Square Master Plan recommends (1) re-introduction of 
landscaped green space around court buildings and the construction of 
secure underground parking garages to house vehicles now parked in 
surface lots; (2) integration of service areas, security features and 
landscape concepts; and (3) coordination by the Memorial Fund, with the 
Courts, as they plan to construct a museum within the Judiciary Square.
    The Judiciary Square Master Plan will ensure the preservation of 
one of the last green spaces in the District of Columbia awaiting 
revitalization, incorporating areas where the public can gather and 
relax, and creating a campus-like environment where citizens can feel 
safe and secure. The Judiciary Square Master Plan will be of great 
benefit to the city of Washington, D.C.

                    COMPLETE BUDGET REQUEST SUMMARY

    To build on past accomplishments and to serve the public in the 
District of Columbia, the Courts require resources in fiscal year 2007 
to invest in capital infrastructure; security; strategic management; 
self-representation services; services for the most vulnerable; 
enhanced and more timely customer service; financial, materiel, and 
facilities management; and human resources. Without additional capital 
resources, the courthouse and the District's historic buildings will 
continue to deteriorate; without targeted investments in these critical 
areas, the quality of justice in the Nation's Capital will be 
compromised. The fiscal year 2007 request addresses these requirements 
by:
  --Investing in Infrastructure.--To ensure the health, safety, and 
        quality of court facilities and to address court space needs, 
        the fiscal year 2007 capital request totaled $173,460,000. The 
        fiscal year 2007 capital request incorporates a multitude of 
        projects. The request is a comprehensive, five-year plan, with 
        projects divided into phases to the extent practicable. To 
        avoid unduly increasing costs and disruptive delays in 
        completing construction projects essential to operations, it is 
        particularly critical that projects underway not be 
        interrupted. To keep on schedule and complete the Master Plan 
        in 2013, the Courts' capital funding request for fiscal year 
        2007 must be met.
      The first part of the capital budget request identifies projects 
        to renovate, improve, and expand court facilities, as specified 
        in the Facilities Master Plan, and totaled $112,160,000. (1) As 
        noted above, the main focus of our capital program is the Old 
        Courthouse restoration. The Courts' original fiscal year 2007 
        budget submission, which was prepared before the procurement 
        process for the restoration of the Old Courthouse was 
        completed, included $7.8 million for the Old Courthouse. We now 
        know that the construction contract for the Old Courthouse is 
        $99 million and, therefore the Courts will require $23 million 
        rather than $7.8 million in 2007. We will be submitting a 
        revised 2007 budget request, and are here today to request an 
        additional $23 million beyond the President's recommendation. 
        (2) In the Moultrie Courthouse, $36.7 million is requested for: 
        the renovation and expansion of juvenile holding for Family 
        Court, the Indiana Avenue expansion for security improvements, 
        and the renovations and reorganizations work to consolidate 
        Family Court operations. (3) To renovate Building C for court 
        use, $27 million is requested. (4) For construction in Building 
        A and Building B, $14.7 million is requested. (5) To design and 
        prepare signage to guide the public through the court complex, 
        which will become increasingly important as trial court 
        operations move out of the Moultrie Courthouse, $5 million is 
        requested. (6) To implement campus perimeter security features 
        around Judiciary Square court buildings including installation 
        of plinth walls, bollards, fencing, and security furnishings 
        and the widening of sidewalks, $16 million is requested. (7) To 
        begin design work on a new East Underground Garage project, $5 
        million is requested.
      The second part of the capital budget request addresses the 
        condition of the Courts' existing infrastructure, including 
        projects necessary for the health and safety of the public in 
        the courthouse, and totals $61,300,000. The Courts have 
        expanded the scope of the Fire and Security Alarm Systems 
        project to include installation of a sprinkler system for the 
        entire Moultrie Courthouse. This is a significant health and 
        safety infrastructure upgrade for which $10 million is 
        requested in fiscal year 2007, as recommended by GSA and U.S. 
        Marshals Service studies. For HVAC, Electrical, and Plumbing 
        Upgrades $25 million is requested. To renovate restrooms used 
        by the public and court staff, $2 million is requested. In 
        addition, $5 million is requested for projects in courtrooms 
        and secure areas. For general repairs $16.5 million is 
        requested. To upgrade elevators and escalators, $0.8 million is 
        requested, and $2 million is requested for technology 
        infrastructure projects.
  --Homeland Security.--To protect the 10,000 daily visitors to the 
        courthouse and meet increased security threats that face courts 
        nationwide and public institutions post-September 11, 2001, the 
        Courts' request includes $6,240,000 in operating funds. 
        ($26,000,000 was requested above in capital funds for security 
        enhancements.) The Courts' ``Enhancing Public Security'' 
        initiative in the operating budget would provide 95 additional 
        contractual security officers to protect the judges, staff, and 
        members of the public inside the court buildings.
  --Investing in Information Technology (IT).--To achieve the Courts' 
        strategic goal of improving technology, including providing a 
        case management system with accurate, reliable data across 
        every operating area available to the judiciary, the District's 
        child welfare and criminal justice communities and the public, 
        the Courts request $2,378,000 in fiscal year 2007. This amount 
        includes staff and contractual services to enable the IT 
        Division to make optimal use of the new case management system 
        and to meet courtwide requirements for technological solutions 
        including a system to enhance service to District citizens 
        serving as jurors.
  --Strategic Planning and Management.--To support long-range strategic 
        planning, performance measurement and reporting, and public 
        accountability, $645,000 is requested for the Office of 
        Strategic Management. This request builds on the Courts 
        successful strategic planning effort by coordinating 
        enterprise-wide projects and enhancing the Courts' performance 
        measurement capability. The request would finance performance 
        management software, training, and staff to analyze court 
        performance, direct strategic planning, and coordinate and 
        prioritize enterprise-wide projects, activities, and resources. 
        This will enable the Courts to more accurately determine how 
        well we are doing in meeting our objectives, serving the 
        public, and administering justice.
  --Serving the Self-Represented.--To enhance equal access to justice 
        for the more than 50,000 litigants without lawyers who come to 
        the courthouse each year, especially in the Family Court, Civil 
        Division, and Court of Appeals, $1,724,000 and 10 FTEs are 
        requested for staff and facilities for a Self-Representation 
        Service Center. This initiative would utilize best practices 
        and build upon the limited pro bono services currently 
        available in the courthouse. It is particularly vital to the 
        public we serve, as a recent study found that local agencies 
        providing legal services to the poor turn away more than 50 
        percent of persons who seek assistance. These individuals 
        require assistance when they arrive in the courthouse with no 
        choice but to represent themselves.
  --Services for the Most Vulnerable.--To enhance services to some of 
        the District's most vulnerable residents, $1,096,000 and 3 FTEs 
        are requested. This figure includes $940,000 and 2 FTEs to 
        provide statutorily-mandated advocates for mentally retarded 
        individuals who are wards of the District; $100,000 to provide 
        services to youths under court supervision, and $56,000 and 1 
        FTE to enhance monitoring of the cases of incapacitated adults.
  --Enhanced and More Timely Public Service.--To enhance and provide 
        more timely services to the public, the Courts' fiscal year 
        2007 request includes $1,374,000 and 22 FTEs. Included in the 
        total is $619,000 to consolidate parties' identities in the new 
        case management system; $54,000 and 9 FTEs to enhance case 
        processing efficiency and accuracy; $104,000 to enhance the 
        reference materials in the library; and $57,000 and 1 FTE to 
        undertake community outreach.
  --Investing in Human Resources.--To help the Courts attract, develop, 
        and retain highly qualified employees and address the risks of 
        high retirement eligibility, $1,087,000 is requested, including 
        $800,000 for succession planning and tuition assistance and 
        $287,000 to enhance training for court personnel. Currently, 
        nearly 60 percent of the Courts' executives and nearly 45 
        percent of managers and senior staff are eligible for 
        retirement in the next five years, representing a potential 
        loss of experience and talent that the Courts must plan now to 
        address.
  --Financial, Materiel, and Facilities Management.--To enhance 
        financial, materiel, and facilities management, $1,880,000 and 
        15 FTEs are requested. Included in the total are $652,000 and 8 
        FTEs to build upon financial and program management 
        improvements, including creation of an independent internal 
        audit function; $783,000 and 1 FTE for materiel management, 
        including warehouse space, equipment, and staff; and $445,000 
        and 6 FTEs to enhance facilities management and administrative 
        support, including building engineers and equipment leases.
  --Built-In Increases.--The fiscal year 2007 request also includes 
        $4,139,000 for a COLA increase, $880,000 for non-pay 
        inflationary cost increases, and $1,753,000 for within-grade 
        increases. The Courts' request includes within-grade increases 
        for employees because, unlike typical agencies which may fund 
        these increases through cost savings realized during normal 
        turnover, the Courts have a very low turnover rate (7 percent 
        in fiscal year 2004) and do not experience such cost savings 
        opportunities. Due to our low staff turnover and increasing 
        personnel services costs as a result of cost increases for 
        retirement and health benefits, the Courts are beginning to 
        face difficulty filling positions due to budgetary constraints.
  --Strengthening Defender Services.--In recent years, the Courts have 
        devoted particular attention to improving the financial 
        management and reforming the administration of the Defender 
        Services programs. For example, the Courts have significantly 
        revised the Criminal Justice Act (CJA) Plan for representation 
        of indigent defendants to ensure that highly qualified 
        attorneys represent indigent defendants. In addition, the 
        Courts have developed a new Counsel for Child Abuse and Neglect 
        (CCAN) Plan for Family Court cases, adopting attorney practice 
        standards and requiring attorney training and screening to 
        ensure that well-qualified attorneys are appointed in these 
        cases. The Guardianship Program for probate matters involving 
        incapacitated adults has also been revised, imposing a training 
        requirement on attorneys participating in the program.
      In the Defender Services account, the Courts' fiscal year 2007 
        budget request represents an increase of $10 million over the 
        fiscal year 2006 enacted level of $44 million. Of the total 
        increase, $1 million is requested to cover projected increases 
        in the base program. The remaining $9 million reflects a 
        compensation adjustment for attorneys from $65 to $90 per hour, 
        to keep pace with the rate paid court-appointed attorneys at 
        the Federal courthouse across the street from the D.C. Courts.

                               CONCLUSION

    Mister Chairman, Senator Landrieu, Subcommittee members, the 
District of Columbia Courts have long enjoyed a national reputation for 
excellence. We are proud of the Courts' record of administering justice 
in a fair, accessible, and cost-efficient manner. Adequate funding for 
the Courts' fiscal year 2007 priorities is critical to our success, not 
only in the next year but also as we implement plans to continue to 
provide high quality service to the community in the future. We 
appreciate the President's support for the Courts' funding needs in 
2007 and the support we have received in the past from the Congress. We 
look forward to working with you throughout the appropriations process, 
and we thank you for this opportunity to discuss the fiscal year 2007 
budget request of the District of Columbia Courts.

    Senator Brownback. Would Judge King III or others be making 
comments, or is that the summation?

                  STATEMENT OF HON. RUFUS G. KING III

    Judge King. I am happy to just respond to questions. Maybe 
I could get in two words, one hyphenated word and one stand-
alone word. The hyphenated word is ``twenty-three'' and the 
stand-alone word is ``million.''
    [The statement follows:]

          Prepared Statement of Chief Judge Rufus G. King III

    Mr. Chairman, Senator Landrieu, Subcommittee members, thank you for 
this opportunity to discuss the D.C. Courts' fiscal year 2007 budget 
request. I am Rufus G. King, III, Chief Judge of the Superior Court of 
the District of Columbia. As you know, the Superior Court is the trial 
court for the District of Columbia. It is a unified court of general 
jurisdiction, hearing matters brought to court under all areas of 
District of Columbia law.
    Chief Judge Washington's testimony on behalf of the Joint Committee 
on Judicial Administration details the Courts' complete budget request, 
so my testimony will highlight specific budgetary needs of the Superior 
Court as part of the larger D.C. Courts budget request and capital 
project needs.

                         CAPITAL BUDGET REQUEST

    While we are most grateful that the President's 2007 recommendation 
supported additional court security officers for Family Court, as Chief 
Judge Washington has outlined, there are some significant capital 
budget needs that were not included by the President. In order to stay 
on schedule with our construction projects over the next several years, 
our capital request must be funded. There are several Family Court 
facility enhancements that are scheduled in 2007 and 2008, as well as 
several court functions that are scheduled to move into the 
consolidated Family Court space in the near future. I have included at 
the end of my testimony a timeline that details the Family Court 
projects scheduled over the next several fiscal years, as well as 
relocations and enhancements have already taken place.
    For the past several years we have focused on consolidating all the 
public functions of the Family Court; the Centralized Intake Center, at 
which all family cases are filed; the Family Court Self-Help Center, 
which assists litigants without lawyers; the Mayor's Services Liaison 
Office, which coordinates the provision of needed social services; and 
family-friendly courtrooms, family waiting areas, and attorney-client 
conference rooms. This summer we will complete a new entrance to the 
Family Court on the John Marshall level of the Moultrie Courthouse, 
with enhanced security, an ADA and family-friendly, stroller-accessible 
entry, and improved public waiting space.
    To complete consolidation of all Family Court Operations Division 
and Social Services Division offices, programs, courtrooms and the 
juvenile holding area on time, we need continued, long-term support for 
our capital budget request, and we need $23 million beyond the 
President's recommendation for 2007, to ensure that the Old Courthouse 
restoration proceeds timely. I realize that the Subcommittee has a wide 
array of competing budget priorities to address, but I urge you to 
provide the funding we need to stay on schedule with the upgrade and 
consolidation of the Family Court. I need hardly remind the Committee 
that, in addition to the need for logistical continuity, the cost of 
these renovations and additions goes up geometrically the more the 
projects are delayed. We can assure you that all of the work has been, 
and will continue to be, done in budget and on time, but even the best 
contracting administrator and staff cannot do anything about spiraling 
materials and construction costs. We urge the view that a dollar spent 
timely buys more building than several dollars deferred.
    Aside from the capital projects, the Superior Court has made great 
strides with the Family Court in launching new initiatives to address 
community needs. Let me review some of the highlights.

                      FAMILY COURT IMPLEMENTATION

    The District of Columbia Family Court Act of 2001 changed the way 
the court handles family cases, most notably abuse, neglect and 
juvenile cases. The Act authorized additional judges, a ``one family/
one judge'' case management approach, and numerous other procedural 
changes that enable the Court to better serve our community.
    The Family Court, ably led first by Judge Lee F. Satterfield and 
now by Judge Anita Josey-Herring as Presiding Judge, examined best 
practices around the nation and made changes where required by the Act 
and where improvements could be made. Through close collaboration with 
Executive Branch agencies in the child welfare system, the Family Court 
is making great strides in improving the lives of children and families 
in the District.
    Let me provide an overview of just a few of the more significant 
changes we have:
  --Renovated and restructured the John Marshall level of the 
        courthouse as the Family Court level. It is now the ``family-
        friendly space'' that Senators DeWine and Landrieu envisioned 
        several years back. It includes a one-stop shopping approach 
        for the public with a Centralized Intake Center, Mayor's 
        Services Liaison Office, and a Pro-Se Self Help Clinic where 
        persons without legal counsel can obtain materials about Family 
        Court processes and seek assistance with court forms. The space 
        presents a family-friendly environment with comfortable waiting 
        areas decorated with artwork created by children from the D.C. 
        Public Schools.
  --Established the Benchmark Permanency Program for older youth in 
        foster care to help them make decisions and plans for the 
        future and to coordinate a full range of services necessary for 
        them to successfully make the transition to independent living. 
        Children 15 years of age or older make up 35 percent of 
        children under court supervision in the neglect system.
  --Held annual training programs for judges and stakeholders on Family 
        Law and related topics, such as child development.
  --Expanded operation of the Child Protection Mediation Program, which 
        has been found to result in significantly faster adjudication, 
        disposition, and permanency in children's cases and a 
        significantly lower rate of recidivism by parents and guardians 
        in neglect cases.
  --Developed a Family Treatment Court Program that provides a 
        residential drug treatment program to mothers with substance 
        abuse problems, that allows their children under age 11 to 
        remain in their care while they undergo treatment, parenting 
        classes, counseling and other services. In this way the 
        children do not have to enter foster care. Inpatient, 
        residential care is followed by six-months of after care by 
        D.C.'s Addiction Prevention Recovery Administration (APRA).
  --Launched the ``Hooked on Books'' program, which encourages literacy 
        by providing each child who visits Family Court with a book of 
        his or her own.
  --Collaborated with the Metropolitan Police Department to create 
        Operation Prevent Auto Theft to address an increase in 
        unauthorized use of motor vehicle crimes by juveniles.
  --Working with the city's Truancy Task Force, established two new 
        truancy initiatives:
    --To heighten enforcement of the D.C. Compulsory School Attendance 
            Act, elementary schools refer to the Attorney General's 
            office the names of parents whose children have 15 or more 
            unexcused absences in a semester. These parents are brought 
            before a judge to address the issue and learn that it is 
            their responsibility to get their children to school or 
            face jail time. Community collaboratives work with the 
            family to determine whether services--such as parenting 
            classes--are needed and monitors the family's progress to 
            make sure the children are back in school. There was a 40 
            percent decrease in elementary school truancy in the fall 
            of 2004 compared with the fall 2003.
    --To address the problem of teens who do not attend school 
            regularly, and intervene before the truancy becomes 
            ingrained and the child is too far behind to participate in 
            high school, we launched the first-ever D.C. middle school 
            truancy initiative at Garnett-Patterson Middle School. 
            Judge Satterfield conducted this program, which involved 
            weekly meetings with parents and students, and community 
            collaboratives working with the families. The first 
            graduation ceremony was held on January 24. Deputy Mayor 
            Brenda Donald Walker joined Judge Satterfield at the 
            ceremony to congratulate the students and parents who 
            completed the course. This semester the middle school 
            program will be operating at a second school, Kramer Middle 
            School in Southeast; Family Court Presiding Judge Anita 
            Josey-Herring will conduct that program.
    As I mentioned earlier, we are very pleased that the President's 
recommendation included support for some of our security initiatives; 
specifically, funding in the amount of $3.8 million for additional 
court security officers for the Family Court and $10 million for fire 
and security alarm system enhancements. While we had requested $6.2 
million for additional security officers to protect more of our 
courtrooms, we are pleased to see that the President's recommendation 
recognizes the increasing concern over court security threats in recent 
years.

                 INTEGRATED JUSTICE INFORMATION SYSTEM

    The Court's major information technology initiative to consolidate 
19 different databases and provide comprehensive information to 
judicial officers has now been implemented throughout the Superior 
Court. The final stage was to bring the Criminal Division on line, 
which happened in January. We are now making adjustments and enhancing 
performance and report generation capabilities, but I am proud to 
report that the system is fully implemented.
    IJIS implementation has been a multi-year project that took place 
while the District engaged in an effort to improve information 
technology within and among the District's child welfare and criminal 
justice agencies. The Courts' IJIS platform is designed to integrate 
with the District's new system, and our database configuration has been 
shared to ensure information sharing. Once the District's system is 
fully implemented, it will allow participating agencies to store and 
retrieve data electronically, to make information available to the 
public, and to exchange vital information with law enforcement and 
homeland security agencies much more effectively.
    The Family Court was the first court division to go on line with 
IJIS, and the new system has significantly enhanced our ability to 
identify cases that should be consolidated before one judge under the 
Family Court Act's ``one judge/one family'' approach and to track 
compliance with the Adoption and Safe Families Act. I want to thank the 
Subcommittee for its support over the past several years. It has 
enabled the Superior Court to implement IJIS and enhance case 
processing and judicial decision-making.

                               CONCLUSION

    Mr. Chairman, Senator Landrieu, the D.C. Courts are proud of our 
efforts to serve children and families, to implement technology that 
enhances our service to the public, to respond to the community and to 
provide safe, secure, open facilities in which that can occur. We 
appreciate the support you have shown in helping us carry out all of 
those goals. In return, we believe we have been good stewards of the 
taxpayers' hard earned funds.
    Thank you for this opportunity to address the Subcommittee. I would 
be pleased to answer any questions you may have.

                   FAMILY COURT CONSOLIDATION TIMELINE
------------------------------------------------------------------------
   Family Court Consolidation Activity               Timetable
------------------------------------------------------------------------
Built 9 chambers for new Family Court      Fiscal year 2002
 Magistrate Judges.
Built 4 hearing rooms for abuse and        Fiscal year 2002
 neglect proceedings.
Constructed 3 new courtrooms and 3 new     Fiscal year 2004
 hearing rooms for family matters.
Renovated JM-level of Moultrie for Family  Fiscal year 2004
 Court, including creation of: Central
 case intake office, Family waiting room,
 Mayor's Liaison Offices for provision of
 social services, Self-Help Center for
 unrepresented litigants, Attorney/family
 conference areas, and Family friendly
 environment (e.g., play area, couches,
 carpet, toys and books, children's art).
Construct new Family Court entrance with   Fiscal year 2006
 accessible grade/ramping, welcoming
 lobby with sculptures, enhanced
 security, and improved signage.
Construct new holding facility for         Fiscal year 2007
 juvenile offenders.
Renovate Family Court 1st floor public     Fiscal year 2007
 hallways to create family friendly
 environment (carpet, sofa, children's
 art, family waiting area).
Renovate C Street level and relocate       Fiscal year 2007
 Social Services Division's Child
 Guidance Clinic, Family Counseling Unit,
 Juvenile Drug Court Program, and
 Juvenile Diagnostic and Probation
 Supervision Branch Staff from Building B.
Renovate northeast section of JM-level     Fiscal year 2008
 and relocate Paternity and Support,
 Domestic Relations, Juvenile and Neglect
 and Marriage Bureau Staff.
Renovate 1st floor secure corridors and    Fiscal year 2009
 adjacent offices to create family
 friendly public space and relocate
 remaining administrative Family Court
 Offices (Director, Mental Health, CCAN).
Relocate Marriage Bureau to JM level.....  Fiscal year 2009
Construct addition to Moultrie Courthouse  Fiscal year 2010
 (lamination); includes a new Family
 Court entrance, courtrooms, judicial
 chambers and staff offices.
------------------------------------------------------------------------

    Senator Brownback. Message received. I understand.
    Ms. Buchanan, do you want to--would you care to go ahead 
and make a brief statement?

STATEMENT OF AVIS E. BUCHANAN, DIRECTOR, PUBLIC 
            DEFENDER SERVICE FOR THE DISTRICT OF 
            COLUMBIA
    Ms. Buchanan. Yes, thank you. I am Avis E. Buchanan. I am 
honored to serve as the director of the D.C. Public Defender 
Service (PDS). As you know, I represent people who cannot 
afford their own attorneys. We provide constitutionally 
mandated defense representation to those individuals. We 
practice under the Criminal Justice Act and we handle primarily 
the most serious, most intensive cases that come through the 
system. We represent people charged with the most serious 
felonies, children charged with serious delinquency matters or 
offenses, parole--we represent people in parole revocation 
cases, and we represent people who are subject to involuntary 
civil commitment proceedings in the mental health system.
    For fiscal year 2007, PDS requests an increase of 
approximately $3 million, for an overall budget request of 
$32.7 million. PDS did not request or receive an increase in 
its budget in fiscal year 2006. We used that year to improve 
our internal operations and our performance measurement and 
performance management. We also engaged in a compensation study 
to support our staff and to support our clients.
    We are asking for the increase so that we can absorb 
inflationary cost increases and salary increases for our very 
talented staff, who dedicate themselves to our clients on a 
daily basis.

                           PREPARED STATEMENT

    We have done a number of things over the last fiscal year, 
including engaging in reentry efforts. We organized an 
expungement seminar for people who have an interest in getting 
their records expunged. We also provided access to social 
services organizations who could deal with housing and 
employment needs and drug treatment and counseling needs that 
this population has. We held a seminar for attorneys who 
represent veterans, focusing on their reentry needs and their 
specific housing and employment needs.
    Senator Brownback. Ms. Buchanan, if I could interrupt, the 
vote was called at 3:05 and we are going to have to close this 
hearing down probably at about 3:20. So I have got about 10 
minutes here.
    [The statement follows:]

                 Prepared Statement of Avis E. Buchanan

    Good afternoon, Mister Chairman and members of the Subcommittee. My 
name is Avis E. Buchanan, and I am the Director of the Public Defender 
Service for the District of Columbia (PDS). I come before you today to 
provide testimony in support of PDS's fiscal year 2007 budget request. 
We thank this Subcommittee for its support of our programs in previous 
years.
    In 2005, Public Defender Service marked its 35th anniversary by 
continuing to build on its reputation of providing quality defense 
representation to people in the District of Columbia. Since 1970, when 
PDS was established as a model public defender serving in the newly 
created District of Columbia Superior Court, PDS has developed and 
maintained a reputation as the best public defender office in the 
country--local or federal. PDS has become the national standard bearer 
and the benchmark by which other public defense organizations often 
measure themselves in a number of practice and administrative areas.
    In fiscal year 2007, PDS plans to continue on its trajectory toward 
better human capital management and better performance management. 
PDS's fiscal year 2007 budget request supports these plans by seeking a 
budget that loses no ground to inflationary pressures. PDS requests 
$32.71 million, including an increase of $3.175 million, to permit the 
office to absorb salary increases and the cost increases associated 
with inflation. PDS's fiscal year 2006 budget remained at the level of 
the President's fiscal year 2005 budget request; with this ``flat'' 
fiscal year 2006 budget, PDS has focused on increasing and improving 
our internal efficiencies and has planned no increase to staffing 
levels. Without an increase in its fiscal year 2007 budget, PDS will be 
challenged to continue to evaluate its strategic direction for human 
capital and the amount of support required by the legal divisions. The 
increase sought will provide PDS with the flexibility to further 
develop its data collection for quantitative and qualitative 
performance measures as we continue to transition to performance-based 
budgeting and management that assist in maintaining quality 
representation for indigent persons in the District of Columbia courts.

                               BACKGROUND

    In the District of Columbia, PDS and the local District of Columbia 
courts share the responsibility for providing constitutionally mandated 
defense representation to people who cannot pay for their own attorney. 
Under the District of Columbia's Criminal Justice Act (CJA),\1\ the 
District of Columbia courts appoint PDS generally to the more serious, 
more complex, resource-intensive, and time-consuming criminal cases. 
The courts assign the remaining, less serious cases and most of the 
misdemeanor and traffic cases to a panel of approximately 350 pre-
screened private attorneys (``CJA attorneys'').\2\ Approximately 110 
PDS staff lawyers are appointed to represent:
---------------------------------------------------------------------------
    \1\ D.C. Code  11-2601 et seq. (2001 Ed).
    \2\ An additional 75 CJA attorneys handle juvenile matters.
---------------------------------------------------------------------------
  --the majority of people facing the most serious felony charges
  --a substantial number of individuals litigating criminal appeals
  --a significant number of the children facing serious delinquency 
        charges
  --nearly 100 percent of people facing parole revocation
  --the majority of people in the mental health system who are facing 
        involuntary civil commitment.
    While much of our work is devoted to ensuring that no person is 
ever wrongfully convicted of a crime, we also provide legal 
representation to recovering substance abusers participating in the 
highly successful Drug Court treatment program, and to children in the 
delinquency system who have learning disabilities and require special 
educational accommodations under the Individuals with Disabilities in 
Education Act.\3\
---------------------------------------------------------------------------
    \3\ 20 U.S.C.   1400, et seq.
---------------------------------------------------------------------------
    The Public Defender Service, unique among local public defender 
offices in that it is federally funded,\4\ has always been committed to 
its mission of providing and promoting constitutionally mandated legal 
representation to adults and children facing a loss of liberty in the 
District of Columbia who cannot afford a lawyer, and we have had 
numerous significant accomplishments in pursuit of that mission. In 
addition, PDS has developed innovative approaches to representation, 
from instituting measures to address the problems of incarcerated 
clients who are returning to the community to creating a one-of-a-kind 
electronic case tracking system. Other public defender offices across 
the country have sought counsel from PDS as they have patterned their 
approach to their work after ours.
---------------------------------------------------------------------------
    \4\ As a result of the National Capital Revitalization and Self-
Government Improvement Act of 1997 (the ``Revitalization Act''), PDS 
was established as a federally funded, independent legal organization 
governed by an eleven-member Board of Trustees. In accordance with the 
Revitalization Act, PDS transmits its budget and receives its 
appropriation as a transfer through the Court Services and Offender 
Supervision Agency (CSOSA) appropriation. Pub. L. No. 105-33, Title X 
(1997).
---------------------------------------------------------------------------
    As part of its statutory mission to promote quality criminal 
defense representation in the District of Columbia as a whole, PDS 
continues to provide training for other District of Columbia defense 
attorneys and investigators who represent those who cannot afford an 
attorney, and to provide support to the District of Columbia courts.

                        FISCAL YEAR 2007 REQUEST

    PDS seeks an increase of $3.175 million in order to keep pace with 
inflation and salary adjustments. The additional funds, coming after a 
fiscal year for which PDS requested no increase from its fiscal year 
2005 funding, are vital if PDS is to sustain the level of quality 
advocacy that trial and appellate judges are accustomed to seeing from 
PDS staff.

                    FISCAL YEAR 2005 ACCOMPLISHMENTS

    As part of its human capital strategy, PDS recently engaged the 
services of a consultant to assist in evaluating PDS's compensation and 
performance evaluation practices with the goal of maintaining the 
current culture of excellence and collaboration while updating and 
expanding the options available to PDS managers and improving the link 
between compensation and individual performance. PDS has also 
contracted with a new payroll service provider, vastly improving record 
keeping and access to ``real-time'' information. In addition, PDS has 
improved its data collection capacity in support of its first-ever 
strategic plan and annual performance plan, establishing more baselines 
for use with future performance assessment.

                    GENERAL PROGRAM ACCOMPLISHMENTS

Collaborative Work
    While well-respected and widely known for zealously advocating on 
behalf of clients in the criminal justice system's adversarial process, 
PDS also works closely with criminal justice agencies (e.g., the 
Metropolitan Police Department, the United States Attorney's Office, 
the Office of the Attorney General, the Department of Corrections, and 
the Superior Court) and the courts to make the criminal justice system 
function more efficiently and fairly.
    Collaborative work, essential to an efficient and fair criminal 
justice system, can be difficult for a legal entity such as PDS. PDS 
must always be mindful of its professional obligation to individual 
clients. PDS cannot waive any current or future client's right to 
assert a particular position or challenge a procedure. This can be 
frustrating to other criminal justice agencies that are not similarly 
constrained. In addition, PDS's collaboration is often with traditional 
adversaries that view PDS with suspicion. Nonetheless, PDS continues to 
collaborate, producing both large and small changes that improve the 
criminal justice system.
    Support for District of Columbia Family Court's Authority.--In 
fiscal year 2002, PDS successfully argued on behalf of an individual 
client that under District of Columbia law, Superior Court judges lose 
their authority to monitor delinquent children committed to the custody 
of the District's youth rehabilitation agency once the judge orders the 
commitment.\5\ Following this win in the District of Columbia Court of 
Appeals, PDS provided support to the District of Columbia Council as it 
developed legislation for an appropriate role for judges following a 
commitment order. As a result, legislation has been enacted allowing 
judges to respond to post-commitment changes in circumstances or to 
enforce conditions imposed by the Court at the time of the commitment.
---------------------------------------------------------------------------
    \5\ In re P.S., 821 A.2d 905 (D.C. 2003).
---------------------------------------------------------------------------
    Courtview Access.--The District of Columbia Superior Court very 
recently converted to a new information system for maintaining its 
criminal case docket. This change has a direct impact on PDS. PDS used 
the previous system to upload information into its case management 
system and to efficiently determine each arrestee's financial 
eligibility for counsel on a daily basis. PDS has established the 
ability to obtain limited electronic information from the Court's new 
system, and we are beginning discussions with the Court concerning 
whether it will grant PDS greater access for more efficient eligibility 
determinations and case management.
    The Court, in combination with law enforcement agencies, is 
developing a robust data repository for all criminal cases. In addition 
to providing law enforcement with more coordinated data, the system 
also has the potential to provide all agencies with data relevant to 
performance. PDS's access to this information is the subject of some 
debate within the Criminal Justice Coordinating Council (CJCC). PDS 
will continue to work with the CJCC to develop access commensurate with 
its role as the institutional defender in the District of Columbia.
    Crawford Litigation.--During its previous term, the Supreme Court 
decided a case, Crawford v. Washington,\6\ that revived the common law 
right to confrontation adopted by the Sixth Amendment, establishing a 
rule that categorically requires confrontation for all ``testimonial'' 
hearsay. Unfortunately, the Court did not provide any firm definition 
of what constituted ``testimonial'' hearsay. This led to great 
confusion in courts around the country, including the District of 
Columbia courts, about when the defense would be able to confront 
witnesses in criminal cases, and when the government could try their 
case based solely on paper accusations in what were often described as 
``witnessless'' trials. Because witnessless trials are common in the 
District of Columbia, and because the Supreme Court is the only court 
that can clearly resolve whether Crawford continues to permit these 
trials (which were forbidden in 1791 when the Confrontation Clause was 
adopted), PDS searched the country for good cases for the Court to use 
to provide a definition of testimonial hearsay.
---------------------------------------------------------------------------
    \6\ Crawford v. Washington, 541 U.S. 36 (2004).
---------------------------------------------------------------------------
    PDS identified two such cases: Hammon v. Indiana and Davis v. 
Washington. After identifying the cases, PDS (working with our private 
bar counterpart, the National Association of Criminal Defense Lawyers) 
filed a brief as a ``friend of the court,'' explaining to the Supreme 
Court why these cases were good vehicles to use to resolve the 
definition of ``testimonial'' hearsay. PDS drafted the brief on behalf 
of our office and the NACDL and urged the Court to grant review in 
Hammon and Davis in order to end the confusion around the country on 
the issue. The PDS brief was the only friend of the court brief filed 
at the certiorari stage of the case, and the only brief that identified 
why review should be granted in both Hammon and Davis out of the 
literally dozens of cases last year in which the Court was asked to 
resolve this ``testimonial'' hearsay question. In response, the Supreme 
Court did exactly as PDS suggested, granting review in both cases--and 
only those cases--and ordering that they be argued in tandem. Following 
the grants of review, dozens of friend of the court briefs have now 
been filed from around the country, including additional briefing by 
PDS and NACDL. The oral arguments are scheduled for March 20, 2006.
    Faith-Based Regional Directory.--Working with the D.C. Jail 
Ministries, Citizens United for Rehabilitation of Errants, a church 
member who is the former director of the D.C. Department of 
Corrections, and a ministries group, PDS is participating in developing 
a regional directory of social services resources for use by the 
greater community, including regional church leaders and staff and 
church members.
Other Program Accomplishments
    PDS engaged in a number of activities during the past year that had 
significant implications for individual clients or that improved the 
overall administration of justice.
            Individual Clients
    The core work of PDS is the representation of individual clients 
facing a loss of liberty. As you know, the criminal justice system is 
premised on an adversarial system, and PDS has able adversaries in the 
District's Attorney General's Office and the United States Attorney's 
Office for the District of Columbia. A fair criminal justice system 
depends on having all components (judges, government, and defense) 
fulfill their respective roles. PDS plays a pivotal part in ensuring 
that all cases, whether they result in pleas or trials, involve 
comprehensive investigation and thorough consultation with the client, 
and that the trials constitute a full and fair airing of reliable 
evidence. As it has every year since its inception, PDS won many trials 
in fiscal year 2005, fought a forceful fight in others, and found 
resolution prior to trial for many clients. Whatever the outcome, PDS's 
goal and achievement for each client was competent, quality 
representation.
    All of these cases and their outcomes are far too varied and 
numerous to recount here, and the ethical rules that protect all 
clients' confidences, regardless of their economic circumstances, 
preclude me from providing detailed examples. Instead, the following 
cases, absent identifying information, are a small sample of how 
competent, quality representation can change lives.
    Unlawful Detention.--In a case of mistaken identity, PDS obtained 
the release of a Latino man who was unlawfully held at the D.C. Jail 
for three months, in part because of a language barrier, for an offense 
he did not commit. The man had been brought to court on a probation 
matter that had been resolved previously. On that same day, another 
individual with the same name but a different date of birth was 
sentenced in court in two cases. The Latino man was mistakenly 
transferred from the court to the D.C. Jail without ever having seen a 
lawyer or a judge. Three months later, during a presentation by PDS for 
Latino inmates at the D.C. Jail, the innocent man approached 
Institutional Services Program bilingual staff and urgently pleaded for 
assistance. In researching the circumstances, PDS learned of the 
mistaken identity and instantly notified the U.S. Marshals Service, the 
D.C. Department of Corrections, and the Superior Court. The Chief Judge 
of the Superior Court signed a release order, ending the man's unlawful 
incarceration.
    Ensuring Fairness.--Following a trial attorney's allocution during 
a sentencing proceeding, a judge imposed a sentence harsher than the 
trial attorney thought appropriate. As a result, when the judge 
inquired whether counsel had any additional comments to make to the 
court, trial counsel asked the court to reconsider its sentence. In 
response to trial counsel's continued allocution on behalf of his 
client, the court doubled the sentence. PDS promptly filed a notice of 
appeal, and within weeks, PDS's Appellate Division filed a brief 
challenging the decision of the judge to impose a harsher sentence 
after the attorney's protest. PDS argued that the second sentence was 
arbitrary and capricious, was based on improperly vindictive motives, 
and exceeded the court's authority to revise an already pronounced and 
otherwise lawful sentence. After reviewing the PDS brief, the 
government agreed that the trial court had erred. As a result, the 
District of Columbia Court of Appeals issued an order vacating the 
illegal sentence and directing the trial judge to reduce the sentence. 
Because the PDS Trial and Appellate Divisions took immediate action, 
the client did not spend any extra time incarcerated due to the illegal 
sentence.
    Defending the Public's Access to Courtrooms.--During a public 
proceeding, a Superior Court judge apparently heard an individual 
talking in his courtroom. The judge inquired if the man had a matter 
before the court. The man informed the court that he was waiting for a 
relative's case to be called. Apparently hearing the man talking again, 
the judge, sitting on the bench before a crowded courtroom, told him to 
leave the courtroom. When the man did not leave immediately, the court, 
rather than asking the deputy U.S. Marshal to escort him from the 
courtroom, or asking the deputy to personally instruct him not to talk 
while in the courtroom, ordered the individual stepped back into the 
holding cell. In addition to incarcerating the spectator, the judge 
also ordered that he be subjected to drug testing. While in the holding 
cell, the man asked a PDS staff attorney present in the area for 
assistance. Within hours, the client was released, and no testing was 
performed.
    Discovery Litigation.--Over the past year, PDS lawyers have engaged 
in lengthy litigation over discovery issues in Superior Court. A hotly 
contested area of litigation involves Brady  \7\ evidence--evidence 
that is favorable for or tends to exculpate the client. What 
constitutes Brady evidence and when that evidence must be disclosed to 
the defense are strenuously disputed issues in Superior Court. PDS is 
at the forefront of this litigation. PDS has filed dozens of pleadings 
in trial cases over the past year and was asked to file a ``friend of 
the court'' brief in an appellate case addressing Brady and the 
government's conduct in a specific case. While the appellate case has 
not yet been decided, the trial level litigation has resulted in a 
number of acquittals and, on occasion, determinations by the government 
that the charges should be dismissed. Examples of evidence produced 
through litigation include evidence that a detective was under 
investigation for pressuring witnesses to change their testimony; 
evidence that the complaining witness was drunk at the time of the 
alleged incident; evidence that a detective had interviewed two 
witnesses claiming that someone other than the client had committed a 
homicide; evidence that a police officer had provided sworn testimony 
before the court that was contradicted by the complaining witness's 
sworn testimony before the grand jury; and evidence that the 
complaining witness left the government a voicemail message recanting 
her complaint. Evidence of this nature can and does affect juror views 
of a case. In a homicide case in which PDS represented a 16-year-old 
client with no prior contacts with the criminal justice system, 
discovery litigation led to disclosures that another individual had the 
opportunity and motive to commit the offense. Following a trial in the 
matter in which the jury acquitted the PDS client of all the charges, 
defense counsel had an opportunity to speak with members of the jury 
and to learn firsthand how the exculpatory evidence played a 
significant role in the jury's decision to acquit the client.
---------------------------------------------------------------------------
    \7\ Brady v. Maryland, 373 U.S. 83 (1963).
---------------------------------------------------------------------------
    Special Education Services.--In recognition of our efforts to 
ensure that children of the District of Columbia receive the 
appropriate educational services instead of being labeled delinquent, 
two Superior Court judges referred two separate special education 
students to PDS. We represented these two students successfully against 
D.C. Public Schools for violations of the Individuals with Disabilities 
in Education Act. As direct result of our representation, each student 
received full-time special education private school placements within 
the community after facing expulsion from their public schools. Once 
appropriately enrolled in these schools, the court closed their cases.
            Appellate Division
    The Appellate Division's appellate litigation has an impact 
throughout the District's criminal justice system as decisions in its 
cases often establish or clarify the standards trial court judges and 
litigants must follow in criminal and juvenile cases. The complex and 
novel legal issues the Division is called upon to address therefore are 
best handled by experienced and talented attorneys--which the Division 
does not lack.
    Properly Instructing the Jury.--Following briefs and oral argument, 
the District of Columbia Court of Appeals reversed a PDS client's armed 
manslaughter conviction. In this case there was evidence the client had 
acted in self-defense and no evidence that the client had provoked or 
started the fatal fight. Nonetheless, the trial judge, over the 
objection of the trial attorney, advised the jury that someone cannot 
defend on the ground of self-defense if he or she instigated the fatal 
confrontation. As a result, even though the evidence showed many 
reasons to conclude that the client justifiably defended himself with 
deadly force, he was unfairly deprived of the right to have the jury 
determine if he acted in self-defense.
    Fairness in Jury Selection.--The District of Columbia Court of 
Appeals held that PDS made out a prima facie case of racial and gender 
discrimination in jury selection by the prosecutor, who removed a 
markedly disproportionate number of black women from the jury pool in a 
case in which our client--whose mother and sister are black--defended 
himself against criminal charges on the grounds that he was protecting 
his sister from the person who had just hit his mother with a metal 
pole--the client's mother and sister are black. The Superior Court 
erroneously believed that peremptory strikes aimed at black women did 
not offend either Batson (the Supreme Court case that forbids racial 
discrimination in jury selection) or J.E.B. (the Supreme Court case 
that forbids gender discrimination in jury selection). On the contrary, 
said the Court of Appeals: ``By definition, discrimination against 
black females in jury selection is both discrimination against certain 
female jurors solely because they are black and discrimination against 
certain black jurors solely because they are female. It thus is both 
racial discrimination of the kind condemned in Batson and gender 
discrimination of the kind condemned in J.E.B.'' Moreover, the Court of 
Appeals refused to remand the case to allow the prosecutor to 
demonstrate that he had been motivated by a non-discriminatory purpose. 
Instead, the Court of Appeals reversed the conviction outright, 
concluding that ``the explanations for the prosecutor's seemingly 
discriminatory strikes could [not] be tested fairly and adequately at 
this late stage.''
            Special Litigation Division
    The Special Litigation Division litigates systemic issues in the 
District of Columbia criminal justice system before every court in the 
District of Columbia--the Superior Court and Court of Appeals in the 
local system, and the District Court, the Court of Appeals, and the 
Supreme Court in the federal system. These are some of the highlights 
of our litigation:
    Fairness in Parole Procedures.--In Fletcher v. Reilly,\8\ PDS led a 
lawsuit filed in federal court challenging new guidelines issued by the 
U.S. Parole Commission (USPC) that refused to allow for the 
consideration of post-incarceration conduct--education and skills 
training--in inmate reparole hearings. (Reparole hearings are held when 
an inmate is paroled, violates, serves a significant amount of time in 
prison, and seeks ``reparole.'') The challenge was brought on behalf of 
an inmate, Thaddeus Fletcher, who, following a parole violation in 
1995, had obtained a bachelor's degree while incarcerated, completed 
hundreds of hours of jobs and skills training (including values 
development, woodworking, insect extermination, food preparation, 
computer skills, business practices, and stress and anger management), 
accepted meaningful responsibility, and demonstrated a genuine 
understanding of his past actions. In fact, the USPC hearing officer 
who heard Mr. Fletcher's case in 2004 noted Mr. Fletcher's ``sincere 
remorse'' for his criminal conduct, and described Mr. Fletcher's 
rehabilitative behavior in prison as ``phenomenal,'' noting that ``it 
is rare to see a case with this many accomplishments.'' The USPC 
officer also noted that Mr. Fletcher had ``consistently received 
excellent work reports and had also received numerous commendations.'' 
Mr. Fletcher also has never had a disciplinary infraction during his 
time in prison, which is very unusual.
---------------------------------------------------------------------------
    \8\ Fletcher v. Reilly,_F.3d_(D.C. Cir. January 6, 2006).
---------------------------------------------------------------------------
    Under the USPC guidelines, adopted in 2001, all of this post-
incarceration conduct was irrelevant at Mr. Fletcher's reparole 
hearing. The new guidelines instead focused the hearing on the 
application of mechanical sentencing guidelines in determining whether 
he would be released to parole, and those guidelines did not account at 
all for rehabilitative post-incarceration conduct. Mr. Fletcher 
challenged these guidelines on the basis of the Ex Post Facto Clause of 
the U.S. Constitution, arguing that application of the old D.C. Parole 
Guidelines in effect at the time of his offense would likely have 
shortened his sentence, because they would have not only allowed 
consideration of his behavior in prison, but would have focused on that 
conduct, making rehabilitative efforts the primary factor in the 
decision whether Mr. Fletcher should be reparoled. The D.C. Circuit 
agreed, in a 21-page opinion that made very clear that the USPC's 
reparole regulations cannot be retroactively applied to D.C. inmates, 
since doing so creates a significant risk of increased punishment for 
any inmate with a history of good conduct in prison. This decision will 
not only affect many D.C. inmates covered by the reparole guidelines in 
a positive way, but it will encourage those inmates to behave in 
prison. It will also encourage inmates to improve themselves through 
education, since doing so can again result in a shortened sentence, 
just as it did under the D.C. Parole Board regulations in effect at the 
time of their offenses. The decision will also force the USPC to pay 
more attention to individual characteristics of the offender in 
reparole cases, rather than rely solely on mechanical guidelines.
    Special Education for Incarcerated Youth.--The Special Litigation 
Division challenged the failure of the D.C. Department of Corrections 
and the D.C. Public Schools to provide special education services to 
eligible youth incarcerated in the District of Columbia Jail. This 
year, the parties in the case, J.C., et al. v. Vance, et al., agreed on 
a resolution of the lawsuit, and the United States District Court has 
approved the settlement agreement. Facts developed in connection with 
the lawsuit, including sworn testimony from the special education 
teacher at the jail, demonstrated that the District had made virtually 
no progress in establishing a working special education program at the 
jail despite its claims to the contrary to the federal district court. 
The settlement terms call for the District to develop a special 
education manual within a year and to complete and implement a special 
education system within two years.
    Incarcerated Children.--For 20 years, PDS has litigated the lawsuit 
challenging the juvenile detention system in the District, Jerry M., et 
al. v. District of Columbia, et al.,\9\ and we are closer to a 
resolution than we have been in many years. The lawsuit and the 
resulting consent decree focus on the conditions of the juvenile 
detention facilities and on the treatment and rehabilitation provided 
to youths at the facilities to reduce their risks of recidivating and 
increase their opportunity of becoming productive members of the 
community. Last year, the Division's Jerry M. lawyers asked the court 
to appoint a receiver to oversee the District's Youth Services 
Administration (now the Department of Youth Rehabilitation Services) 
until the consent decree's mandates could be met. While the request was 
pending, the court held the District in contempt for violating several 
consent decree provisions. The District then agreed to the appointment 
of a special arbiter to resolve disputes and formulate a new model for 
juvenile justice in D.C. The Special Litigation Division and the 
District are now well on their way toward the formulation of a 
comprehensive work plan to address the systemic issues that have 
plagued the District's juvenile justice system for years.
---------------------------------------------------------------------------
    \9\ Civil Action No. 1519-85 (IFP).
---------------------------------------------------------------------------
    Most recently, the lawsuit has led to:
  --The passage of legislation by the D.C. Council creating a cabinet-
        level position for the YRS director with its own independent 
        budget authority.
  --The hiring of a child-friendly director with extensive juvenile 
        justice experience committed to the care and rehabilitation of 
        the District's children.
  --The hiring of additional trained, qualified youth correctional 
        officers to fill the gaps at Oak Hill, the District's main 
        youth detention facility, and provide a safer environment for 
        the children.
  --The closure of the girls' unit at Oak Hill and the transfer of all 
        detained girls to a newly constructed Youth Services Center.
  --The fulfillment of the consent decree's requirement of single cells 
        for boys by reducing the male population.
  --The improvement of fire safety, suicide prevention, mental health, 
        environmental health, and safety measures at Oak Hill.
  --The transformation of a unit at Oak Hill into a model unit to 
        create incentives and merit-based programs for children to earn 
        their release into a less restrictive environment when 
        appropriate.
  --The opening of the pre-release unit for children who are to be 
        released within 30 days from Oak Hill to establish school and 
        job placement in the community.
  --The redrafting of the intake criteria for arrested children and the 
        focus on diversion programs for children not meeting those 
        criteria.
  --The initiation of an assessment of the District of Columbia 
        juvenile justice system to be performed by the Annie E. Casey 
        Foundation. The assessment will include a detailed analysis of 
        the YRS population in secure and community settings, as well as 
        the programs and services needed for the full continuum of 
        care, including both community alternatives and secure 
        confinement.
    Unbiased Judicial Officers.--SLD challenged the District's mental 
health commissioners' practice of hearing cases involving the 
District's Department of Mental Health while simultaneously having 
ongoing contractual relationships with the Department, a practice the 
Superior Court deemed impermissible in 1971. This challenge is pending 
before the District of Columbia Court of Appeals.
            Community Defender Division
    The Community Defender Division provides services through four 
programs: the Juvenile Services Program, which focuses on children 
confined to the Oak Hill Youth Detention Center in Laurel, Maryland and 
placed in residential facilities across the country; the Community Re-
entry Program, which responds to the legal and social needs of newly 
released D.C. parolees and assists them in making a successful 
transition back into the community; the Institutional Services Program, 
which serves as a liaison to D.C. Code offenders in the custody of the 
Federal Bureau of Prisons; and the Community Outreach and Education 
Program, which educates members of the community about their legal 
rights and responsibilities in the criminal justice system.
    Expungement Summit.--In September 2005, PDS worked with several 
service providers to host an Expungement Summit. Modeled on a similar 
effort in Chicago, the Expungement Summit offered assistance to 
individuals with criminal records, determining whether the individuals 
might be successful in seeking to seal their arrest records, and 
providing them with social services resources. PDS's Community Defender 
Division coordinated and hosted the event. Approximately 250 
individuals attended, obtaining information about housing, child 
support, public benefits, and other legal services issues from staff 
and volunteers from the D.C. Employment Justice Center, the 
Neighborhood Legal Services Program, the Washington Legal Clinic for 
the Homeless, and D.C. Law Students in Court. In addition, a number of 
programs were present to help with employment, housing, substance 
abuse, and other non-legal needs that complicate the lives of those who 
have been involved in the criminal justice system. Another 
approximately 150 individuals who had scheduling conflicts or who were 
concerned about privacy called the Division before and after the day of 
the Summit to seek PDS's assistance. The Summit was so successful that 
PDS has already begun planning a second such event.
    Truancy Initiative.--The Community Defender Program is working 
closely with the Family Court, the D.C. Public Schools, and the D.C. 
School Board to address the truancy problem by developing a program 
modeled after one in Louisville, Kentucky. The initiative is a family 
intervention program created to address the root causes of truancy. A 
community team of judicial officers, school personnel, social services 
providers, mental health providers, and substance abuse rehabilitation 
providers would work together to identify families for whom intensive 
services would help resolve barriers to school attendance. The program 
is based in the schools, rather than in the courts, allowing the team 
to make weekly visits to the school, with regular contacts between the 
case manager and the family in between the school visits. Twelve of the 
first 15 students enrolled in the program have ``graduated,'' 
demonstrating significantly improved attendance as a result of the 
program's intervention. The truancy initiative is an ongoing program; 
plans are being made for a new group of students to participate in it.
    PDS Legal Services at the New Juvenile Detention Center.--The 
District's Department of Youth Rehabilitation Services has provided 
space to PDS in the newly opened Juvenile Detention Center. The 
facility replaces the long-closed Receiving Home for Children as a 
short-term detention facility for children alleged to be delinquent. 
PDS will replicate at this new facility some of the services, such as 
representation at disciplinary hearings, that PDS currently provides to 
children detained at the Oak Hill Youth Detention Facility, the 
District's longer-term detention facility Maryland.
    Re-entry programs.--In fiscal year 2006, the Community Re-entry 
Program sponsored a day-long conference, ``Representing Combat Veterans 
in the Criminal Justice System,'' on providing assistance to veterans. 
The conference, which placed a special emphasis on veterans of the 
U.S.-Iraq war who are charged with criminal offenses, focused on the 
defenses and sentencing options available to them, and on the resources 
that are available for the health, employment, and education problems 
most encountered by veterans.
            Parole Division
    The Parole Division provides required representation to parolees 
facing revocation before the United States Parole Commission.\10\ This 
Division represents nearly 100 percent of the D.C. Code offenders 
facing parole revocation.
---------------------------------------------------------------------------
    \10\ The Revitalization Act shifted responsibility for D.C. parole 
matters from the D.C. Board of Parole to the United States Parole 
Commission. 28 C.F.R. Sec. Sec. 2.214(b)(1) and 2.216(f).
---------------------------------------------------------------------------
    Working with the Parole Commission.--PDS's Parole Division 
continues to monitor closely the work of the U.S. Parole Commission and 
to seek out areas of collaboration. Most recently, a pilot program 
using expedited plea offers has been instituted, and the Division is 
providing feedback and suggestions for improving the process in a 
manner that allows clients to make fully informed decisions. If 
successful, this program could help reduce the current population 
levels at the D.C. Jail and the Central Treatment Facility.

                                TRAINING

    PDS conducts and participates in numerous training programs 
throughout the year. The annual Criminal Practice Institute and the 
Summer Criminal Defender Training Program address the training needs of 
the court-appointed CJA attorneys and investigators. In fiscal year 
2006, PDS attorneys and investigators also taught sessions at many D.C. 
law schools. PDS attorneys were also invited to teach elsewhere 
locally, including at the D.C. Bar, the National Legal Aid and Defender 
Association, the Defender Services Division of the Administrative 
Office of the U.S. Courts, and at D.C. law firms offering pro bono 
services in Superior Court cases.
    Forensic Science Conference.--In September 2005, PDS sponsored its 
third forensic science conference; this one focused on developing 
defense attorneys' cross-examination skills in challenging DNA 
evidence. The conference built on the expertise PDS's Trial Division 
has developed in challenging nuclear DNA evidence, mitochondrial DNA 
evidence, and cases arising out of database searches. The innovative 
design of the conference gave attorneys an opportunity in small group 
sessions to practice cross-examining experts from around the country 
using a specially prepared case and to receive immediate feedback from 
experienced attorneys. The conference--the first of its kind in the 
country--was planned in anticipation of the President's initiative to 
reduce the backlog of DNA cases and to better educate lawyers and 
judges about DNA evidence. By all accounts the conference was a 
success. A number of public defender offices have contacted PDS to 
explore ways of reproducing the training in other parts of the country, 
and participants gave the conference very high marks, with the most 
common score being a 5 on a 5-point scale.
    In the face of growing evidence that most wrongful convictions are 
based on erroneous eyewitness identifications, the 2006 Forensic 
Science Conference will bring the latest social science research and 
experts in the field to Washington, D.C. The conference is designed to 
provide defense attorneys with the information and tools necessary to 
properly investigate cases to guard against erroneous identifications 
and to educate jurors and judges about pitfalls surrounding eyewitness 
identification procedures currently in use by many law enforcement 
agencies.
    The Criminal Practice Institute Manual.--The only comprehensive 
criminal practice manual for the District of Columbia is produced by 
PDS. Judges, defense attorneys, and prosecutors practicing in Superior 
Court rely on this two-volume treatise. The 2005 edition of the 
Criminal Practice Institute Manual has been substantially rewritten to 
reflect recent changes to the law and the most current and developing 
practice areas. All relevant District of Columbia and federal case law 
and statutory changes through August 2005 have been included. Most 
chapters underwent substantial revision, including the chapters on 
sentencing, civil commitment, immigration, search and seizure, 
investigations, voir dire, jury issues, insanity, hearsay, and 
discovery. PDS's emphasis on the use of experts and the growing need 
for defense attorneys to understand DNA science and other types of 
scientific evidence led to the addition of a new chapter devoted 
entirely to expert testimony.
    PDS Attorney Training Program.--PDS's training program for its new 
Trial Division attorneys is well-respected, and it is often cited by 
attorney applicants as one reason they are interested in working at 
PDS. The attorneys participate in a rigorous six- to eight-week 
training program that starts immediately upon their arrival and before 
they are assigned to any cases. The training includes lectures and 
demonstrations given by PDS attorney alumni, as well as mock hearings 
over which actual Superior Court judges preside. When the U.S. 
Department of Justice's Law Enforcement Assistance Administration 
conducted a study of PDS's operations and designated PDS as an 
``exemplary project'' in the mid-1970s, the training program was cited 
as contributing substantially to the quality of our program.
    PDS recently directed its attention toward improving the training 
that occurs after those new attorneys begin representing clients. All 
attorneys are placed in ``trial practice groups'' or ``TPG's,'' based 
on their practice level--felony I, juvenile, etc.--for regular, ongoing 
training sessions led by a Trial Division deputy chief. PDS recently 
revamped the TPG program to move away from conducting it as a set of 
more informal sessions planned independently by each deputy chief 
toward having a more coordinated set of training modules. PDS 
identified all the major advanced skill sets and substantive knowledge 
areas an attorney should acquire as he or she gains experience and 
transitions from one practice level to another and organized them into 
a ``tiered'' or ``sequenced'' TPG program. Supporting materials are 
being developed to accompany the sessions so that the TPG program, like 
the first-year training program, is self-sustaining, yet adaptable. We 
are reviewing the revised TPG program to assess its efficacy and its 
ability to meet the needs of the staff and the office.

                     ADMINISTRATIVE ACCOMPLISHMENTS

    Relying more extensively on technology, PDS continues to strive to 
be a model public defender in its administrative operations as it is in 
its client representation. PDS has created greater links between its 
payroll and finance operations, and has responded to emphasis from 
Congress on continuity of operations plans and telecommuting by 
exploring ways of supporting employees away from their offices. PDS has 
invested in new technology in the form of both hardware and software 
that allow key staff to have access to electronic files and databases 
from remote locations.
    Continuity of Operations.--PDS has acquired the capacity (e.g., 
Blackberrys and docking stations) to provide staff with access to their 
case files and to relevant databases from locations other than the 
office. Currently, key managers can access electronic files and 
databases from remote locations. In fiscal year 2006, PDS's IT staff 
will be developing the capacity to support this technology for all key 
staff, using a combination of existing staff and contractors.
    Government Performance and Results Act.--PDS has expanded the use 
of Atticus, PDS's self-created case management system, within the 
organization. More staff now are able to enter case and performance 
data into the system, better positioning PDS to report on performance.
    ``Duty Day'' representation.--PDS has reorganized its approach to 
providing walk-in and call-in services to the public. PDS traditionally 
assigned a staff attorney on a rotating basis to be available to answer 
questions or handle matters from individuals who walked into the office 
or called. PDS's paralegals have now been trained to serve as the 
first-line point of contact on ``Duty Day'' matters--without providing 
legal advice. This filters the calls, reducing the number that are 
ultimately forwarded to an attorney and freeing the attorneys to 
concentrate more exclusively on legal matters.

                               CONCLUSION

    I would like to thank the members of the Subcommittee for your time 
and attention to these matters and for your support of our work to 
date. I would be happy to answer any questions the Subcommittee members 
may have.

    Senator Brownback. If I could, Mr. Quander. I do not mean 
to cut you off, but I have got to if I am going to hear from 
the others. A brief summation, Mr. Quander?

STATEMENT OF PAUL A. QUANDER, JR., DIRECTOR, COURT 
            SERVICES AND OFFENDER SUPERVISION AGENCY
ACCOMPANIED BY REVEREND DONALD ISAAC, EXECUTIVE DIRECTOR, EAST OF THE 
            RIVER CLERGY-POLICE COMMUNITY PARTNERSHIP

    Mr. Quander. Thank you. Good afternoon, Chairman Brownback, 
and good afternoon, Senator Landrieu.
    The Court Services and Offender Supervision Agency (CSOA) 
supervises approximately 15,500 men and women who are on adult 
probation and parole. The Pretrial Services Agency on any given 
day supervises about 7,000 defendants. These individuals are in 
the criminal justice system and we are responsible for their 
supervision.
    One of the major undertakings that we have is a reentry 
initiative. In any given year, there are approximately 2,000 
men and women who are returning to the District of Columbia 
from a place of incarceration. Reentry is a major focus of how 
we re-integrate them back into the District of Columbia. We 
have a partnership with the faith community. Donald Isaac, 
Reverend Donald Isaac, is here to talk about those things that 
we have done in the partnership.
    But what our needs are for those men and women who are 
coming back is education, housing, substance abuse. We have to 
figure out a way to help those individuals to maintain their 
sense of involvement and to be embraced by society as they try 
to make that transition from a criminal lifestyle to a pro-
social lifestyle.
    With that, I will defer to Reverend Isaac to talk about 
housing and some of the partnerships that we have.
    [The statement follows:]

               Prepared Statement of Paul A. Quander, Jr.

    Chairman Brownback and Members of the Subcommittee: It is my 
privilege to appear before you once again this year to present the 
fiscal year 2007 budget request of the Court Services and Offender 
Supervision Agency (CSOSA), which includes the D.C. Pretrial Services 
Agency (PSA).
    Let me begin by thanking the subcommittee for your continued 
support of our agency and our initiatives. It has been truly gratifying 
to me that our efforts to build a model supervision agency, grounded in 
the field's best practices, here in the nation's capital, have 
continually met with your interest and enthusiasm, and that you have 
worked to make as many resources available to us as possible.
    CSOSA's total budget request for fiscal year 2007 is $214,363,000, 
an increase of 8 percent over our fiscal year 2006 enacted budget. Of 
this, $135,457,000 is for the Community Supervision Program, 
$46,196,000 is for the Pretrial Services Agency, and $32,710,000 is for 
the Public Defender Service, which is funded as part of CSOSA's 
appropriation. The majority of our requested budget increase consists 
of adjustments to base, with the reduction of PSA's extensive 
supervision caseload being our sole new initiative. We believe these 
requests are essential to our mission, and we look forward to your 
continued support as we implement strategies to achieve that mission.
    When we think of community supervision, we tend to visualize a 
fixed period of time: six months of probation, two years of parole, 
etc. The offenders pass into, through, and out of our system. They 
either succeed or they fail. But for the offender, CSOSA supervision is 
often just one in a series of episodes that, taken together, constitute 
a lifetime of contact with the criminal justice system. I recently 
asked our Office of Research and Evaluation to take a look at parolees 
whose supervision was revoked in fiscal year 2005. These men and women 
had spent very little of their lives outside the justice system. Nearly 
half had been arrested for the first time as juveniles. Nearly 60 
percent had six or more prior arrests. Eighty-eight percent had failed 
at supervision at least once before, with nearly a third failing three 
or more times. And nearly 90 percent had a history of substance abuse, 
the reoccurrence of which plays a central role in their failures.
    Maya Angelou once wrote of herself, ``You did what you knew how to 
do, and when you knew better, you did better.'' The challenge of 
community supervision is to provide offenders with the knowledge and 
tools to do better. Imparting knowledge is as essential to CSOSA's 
public safety mission as drug testing or home visits, and it's much 
harder to achieve. We can count the number of drug tests and home 
visits. It's much more difficult to measure the amount of effort needed 
to empower one individual to say, ``My future does not have to be the 
same as my past.''
    Our community supervision model places public safety as its number 
one priority, but it also stresses programming and support services 
that help the offender move toward this realization. In particular, our 
partnership with the faith community connects offenders to permanent 
sources of inspiration and support. During this past year, our Faith 
Community Partnership continued to move forward with both video 
mentoring and post-release services.
    Our fiscal year 2007 budget supports both prongs of CSOSA's 
approach to successful supervision: accountability and opportunity. We 
know that we need to monitor the individuals we supervise closely 
enough to enforce the rules. We also know that for those rules to be 
anything other than a temporary interruption of criminality, we must 
provide the information and the opportunities for meaningful change. 
Our budget puts in place key strategies to address both challenges.
    First, our proposed budget would fund the implementation of a 
program that we have planned for five years, and that we believe will 
greatly expand our ability to supervise and assist the highest risk 
offenders and defendants: chronic substance abusers. As you know, we 
have been renovating Karrick Hall to house our Reentry and Sanctions 
Center. This initiative will enable us to expand our successful 
Assessment and Orientation Center (AOC) program. The program model 
combines intensive assessment with substance abuse treatment readiness 
programming to improve the likelihood of successful supervision. The 
clients sent there will leave with a prescriptive plan to guide future 
treatment, increasing the prospect of success, as well as the personal 
insight and motivation needed to stay drug and crime free.
    In fiscal year 2004 and fiscal year 2006, Congress funded the staff 
positions for five of the six units that will comprise the completed 
Reentry and Sanctions Center. This year, the Community Supervision 
Program requests an adjustment to base of $3,428,000. This will fund 
operation of all six units, which will provide programming to 1,200 
individuals annually.
    We have long anticipated opening the Reentry and Sanctions Center 
as a national model for best practices in the areas of assessment, 
treatment readiness, and intermediate sanctions. The fully operational 
facility will enable us to expand the AOC's services to special 
populations, including female offenders and individuals with dual 
mental health and substance abuse diagnoses, who could not be served 
within the existing AOC. The AOC program has already made a difference 
to the 1,500 individuals who have completed the program. Over the next 
five years, full operation of the Reentry and Sanctions Center will 
quadruple that number.
    On any given day, the Pretrial Services Agency supervises 
approximately 6,000 defendants. Over 3,000 of these defendants are 
classified as needing extensive supervision--that is, regular drug 
testing, face-to-face contact, and referral to treatment or other 
support services. These cases constitute 55 percent of all General 
Supervision caseloads with release conditions. Currently, 26 Pretrial 
Supervision Officers are assigned to monitor these cases, with a 
resulting caseload of 124 defendants per officer. This is too high to 
provide the level of contact that the courts expect and the defendant's 
risk necessitates.
    With the current high caseload ratios, PSA is not able to provide 
the supervision expected by the Court or required by PSA's internal 
policies and procedures. In fiscal year 2005, only 56 percent of 
defendants were in compliance with their release conditions at the end 
of the pretrial period. Currently, PSOs often cannot respond quickly to 
violations of release conditions, despite the statutory requirement 
that every violation be reported to the prosecutor and the Court. This 
is particularly troubling with high-risk felonies pending indictment. 
In these cases, the first court date after the preliminary hearing is 
often many months after the defendant has been released to PSA. During 
that time, because PSOs are managing their caseloads on the basis of 
court dates rather than violations of release conditions, warrant 
checks and criminal records checks are not done regularly to see if 
defendants have been arrested again in a neighboring jurisdiction while 
on release.
    PSA requests 12 positions and $1.7 million to provide additional 
Pretrial Supervision Officers for extensive supervision cases. This 
request will lower caseloads to 100 per officer, and while still high 
in relation to neighboring jurisdictions, 100:1 is a more manageable 
level that will allow for closer monitoring and quicker responses to 
violations.
    PSA also requests three positions and $768,000 to implement Global 
Positioning System-based electronic monitoring for high-risk 
defendants. This will augment PSA's electronic monitoring capability to 
include defendants who do not have a ``land line'' phone or whose 
movements must be monitored more closely than traditional equipment 
allows.
    GPS-based monitoring has proven to be a successful tool for CSOSA's 
Community Supervision Program, particularly for high-risk sex offenders 
and domestic violence cases. Currently, approximately 100 offenders are 
on this type of monitoring, which is used both routinely and as a 
sanction for noncompliant behavior. Since the program began in fiscal 
year 2004, approximately 300 offenders have been placed on GPS 
monitoring. We would like to expand the use of this technology to the 
pretrial population.
    In closing, Chairman Brownback, I want to thank you for your 
efforts last year to provide funding for more transitional housing. I 
am pleased to report that we recently signed a contract with East of 
the River Clergy-Police-Community Partnership (ERCPCP) to refer 
offenders who have completed substance abuse treatment to its new 
transitional housing facility. This facility was developed, in part, 
with the funding you provided ERCPCP in the fiscal year 2005 bill. Our 
community needs more resources and collaborations of this kind in order 
to address the critical need for safe, stable housing for offenders 
returning from prison or treatment.
    During the year ahead, I will be working closely with other 
criminal justice system stakeholders to link the use of available 
transitional housing resources to vocational training and career 
development opportunities. I am confident that once our clients can see 
and believe that they hold in their hands the promise of a better 
future, they will take the path that leads to it.
    Finally, I want to respond to last year's inquiry about our 
recidivism rate. We recently concluded a study of offenders who entered 
supervision in fiscal year 2003. Among these offenders, the two-year 
rearrest rate was 65 percent. However, many of these rearrests were for 
traffic offenses or public order charges, or were the result of 
warrants we issued because the offender had violated his or her release 
conditions. If we look at the types of crime that constitute the most 
significant threat to public safety, the story is somewhat different. 
For violent crime, the rearrest rate is 19 percent. For drug-related 
crime, it is 35 percent. While the offender is under CSOSA supervision, 
the rearrest rates are significantly lower--14 percent for violent 
crime and 22 percent for drug-related crime.
    CSOSA's strategic plan emphasizes reducing recidivism for violent 
and drug-related crime. While our research shows that community 
supervision is effective in achieving this, the benefit does not 
necessarily extend beyond the supervision period. In other words, once 
the offender is ``off paper''--once there is no more close 
supervision--he or she is more likely to get rearrested. In our study, 
35 percent of the offenders who entered supervision in 2003 were 
rearrested shortly after entering ``off paper'' status.
    Perhaps the greatest challenge we face during each offender's 
supervision is to provide some reason for him or her to continue 
following society's rules after supervision ends. We must help each 
offender to know better how to succeed, so he or she can do better long 
after we're out of the picture. This involves both monitoring current 
behavior and providing tools to shape future behavior. Mr. Chairman, 
and members of the subcommittee, in bringing this budget request before 
you, we ask for your continued support of both aspects of our work.
                                 ______
                                 
              Prepared Statement of Reverend Donald Isaac

    Good afternoon Senator Brownback and the members of the Senate 
Appropriations Subcommittee on the District of Columbia.
    My name is Reverend Donald Isaac and I am the executive director of 
the East of the River Clergy Police Community Partnership, a faith-
based organization that serves the needs of adjudicated youth and 
previously incarcerated adults. I also serve as the chairman of the 
CSOSA Faith Advisory Council.
    I appreciate this opportunity to speak in support of the innovative 
efforts undertaken by CSOSA in stemming the tide of recidivism among 
the re-entry community in Washington, DC.
    First I want to take this opportunity to personally thank you for 
your sincere commitment to serving the needs of re-entrants by ensuring 
funding of programs that are so critical to the population that my 
organization serves and in particular for recognizing the importance of 
housing in setting the foundation for a positive reintegration back 
into the community of those previously incarcerated. Ex-offenders risk 
relapsing into a life of homelessness, drugs and crime unless 
additional transitional housing and supportive services becomes 
available in Washington, DC.
    Your efforts last year in securing funding for ERCPCP have helped 
us to begin operations of a 15 bed transitional housing facility and 
jumpstarted the development of a 14 unit apartment building for ex-
offenders. These facilities will house re-entrants referred by CSOSA 
for 90 days of transitional living, 90 days of independent living, and 
90 days of after-care services while the re-entrants are in permanent 
housing.
    This is a significant first step in helping us serve the critical 
need for housing. However, there is more work to be done, which is why 
we have returned to you this year for your support. We have created a 
strategy to strengthen our existing efforts and expand our programs to 
develop transitional housing for ex-offenders city-wide. Your 
assistance is indispensable in making our re-entry housing strategy a 
success--and will ultimately help the re-entrant population become 
stable, self-sufficient members of the community.
    As you know, CSOSA has been in partnership with the faith community 
for about 5 years now. We have jointly set up programs which serve the 
holistic needs of those seeking to transition back into their home 
community.
    Under CSOSA's faith-based re-entry initiative, faith institutions 
have served as the community complement which ensures that the re-
entrants get connected to social service providers, drug rehabilitation 
services, counseling, employment training and job placement.
    We began the program by providing mentors from the faith 
institution of the re-entrants' choice, then moved to providing job 
readiness services under ``Ready 4Work'' and now are launching a city-
wide housing initiative under a housing task force which was 
established last year by the faith-based re-entry initiative. Together 
with CSOSA, faith institutions want to fulfill a commitment to put a 
real dent in the re-entry housing problem. As chairperson of the Faith 
Advisory Council I stand ready to serve as a resource to you and the 
committee in understanding the needs of the re-entrant community. 
ERCPCP can organize meetings, schedule tours and visits to program 
sites and serve as the fiscal agent for other faith-based partners.
    In fact, I'd like to take this opportunity now to extend an 
invitation to you Mr. Chairman and members of the committee to visit 
our programs to see first hand the work that we are accomplishing in 
the re-entrant community.
    The CSOSA partnership with the faith community has proven to be a 
sound one and one that is continuing to grow in its impact. As such, we 
urge you to provide the strong financial backing that this partnership 
needs to continue to make a significant impact in reducing recidivism 
and transforming the lives of those who want to be contributing 
citizens.
    Again, thank you for your time and attention.

    Senator Brownback. Reverend Isaac.
    Mr. Isaac. Yes, I am Reverend Donald Isaac and I am the 
chairperson of the CSOSA/Faith Advisory Committee. I certainly 
want to thank both you and Senator Landrieu for the support 
that you expressed last year and to report that we were able to 
really organize and bring on line about 30 beds of housing, 
transitional housing, through the support that was shown last 
year. The need for housing is obvious. We work in mentoring. We 
have done the Ready4Work program, but we have found that 
housing is the major underpinning of a successful reentry 
program.
    So we are here today to offer our expertise and our 
availability as a resource to you and other members of the 
subcommittee, to organize meetings and visits within our 
community, or to even serve as a fiscal agent to be able to 
empower and bring other members of the faith community to the 
table who want to be engaged in this work.
    Thank you.
    Senator Brownback. Thank you. I was over last night at the 
Gospel Rescue Mission and was talking with some of the people 
there. They were wrestling with the housing issue and how 
important that was for reentry in this critical time.
    Senator Landrieu.
    Senator Landrieu. Thank you all so much, and I am sorry our 
meeting is going to be cut short, but we have scheduled seven 
votes starting in just a few minutes.
    But I wanted to ask a question. I see that the recidivism 
rate is higher nationally than in the District and I think you 
need to be complimented for getting that number down. But what 
specific steps are funded in this budget to further reduce that 
recidivism rate? I know, Reverend, you just spoke about the 
real need for housing and a partnership with churches and the 
benefits of mentorship as we are moving people back in and 
trying to get them in a very positive track, productive 
positive track, to keep them out of jail or from going back.
    So could you name one or two things that are in this budget 
that perhaps the chairman and I could focus on that really you 
are seeing some real good results from? I do not know, Mr. 
Quander, if you want to take this.
    Mr. Quander. I will start. One of the main initiatives is 
the Reentry and Sanctions Center, which is located on the 
campus of the hospital, D.C. General Hospital. That facility is 
brand new. Members of this subcommittee have been very 
supportive. We have opened that facility. That facility will 
allow us to provide assessment, treatment readiness, 
motivational services, for a core group of offenders who will 
be returning from periods of incarceration. It is a core group. 
These individuals have had on average nine prior arrests, six 
prior convictions, a documented history of substance abuse. 
They have been violated for either probation violations or 
parole violations. They represent the typical individual who is 
recycling through the system.
    It is our desire to get these individuals into this program 
where we can concentrate on the services that they need, get 
them ready to be followed up by in-patient drug treatment, and 
then to be followed through aftercare, and a specialty unit 
that will help them and to supervise them. That is one of the 
initiatives.
    The other initiative of the Pretrial Services Agency is the 
caseload for their extensive supervision program. The current 
caseload is approximately 124 to 1. This budget will allow, if 
approved, to reduce that caseload. We are asking for additional 
positions there and additional money for global positioning 
system technology to help the pretrial population.
    Senator Landrieu. And I see it will reduce it from 124 to 
100. But is it still higher than Maryland and Virginia? What 
are the jurisdictions around us?
    Mr. Quander. It is difficult to actually put a one to one 
because in Northern Virginia, if you are looking at the Federal 
numbers, it just is not a direct correspondence. It is still 
going to be high. In I believe Northern Virginia in the Federal 
system, it is probably about 80--sorry, about 60 to 1.
    Senator Landrieu. Sixty to one, and we are 100 in the 
District.
    Mr. Quander. If we can get down to 100 to 1. We want to 
take steps that will get us there. We know we will not be able 
to get everything. But if we can get it down to 100 to 1, that 
gives us something more to work with. We can provide the 
service that we need to provide to ensure public safety.
    Senator Landrieu. Mr. Chairman, I just want to say I think 
this is a very important program and if we can get that 
caseload as low as possible so that these professionals can do 
their job, we can keep people when they get out of prison from 
going back and keep the community safe and try to get people on 
a more productive life track, which would be important.
    So I know our time is short. The chairman may have a 
question.
    Senator Brownback. Thank you. Thanks, Senator Landrieu. I 
think this is a really important issue, too, if we could do a 
lot more in working on getting that recidivism rate down. We 
have got a big bill on the Second Chance Act to try to do this 
more nationally, and if we could model some of the successful 
ways to do this in the District of Columbia. I would love to do 
it, want to do it.
    This year is going to be a tight budget year. The numbers 
we are working on, that is the votes we are going to right now. 
So I do not know how much we will have for any new initiatives. 
It is probably going to be mostly maintenance of current 
efforts to move those and try to keep them on track. We will 
look at things on recidivism, and I am particularly interested 
in the housing aspect, where we can try to get people in 
situations where they can most likely thrive, because I know it 
is just a really tough circumstance for a lot of people. When 
they come back in and are reentering the system, they have got 
to get someplace they can land on their feet and work on 
through.
    Judge Washington and Judge King, thank you very much for 
your parts in this process and the capital campaign efforts 
that you are doing. We will see if we can maintain that. Again, 
as I say, it is a tight budget year. I do not know how much we 
are going to be able to do in that category, but we will see. 
We will see what we can do with the overall budget areas, and 
we appreciate your work in it as well.
    I apologize for this being short. Perhaps you like it that 
way. You will not be drilled as much. We have got these seven 
stacked votes that we are already about a minute or two from 
closing the first vote. I do appreciate your effort, do 
appreciate your work. This is a key, key area that we have got 
to keep on track and you are doing a great job.
    The record will remain open for the requisite number of 
days. Your official statement will be entered in the record.
    Any closing?
    Senator Landrieu. No, thank you.

                          SUBCOMMITTEE RECESS

    Senator Brownback. A record short hearing. Recessed.
    [Whereupon, at 3:19 p.m., Tuesday, March 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        THURSDAY, JUNE 22, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Sam Brownback (chairman) 
presiding.
    Present: Senator Brownback, Allard, and Landrieu.

                          DISTRICT OF COLUMBIA

STATEMENT OF HON. ANTHONY A. WILLIAMS, MAYOR

               OPENING STATEMENT OF SENATOR SAM BROWNBACK

    Senator Brownback. We'll call the hearing of the cannonball 
express to order. I was saying I would give this dive about a 
6.5. Now, the tilt is the only reason I got a little off the 
score on this one. But, Mayor, that's just about as good as it 
gets. You know, I wouldn't have taken my shirt off; I would 
have been embarrassed. But you've got pretty good form. You're 
looking pretty good.
    Dr. Gandhi, maybe next year you can join him, Dr. Janey, 
and we'll do a triple.
    Dr. Gandhi. I cannot match the Mayor.
    Senator Brownback. Well, few of us could. Thank you all 
very much for being here. We're doing the extraordinary, and 
we're going to start on time. We have a series of votes 
starting at 11, and so time is short. I'm going to put my full 
statement into the record and ask that it be presented that 
way. I do want to welcome the Mayor on his eighth and final 
budget that he is putting forward. I do want to congratulate 
you, Mayor. I've very much enjoyed working with you. It's been 
a good relationship, it's been a congenial relationship, and 
it's been a successful one. And I also look forward to working 
with you more, as you round out your time in this position, on 
some of the welfare reform topics that we've talked about. Good 
progress is being made on supporting and encouraging family 
formation.
    The District's had good news, been creating new jobs. 
Unemployment in the District, we've had some problems on 
increasing of unemployment. I think there's been a lot of 
things that have been working right in the District.
    I do want to talk about the schools some today with Dr. 
Janey, because that continues to be an area all of us are 
watching and concerned about. I want to hear what progress we 
are making in that particular field as we move forward, 
particularly on test scores. I'd like to hear about that and 
about the allocation of space for charter schools. I know my 
colleague, Senator Landrieu, is particularly interested in 
that. We just want to talk about what's the plan and how we're 
moving forward with this altogether.
    With that, I'll put the rest of my statement in the record 
and turn to my colleague, Senator Landrieu.
    [The statement follows:]
              Prepared Statement of Senator Sam Brownback
    Good morning. This hearing will come to order. Today we will hear 
testimony regarding the District of Columbia's fiscal year 2007 local 
budget request. D.C. Mayor Anthony Williams, Council Chairman Linda 
Cropp, and Chief Financial Officer Natwar Gandhi will present the 
city's budget and will discuss the District's requests for Federal 
resources. In addition, D.C. School Superintendent Clifford Janey will 
discuss the D.C. Public Schools' local budget request and his plans for 
using the $13 million in federal funds that have been requested of this 
subcommittee.
    This is the eighth and final budget that Mayor Williams is putting 
forward. I would like to congratulate you, Mr. Mayor, for making 
dramatic improvements in the District's financial condition. When the 
Mayor took the helm in 1999, the District's bond rating was in ``junk 
bond status.'' Now the District is enjoying an ``A'' rating from all 
three credit rating agencies and is also maintaining a cash reserve 
balance of over $250 million, which is among the largest in the 
country. The city is enjoying an impressive commercial real estate boom 
and has been creating jobs at a rate that is twice the national 
average.
    But tempering these positive facts is a very troubling reality. 
Only one-third of the jobs that the District is creating are going to 
city residents. In fact, even as the District has been creating new 
jobs, unemployment in the District has been increasing. One reason for 
this persistent unemployment problem is the adult illiteracy rate in 
the District. District-wide the rate is 37 percent, but in lower-income 
wards, the illiteracy rates are much higher. The District is also 
losing population, even as the populations of surrounding suburbs 
continue to grow at rapid rates.
    The adult illiteracy rates and the outflow of residents can be 
largely attributed to the poor public school system. For years District 
schools have been failing generations of students and now the city is 
reaping the sad consequences of illiteracy, unemployment, and the 
flight of residents who just cannot bear to send their children to 
neighborhood schools. I do not believe money is the problem. Funding 
for the District's school system has increased 83 percent since fiscal 
year 1999, even though overall enrollment has actually dropped 5 
percent during that same time period. The per-pupil spending rate is 
the highest in the nation. Despite huge funding increases and 
extraordinarily high per-pupil spending, only 32 percent of 4th graders 
are reading at a basic level, compared to 62 percent nationally. And 
only 36 percent of these same students are performing at a basic level 
in math, compared to 77 percent nationally. Clearly the children in the 
District are not being prepared to take part in the American dream that 
is occurring right in their own city.
    A few months ago the Department of Education labeled the District's 
public schools ``high risk'' because of serious recurring problems with 
its financial and grant management. Clearly, the situation is dire and 
I would like to hear from city leaders about how they plan to reign in 
school spending and improve student performance.
    Unfortunately, it seems like we have this conversation year after 
year. I believe that when we fail to teach our children to read and 
write, we condemn them to lives of poverty, crime, and hopelessness. We 
must act swiftly and aggressively to change course for the sake of our 
children's futures.
    Regarding the federal portion of the D.C. budget, I know that the 
District has a number of programs and capital projects that may merit 
funding through this subcommittee. Today I would like to hear more 
about those project requests from our panel. Although our resources are 
always limited, as Chairman of this subcommittee, I look forward to 
partnering with city leaders to find ways to make life better for those 
who live, work, and visit this Capital City.
    Because of time constraints, we ask witnesses to limited their oral 
remarks to 3 minutes. Copies of all written statements will be placed 
in the Record in their entirety and the hearing Record will remain open 
for the requisite number of days. Senator Landrieu.

             PREPARED STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman, and I will put 
my statement in the record, because our time is short because 
of these stacked votes in just about 45 minutes, and we do want 
to hear from the distinguished panel.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Good morning, thank you Mr. Chairman for calling this final hearing 
regarding the fiscal year 2007 budget in the District of Columbia 
Appropriations Subcommittee. I appreciate our witnesses joining us 
today to discuss the budget and your priorities for this year. We 
welcome back Mayor Anthony Williams and his Chief Financial Officer 
Natwar Gandhi for the final hearing of their Administration. I would 
also like to welcome the Chairman of the Council of the District of 
Columbia, Linda Cropp, who has ably led that body and Dr. Clifford 
Janey, the Superintendent of D.C. Public Schools, who are testifying 
again before the committee--but hopefully not for the last time.
    As the committee and witnesses are aware, the primary purpose of 
the D.C. subcommittee is to ensure the immediate and long term economic 
health of the District. There are many ways we can do that. I brought 
to the attention of this committee and my colleagues in Congress that 
we should examine what GAO has identified as a structural imbalance 
between the cost of providing city services and its ability to take in 
revenue. But at the same time, we must focus on other tools to bring 
greater prosperity and long term stability to the District. At a time 
of limited Federal resources I would like this committee to partner 
with each of the offices represented here today--the Mayor, Council 
Chairman, Chief Financial Officer, and Superintendent of public 
schools--to leverage our funding to the best opportunities for growth 
and stability. Cities that have good public schools, safe communities, 
and strong families are cities that have strong economies. If we focus 
ourselves on providing these things in the District, we will go a long 
way toward strengthening the economic independence the city needs and 
deserves.
    Our witnesses have dedicated significantly to reforming public 
education in the District. On May 15th the Superintendent of Schools, 
Dr. Janey, released a plan outlining the first steps in making the 
system more efficient and dedicating more resources to students in 
classrooms. The Superintendent's recommendation for the first phase of 
school consolidations, or rightsizing, recommends closing six public 
school facilities and making space available in seven additional public 
schools for co-location, in all 1 million square feet of un-used space. 
At least 5 million square feel of excess space has been independently 
identified by the Council of Great City Schools, the Brookings 
Institute, and the 21st Century Schools Fund. This committee has raised 
concerns, in our annual committee report and in several hearings in 
2005, that it is a highly inefficient use of public funds to maintain 
at least five million square feet of under-utilized space in DCPS 
facilities. The Board of Education's decision to consolidate 3 million 
square feet of space in 2 years is a major recognition that resources 
can, and should, be used to directly improve student achievement rather 
than maintaining unused facilities. I congratulate Dr. Janey for taking 
the lead and for the Board of Education for working so hard to have a 
fair process that benefits students and families to consolidate the 
first 1 million square feet of space. I am encouraged that the Board 
has agreed to consolidate an additional two million square feet of 
space by school year 2007-2008.
    Making better use of the resources you have is significant progress 
to improving public education for all. But the process that each of you 
here today, and other public officials, continue over the next few 
months and years will be the true message to families in the District 
whether the education of their children is valued or not. I urge you in 
the strongest possible way to establish a fair and transparent process 
to make any schools closed available first to public charter schools. 
The D.C. School Reform Act requires a right of first refusal to public 
charter schools for any public school property not used by the city. 
You must adhere to this law.
    The expansion of public charter schools is one of the driving 
forces making public education more accountable to the community. In 
the District, charter school students now make up 25 percent of the 
public school population, some 20,000 students. There are 52 charter 
schools on 64 campuses and the upcoming school year welcomes 58 
charters on 71 campuses, as 7 new charters and one expansion open.
    When people ask me why I support charter schools, I tell them it is 
because I believe in public education. I firmly believe that if we work 
to modernize the system of delivery for public education, allow greater 
opportunities for innovation and hold schools accountable for results, 
then we can provide a high quality public education for every child in 
America. One size does not fit all, and if we give our parents choices, 
they will choose what is best for their child.
    Until now, the focus of the charter school movement has been to 
increase the quantity of charter schools. But if we expect this to be 
more than a movement, we must shift our focus from quantity to quality. 
As the Washington Post wrote last year, ``The District's experiment 
with charter schools has proved hugely popular with parents, but the 
schools vary widely in quality and have yet to demonstrate that they 
are doing better than the city's regular public schools in raising 
student achievement.'' I also look forward to working with you to 
improve accountability for individual schools and programs and hold all 
recipients of public funds accountable to the highest standard.
    This committee is gravely concerned about recent allegations where 
the use of public funds for charter schools has been in question and 
investigations have ensued. The committee is examining closely the 
performance of public funds provided to finance the purchase or 
renovation of public charter school facilities. It appears that the 
program has met its objectives--schools have received loans or credit 
enhancement, buildings have been purchased and renovated, with the 
ultimate goal that children are studying in better facilities. Twenty-
two public charter schools have received financing from these funds. 
The primary concern is how, if the press is true, were contracting laws 
circumvented and public funds invested in a questionable company? I 
hope that the Mayor and Dr. Gandhi can provide some insight. I 
understand there are four investigations ongoing, and I strongly hope 
that these are expedited and come to a conclusion as soon as possible. 
My priority is that public funds are returned to the city as soon as 
possible. Any wrongdoing must be prosecuted and all the public funds 
must be returned. Responsible public officials will not wait months and 
years for investigations to wind their way to on conclusion while 
children languish in substandard facilities because there are no funds 
to improve school buildings. We will not stand for it and I hope that 
none of the witnesses here today will either.
    Another area which I hope the committee and the witnesses will 
address today relates to a request by Mayor Williams to remove the 
water and sewer authority (WASA) from the financial oversight of the 
independent Chief Financial Officer of D.C. I understand that for many 
months the CFO and WASA have been in negotiations to resolve 
differences in the authorizing statutes that require independence for 
both. I would like to work with the District's elected leaders to 
develop a reasonable resolution to this issue.
    As you know, as Chairman of this subcommittee I lead the effort in 
Congress to maintain the independence of the CFO when the Financial 
Control Board was retired in 2001. And I have worked with Chairman 
Brownback and his predecessor, Senator DeWine, to continue this 
provision each year on the D.C. Appropriations bill. We do not take 
lightly the Congressional direction in establishing the Control Board 
to have an independent CFO with oversight of all financial offices in 
every District agency. Unless WASA is not a District agency, we need to 
find a way forward for appropriate oversight of its finances while 
maintaining a strong District CFO. I hope that the Council will take up 
this important issue and work with Chairman Brownback and me to address 
this conflict.
    In closing I would like to take a moment to commend each of our 
witnesses for their stead-fast and superior commitment to the District 
of Columbia. When I became the ranking member, and soon after the 
chairman, of this subcommittee in 2001 the federally imposed Control 
Board was coming to a close. The city had turned from junk bonds to 
credit worthy status on Wall Street and the city services that all 
residents depend upon were on a path to functioning as residents 
demand. This Congress, the city, and really the nation have one man to 
credit for that path--Anthony Williams. As the CFO who turned the city 
around, and then the Mayor, you have set the course for a brighter 
future for this city. Dr. Gandhi has continued the same high standard 
of financial security and Chairman Cropp has guided the Council's work 
to secure this path. Dr. Janey has been with us little over a year, but 
I am hopeful that his record will surpass even that of the other city 
leaders with us here today as he works to improve the learning and 
achievement of the District's children. I congratulate each of you on 
your work and appreciate your service.

    Senator Landrieu. But I would like to follow up 
specifically on our focus of this subcommittee, which I think 
is warranted, on the progress of the improvement of the school 
system for the District. The Nation's capital is not only a 
place of residence for the people that live here in the 
capital, but as the Nation's capital, it's an opportunity for 
us to really showcase what's best about our democracy. And 
having a strong and vibrant school system--and, Dr. Janey, 
you've made some significant steps in your tenure as 
superintendent, with the Mayor's support and the Council's 
support, but we want to focus some of our encouragement to you 
on the continuation of reducing excess space, on making the 
system more efficient, and giving more opportunity and choices 
for students and their parents and their families, and 
answering the call of the business community that sees skill 
development and education development as a real key to the 
economic development of this city and this region and it's 
growth and expansion.
    This excess school issue, Mr. Mayor, the city sent this 
letter last night. As you can tell, it's quite long. I haven't 
had a chance to review it, but will before too long, and have 
more specific questions relative to that.
    I want to raise, Mr. Chairman, one incident that's not in 
my written testimony, but something that's been in the paper 
that's quite concerning, And I know it's not the job of this 
subcommittee to micro-manage the first responder situation here 
in the city. But, Mr. Mayor, the incident regarding a resident 
that was robbed and beaten and then died subsequent to the poor 
response time is extremely concerning to me, not just because, 
again, the residents of this city deserve a strong police force 
and first responders--and Chairman Cropp, as well for you--but 
the thousands and millions of visitors and school children that 
come into this District deserve to know that that first-
responder system is as strong as it can be.
    I know that you have this under investigation, so I don't 
want to go into too much detail, but I want you to know that I 
and many members here have expressed concern about making sure 
that people are held accountable, that systems are changed, and 
perhaps in your testimony you could give a couple of updates 
about that situation. Thank you, Mr. Mayor. Thank you, panel.
    Senator Brownback. Thank you Senator Landrieu.
    Senator Allard.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Mr. Chairman, I'd like to make my full 
statement a part of the record, and I would just second many of 
the comments you made. I would just say to the Mayor that while 
you are departing after your second term, I think you can hold 
your head high. And I think you have done a great job, and we 
are looking forward to continuing to work on issues that are 
important to the District. So thank you, Mr. Chairman.
    [The statement follows:]
               Prepared Statement of Senator Wayne Allard
    Mr. Chairman, thank you for holding this important hearing today. I 
look forward to the testimony of our panel today regarding the District 
of Columbia's budget request for the next fiscal year.
    I would also like to reiterate the ``congratulations'' to Mayor 
Williams; I think he deserves it. While you are preparing to depart 
after your second term as Mayor of the District of Columbia, I hope you 
leave with your head held high. I have noted that from the time I first 
arrived here in D.C. there has been a remarkable change in this city 
for the better. You certainly deserve your fair share of credit for 
that turn-around.
    That said, I look forward to hearing the panel's testimony 
regarding the federal payments to the District. It is a very tight 
budget year for all of our federal expenditures. I know that there are 
many initiatives in the District that this committee has supported in 
the past, and I hope to hear an update on many of this educational 
activities and capitol improvements which have been appropriated for in 
prior years.
    And with that, Mr. Chairman, I look forward to the witnesses' 
testimony, and thank them for appearing before us today.

    Senator Brownback. Thank you, Senator Allard. Mayor 
Williams, welcome. The floor is yours.
    Mayor Williams. Thank you, Chairman Brownback, for holding 
this hearing. Ranking member Landrieu, thank you as well. 
Senator Allard, I haven't had a chance to work with you, but I 
am looking forward to working with you as we move through this 
budget process. And, Mr. Chairman, in light of your time 
constraints, what I will do is abbreviate my remarks wherever 
possible, understanding that my full remarks have been entered 
for the record.
    Senator Brownback. All of your presentations will be placed 
in the record as if presented, so I would ask if you could to 
summarize, because I think all of us would like to get to some 
questions and answers if we could.
    Mayor Williams. Mr. Chairman, regarding any budget 
questions, I also have with me Kevin Clinton who is my Senior 
Advisor for Budget and Finance, as well as Kate Jesberg, who 
has worked very closely with your staff in developing a number 
of initiatives that we've been working on in terms of 
strengthening our families in the District of Columbia, so 
she's also available to answer questions that you may have 
today.
    I'm pleased to be joined by Council Chair Cropp, who has 
been a partner in the success that we have achieved in the 
District; I'll stand alone on all the problems, but she's been 
a partner in all the good things; and Dr. Gandhi, my friend and 
colleague now for a long, long time, since I've been CFO of the 
District; as well as Dr. Janey, with whom I meet with weekly, 
understanding, as you do, Mr. Chairman, the importance and 
primacy of our schools.
    In our budget for fiscal year 2007, Mr. Chairman, we 
continue our program with new communities, which is an attempt 
to try to decrease the concentration of poverty in our city and 
create, using our own resources, and wherever possible 
partnering them with Federal resources, mixed-income 
communities in this city that are more conducive to healthy 
lives and neighborhoods in our city for all of our citizens.
    Another initiative last year, Great Streets, brought 
physical improvements and additional business to some 22 miles 
in the District. Affordable housing, including, but not limited 
to, the new communities project I just talked about, as well as 
increasingly strengthening our housing in our city using the 
housing production trust fund that we have created now over the 
last 5 or 6 years to not only build housing, but to work with 
tenants and residents to preserve affordable housing. Because 
Washington, DC, like many cities in the country, is a city 
where you have a number of section 8 contracts and other 
housing contracts that are expiring, many residents are likely 
to lose their homes if the city doesn't step in and work with 
them.
    There's more mileage to be gained in preserving affordable 
housing through preservation than you're going to get through 
production of new housing, due to the scarcity of land and the 
scarcity of housing at an affordable price in terms of cost 
production. You'll be hearing from Dr. Janey, but I was pleased 
to have worked with Dr. Janey, and Council Chair Cropp and the 
Council to provide an allocation of $223 million to support 
rehabilitation and modernization of school buildings.
    I'm pleased that the District continues to be a leader in 
healthcare coverage in our city, offering health insurance 
coverage to all residents, up to 200 percent of poverty. And 
the 2007 budget demonstrates our continued commitment to this 
by expanding health coverage for children from 200 to 300 
percent of the Federal poverty level. The trick now is to see 
to it--and it's pretty much the case in everything we do--to 
see to it that this coverage is translated to better health 
outcomes, and there's been a snag there, a much bigger snag 
than I would like.
    We've also asked for funding for critical projects. I 
mentioned, Mr. Chair, that the President's budget, I was 
pleased, contains $30 million to launch the recommendations of 
my blue ribbon library task force. I assembled major 
philanthropists, nationwide experts in the field. I would urge 
that the subcommittee support the President's mark. The $30 
million in the President's budget will help fund three 
neighborhood branch libraries and a new central library, and 
these four library projects will help us transform the entire 
library system. In fact, the District is united in transforming 
our library system into a world-class system.
    You should know, Mr. Chairman, in the past year's budget 
the Council and I have put $170 million into improving our 
library system to show our own local support for this effort. I 
expect that philanthropy will also play a part in this. And I 
would also note, Mr. Chair, as I have with you in private 
conversation, that this isn't just about building a library 
building or even building or re-modernizing buildings in the 
neighborhoods. It's really about using the library system as a 
way to improve literacy in our city, because, as you know, our 
city struggles in a situation where some 37 to 38 percent of my 
constituents are struggling at a low level of reading ability. 
So every tool we can use for education, in this case libraries, 
that tries to address that problem, we want to do that.
    We asked for $10.5 million for continued support of the 
emergency planning and security cost fund to reimburse the 
District for the costs incurred in activities associated with 
Federal activities: The inauguration is an example.
    In the area of education, there is substantial investment 
in three areas; a tuition assistance grant program, and a 
three-sector initiative. The tuition assistance grant program, 
as you know, is a marquee Federal initiative that continues to 
be a success. It compensates the District for the lack of a 
State university system, as you know.
    In 2005, our students were enrolled in universities and 
colleges in 45 States across the country, the District, and the 
U.S. Virgin Islands. This budget includes funding of $40.8 
million--excuse me. This budget includes funding for this 
tuition assistance program, but I've pledged to you, members of 
the subcommittee, and other Members of the Senate, that the 
District is committed to holding these costs down in future 
years, recognizing that there are number of things that we can 
do under our own power to do that, but also accepting the fact 
that the cost pressures in this program are really either 
things that are outside of our control, the cost of tuition is 
rising in colleges across the country, or things that the 
Senate and the Congress should be proud of, for example the 
number of students who are using the program. The number of 
students who are using the program continues to increase and 
actually has led to one of the signal achievements in our 
education system that I think the Congress can be proud of, and 
which is to say that there's been a some 35 to 40 percent 
increase in college matriculation now that can be traced back 
to this program. So that's a good thing, and Congress should be 
proud of it. And we would want to encourage the Congress, and 
particularly the Senate, to continue it.
    You know, Mr. Chairman, my strong support for the three 
sector initiative. This budget includes funding of $40.8 
million for that initiative, funds provided to D.C. Public 
Schools, the charter schools, and scholarships for private 
tuition throughout the District. It continues to perform as 
designed by expanding choice for District parents and teachers. 
I'm very, very proud and pleased that mothers, parents of 
lowest income in some of the most struggling situations, have 
chosen this option to provide a better education for their 
children.
    On the Anacostia Waterfront, to be brief, Mr. Chairman, 
we're asking in the President's budget for $20 million in 
funding for improvements to the Navy Yard Metro Station. It's 
modeled on transit investments the Federal Government has made 
in the District and elsewhere. It will help the Federal 
Government improve capacity for expanded Federal workforce 
needs at the U.S. Department of Transportation headquarters in 
the Southeast Federal Center. The House has provided for this 
funding within the Transportation appropriations bill, and we 
would request that the Senate also support this investment. 
This investment also will have a positive effect on the new 
baseball stadium, but I want to insist it's not solely for that 
purpose, because there is a large Federal presence there with 
the Southeast Federal Center and the new U.S. Department of 
Transportation.
    And finally, Mr. Chairman, as I wrap up my last budget 
testimony in 8 years as Mayor and I forget how many it was as 
CFO, I would urge the members to be supportive of the bill now 
moving through the House that would allow a congressional 
vote--I'm not talking about a vote in the Senate, but a vote 
within the Congress--for the District Representative. It's 
supported on a bipartisan basis, and I think it's the right 
thing to do to provide democracy in our capital.

                           PREPARED STATEMENT

    Thank you very much, Mr. Chairman, for allowing me to 
provide you this testimony. I stand ready to answer any 
questions you or the subcommittee may have.
    [The statement follows:]

               Prepared Statement of Anthony A. Williams

    Chairman Brownback, Ranking Member Landrieu, and other 
distinguished members of this subcommittee, it is my great pleasure to 
testify before you today regarding my proposed Fiscal Year 2007 Budget 
and Financial Plan: The Citizens' Budget. As the last budget that I am 
presenting to the Congress as Mayor of the District of Columbia, I want 
to express particular appreciation for the support and commitment that 
this committee has provided to our efforts to improve the District of 
Columbia as a place to live, work, and visit. I am preparing my budget 
in an environment where the economy is strong and the District's fiscal 
standing is respected across the country. However, as I developed my 
local budget, I focused first on my responsibility as Mayor to fulfill 
our current commitments to the citizens of the District of Columbia.
    This budget fulfills our commitments by containing the growth of 
government through fiscal discipline. It maintains our pledge to 
provide tax relief for all District residents, and it follows through 
on the landmark initiatives we launched last year. In this budget, I 
also responded to the priorities that citizens have expressed in 
summits, public hearings, and community meetings.

                          A RESPONSIBLE BUDGET

    This budget takes the responsible approach with a local fund budget 
of $5.09 billion, representing a 2.6 percent growth rate over last 
year's funding level, in part by scaling back $205 million in baseline 
growth. This belt tightening effort also allows us to invest in a 
modest amount of new services. I chose to make the most significant 
investments in education and housing because residents told me those 
are their highest priorities.
    Another way that this budget reflects fiscal responsibility is by 
taking the final step towards completing tax reductions associated with 
the Tax Parity Act of 1999. This will save taxpayers $51 million in 
fiscal year 2007 and $64 million during fiscal year 2008 and beyond. 
This final phase of tax parity implements reductions for individuals at 
lower income levels as compared to earlier phases of tax parity. For 
taxpayers with taxable income under $10,000, tax rates fall from 4.5 
percent to 4.0 percent. For taxable income from $10,000 to $40,000, tax 
rates fall from 7.0 percent to 6.0 percent. And for taxable income 
above $40,000, tax rates fall from 8.7 percent to 8.5 percent.
    This last phase of tax parity caps a three-year period in which the 
District has provided more than $350 million in tax relief to residents 
and businesses--mostly in the form of property tax and income tax 
relief.

               FOLLOWING THROUGH ON LANDMARK INITIATIVES

    Last year, we launched the ``New Communities'' initiative. It is 
designed to decrease the concentration of poverty and crime by creating 
mixed-income neighborhoods with one-to-one replacement of affordable 
housing. This District-sponsored redevelopment of the physical and 
human architecture will transform distressed neighborhoods into 
healthy, mixed-income communities that offer families better housing, 
employment and educational opportunities.
    In the past year we have made progress in our first targeted 
community, Northwest One. This budget proposes an investment of $4 
million in social supports in Northwest One, Barry Farms, and Lincoln 
Heights. These social supports will include launching adult learning 
partnerships, expanding youth serving programs, and implementing 
intensive self-sufficiency case management support for residents.
    Another initiative we launched last year, Great Streets, aims to 
transform under-invested corridors into neighborhood centers through 
physical improvements and new business development. The total corridor 
distance is 22.5 miles and the corridors pass through over 50 
neighborhoods. In fiscal year 2007 I will invest $6 million in 
development assistance, small business development and land use 
planning along selected corridors. In addition, in the fiscal year 
2005-fiscal year 2009 spending plans, we allocated $100 million in 
local and federal funds for transportation, streetscape, and transit 
improvements.
    Through the Way-to-Work initiative, we leverage the economic 
development activity that has transformed the District by refocusing 
its impact on specific neighborhoods and targeted communities. We have 
developed strategies to ensure that employment and business 
opportunities associated with the District's booming economy are 
available to all residents in every ward. I propose continued funding 
of $21.6 million for the Way-to-Work Initiative in fiscal year 2007, 
with more than $12 million targeted for the District's youth. In my 
plan I propose $7.7 million for summer jobs for 10,000 district youth; 
$3.1 million for year-round youth employment; $1.8 million for the 
Youth Leadership Institute and $8.4 million for transitional 
employment. Should additional funds become available, I propose 
increasing summer jobs funding by $2 million to serve an additional 
1,400 youth.

                           CITIZEN PRIORITIES

Affordable Housing
    This budget proposes a new housing initiative based on the 
recommendations of my Comprehensive Housing Strategy Task Force, which 
conducted a comprehensive, year-long review of the housing landscape in 
the District of Columbia. This initiative is designed to protect and 
expand affordable housing so that the District is better equipped to 
address housing challenges including: a lack of affordable housing for 
those working at low to mid-level salaries; a need for housing for our 
most vulnerable residents, and the need for central coordination of the 
District's housing agencies.
    Based on the Task Force recommendation, I proposed an increase in 
the residential deed and recordation tax rates from 1.1 percent to 1.5. 
This will generate roughly $47 million in fiscal year 2007 and I 
propose that this revenue be devoted to a new dedicated fund for the 
implementation of the recommendations of the task force.
Education
    I am proposing an historic investment in capital funding for the 
District of Columbia Public Schools, with a total allocation of $223 
million to support rehabilitation and modernization of school 
buildings. This includes full funding of $100 million in sales taxes as 
passed by Council and an additional $123 million from other 
modernization resources.
    The operating budget includes a total of $1.1 billion in local 
funds for public education, including $811 million for DCPS and $264 
million for public charter schools. This fiscal year 2007 budget level 
includes increases to the Per-Pupil Funding Formula as recommended by 
the State Education Office. This increases base funding for education 
by $402 million and results in an additional $25.1 million for DCPS and 
$9.5 million for the D.C. Public Charter schools. This funding level 
also includes $4.9 million to hold DCPS harmless from the impact of 
students transferring from the school system to private schools as part 
of the federal voucher program.
Health
    The District continues to be the only jurisdiction in the United 
States offering health insurance coverage to all residents up to 200 
percent of poverty. The fiscal year 2007 budget demonstrates our 
continued commitment to providing health services to residents by 
expanding health coverage for children from 200 to 300 percent of the 
federal poverty level and, for the first time, adding dental coverage 
within the Medicaid program for adults.
    This budget augments primary health care services with the goal of 
creating an electronic health record system ($2.2 million) for 
community health centers, along with a bricks and mortar investment in 
community health centers that serve low-income populations ($13 
million). We have also added $1 million for the operating costs of my 
Medical Homes initiative. We will expand the hospital uncompensated 
care fund by $4.25 million, which will generate $14 million additional 
dollars for our hospitals.
    I am proposing health care improvements for residents in the 
currently under-served east side of the District. These improvements 
will ensure proper citywide distribution of emergency, trauma, 
inpatient, and specialty services, and will be funded through Tobacco 
Settlement Trust Fund bond revenues.
    To address HIV/AIDS, I am calling on a citizen task force to 
identify improvements to our HIV prevention strategies and HIV/AIDS 
treatment in the District.
Libraries
    In this budget, I propose significant new investments into our 
District library system to elevate the quality of life by providing 
access to information and literacy services, while serving as a 
community gathering place.
    The District is committing $16.25 million in fiscal year 2007 as 
part of a $167 million investment in major construction and renovations 
to neighborhood branches over the next six years. This will meet the 
needs of community residents, provide attractive gathering places for 
neighbors, and support neighborhood economic development. We also are 
investing $5.5 million to enhance key library services including 
updated collections and expanded operating hours.
    I am proposing a new, central Martin Luther King, Jr. Memorial 
Library that will attract library patrons and serve as the symbolic, 
administrative, and technological hub of the system. The cost will be 
covered with the proceeds of the disposition of the existing central 
library, the PILOT payment, and federal funding, including a portion of 
the $30 million that President Bush recently committed to the District 
to support my library initiative.
Youth
    We are proud that we have developed the first ever Children's 
Budget for fiscal year 2007. Our challenge now is to reexamine what 
results we are getting from our investments and whether we are 
investing in the right things. The Youth Development Strategy offers a 
framework to realign current youth investments with effective, 
evidence-based programs and services.
    The budget includes seed funding for the Mayor's Youth Development 
Strategy is to reduce youth violence and improve the quality and 
effectiveness of youth programs throughout the District. This budget 
includes $1 million to support interagency violence prevention efforts 
in addition to the resources for core initiatives already within agency 
budgets. I am also proposing, in partnership with Major League 
Baseball, an investment of $1 million in a summer youth baseball 
academy.
Safety and Justice
    This budget includes an increase of $4 million to provide local 
support to compensate for the loss of $4 million in federal funding 
that supported 81 officers. This budget includes $500,000 to support a 
third round of our ``civilianization'' initiative which will result in 
over 150 sworn officers moving from desk jobs back onto patrol. I have 
provided $800,000 for additional forensics lab services, which is 
complemented by an additional $5 million investment in the new 
Consolidated Laboratory Facility. This budget also includes $11 million 
in rehabilitation and construction of fire stations.

             PRIORITY FEDERAL FUNDING FOR CRITICAL PROJECTS

    In addition to the investments I am making locally, I ask you to 
continue to partner with me to improve the District of Columbia for our 
residents, workers and visitors. The committee's targeted investments 
in joint initiatives have had a tangible impact on quality of life in 
the District of Columbia over the course of my two terms in office. 
This year, the President's budget reflects a particularly strong 
commitment to several of the initiatives that I have targeted 
throughout my term and those that I believe will have a rebounding 
impact on the District of Columbia for decades to come.
Library Initiative
    Over the past few years, I have turned to the D.C. Public Library 
system as a vehicle to address the low literacy rate among the 
District's children and adults. In many major metropolitan areas around 
the country, new libraries have revitalized many distressed 
neighborhoods. For this reason, I have reconstituted the Library Board 
of Trustees and established a Blue Ribbon Task Force comprised of local 
and national experts. The Blue Ribbon Task Force recommended that we 
create a state of the art library system to add multi-lingual support, 
add hundreds of new computers with broadband technology, and add deep 
reference materials and children programs. This will help create a 
brighter future for D.C. residents.
    The estimated cost of rebuilding the D.C. Library System will be 
approximately $450 million. The $30 million in the President's budget 
will help fund three neighborhood branch libraries and the new Central 
Library. These four library projects will help us transform an entire 
library system and provide the necessary leverage to raise money from 
private sources.
    First, $14 million of the Federal contribution will help fund the 
initial stages of building a state-of-the-art Central Library. A new 
Central Library will provide the technological and administrative 
capacity to support the 26 neighborhood branches throughout the city. 
Second, $5.3 million will be allocated to rebuild the Washington 
Highlands Library; approximately 30 percent of the population over 25 
in this serving area did not graduate from high school. The third 
project is $5.3 million to upgrade the Petworth Library which serves 
nearly 32,000 residents. Finally, $5.3 million will expand and renovate 
the Southeast Library. This branch serves over 25,000 residents and 
serves a socio-economically mixed population. Half of the adults over 
25 did not graduate from high school.
Public Safety
    I am requesting $10.5 million for continued support for the 
Emergency Planning and Security Cost Fund. This fund is available to 
reimburse the District for costs incurred as a result of activities 
associated with the federal presence such as major events and 
demonstrations. Based on our current projections, this request, while 
lower than in previous years, will be adequate to support the 
foreseeable need in fiscal year 2007.
    Finally, in the area of public safety, I am requesting continued 
funding of $1.3 million for the Criminal Justice Coordinating Council. 
The CJCC provides a forum for the District and federal agencies that 
make up the District's criminal justice system to plan strategically 
and resolve problems to improve the efficiency and effectiveness of the 
overall system. The CJCC has achieved improvements in areas ranging 
from information sharing to halfway house placement to ex-offender re-
entry. This year, the CJCC's focus also includes reducing gun violence, 
reducing juvenile violence, and better connecting social services to 
those in the criminal justice system that need them. The complex nature 
of the District criminal justice system demands a forum such as the 
CJCC to ensure coordination, collaboration, and improvement.
Education
    In the area of education, this budget includes substantial public 
investment in education in three areas: the D.C. Tuition Assistance 
Grant Program and the three-sector initiative. I also request 
partnership with the Congress on a new tuition assistance program in 
cooperation with the D.C. National Guard.
    The District of Columbia's Tuition Assistance Program (DCTAG) is a 
marquee federal initiative that was established by Congress in the 1999 
District of Columbia College Access Act and has been and continues to 
be a tremendous success. This Program compensates the District for our 
lack of state university system that the entire country enjoys by 
allowing our high school college-bound students to attend out-of-state 
public universities at in-state tuition rates and providing them grants 
for attending selected private universities. Unfortunately, program 
costs have continued to grow rapidly due to rising tuition costs 
nationwide and rising program participation.
    TAG currently provides grants up to $10,000 annually for 
undergraduate District students to attend eligible four year public 
universities and colleges nationwide at in state tuition rates. It 
provides grants up to $2,500 for students to attend a private 
institution in the D.C. metropolitan area and private historic black 
colleges and universities as well as public 2 year community colleges. 
In 2005, our students were enrolled in universities and colleges in 45 
states across the county, the District of Columbia and the U.S. Virgin 
Islands.
    The Tuition Assistance Program has had many successes. In June, 
2004, the program graduated its first class. The second class graduated 
June of last year. For 75 percent of the students surveyed at Woodson 
High School in the District, TAG affected their decision to pursue 
post-secondary education and 65 percent have said that the program has 
affected their school choice. Also gratifying to me is that 55 percent 
of participants are the first members of their immediate family to 
attend college.
    My budget request also includes, for the first time, a request for 
tuition assistance for the D.C. National Guard. This funding will match 
funding that I am providing in my local budget and allow the Guard to 
improve recruitment.
    This budget also includes funding of $40.8 million for the three 
sector education initiative, with funds provided to D.C. Public 
Schools, charter schools in the District of Columbia, and scholarships 
for private tuition throughout the District. This initiative continues 
to perform as designed by expanding choice for District parents and 
teachers and providing support to all our public schools.
Anacostia Waterfront
    I would also like to discuss the tremendous work being conducted 
along the Anacostia Waterfront. First, let me thank you for your 
partnership thus far and ask for your continued partnership.
    As you know, the District's authorization committees are currently 
considering the Federal and District Governments Real Property Act of 
2005. This is a landmark initiative between our respective governments 
to rationalize land usage and set in motion projects that are to have a 
profound impact on public space and quality of life in the District of 
Columbia.
    The President's budget includes $20 million in funding for 
improvement at the Navy Yard Metro Station. This investment, which is 
modeled on other transit investments the federal government has made in 
the District, will help the federal government improve capacity for 
expanded federal workforce needs at the new U.S. Department of 
Transportation Headquarters and the Southeast Federal Center. The House 
of Representatives supported this initiative by providing funding 
within funding from the Transportation appropriations and I ask that 
you support this funding proposal, although it is now outside your 
Committee's jurisdiction, as it shifts to the Senate.
    Improving public access and for the tremendous natural amenities 
along the Anacostia River is a driving priority of my administration, 
but my vision for the revitalization of the Anacostia River will not be 
possible unless we clean up the river by fixing our combined sewer 
system that currently deposits waste into the river throughout the 
year. The D.C. Water and Sewer Authority is embarking on a 30-year plan 
to fix this system in order to drastically reduce pollution in our 
waterways. I ask that you support this critical program in the amount 
of $7 million.

                   DEMOCRACY FOR THE NATION'S CAPITAL

    Having outlined our budget objectives, it is important to keep in 
mind a District priority whose value is beyond fiscal measure, and that 
is our democratic rights. The District is the capital of the world's 
greatest democracy and it is the ultimate hypocrisy that its citizens 
suffer from the exact disenfranchisement this nation was founded to 
end.
    The United States is continuing to promote, sacrifice, and invest 
to spread democracy worldwide, yet denies full democracy to more than a 
half a million people at its very heart. I urge you to end this 
injustice and provide the city with full voting representation in the 
Congress. Anything short of full democracy for our residents should be 
a personal outrage for all Americans.
    In recent years, this subcommittee has successfully resisted 
efforts to add undemocratic social riders to our appropriations bill. 
No matter what any Senator's opinion may be on the topic at hand, we 
hope this body will respect the right of District residents to decide 
local matters, just as the residents do in our 50 states. We also hope 
this body will repeal riders that restrict our ability to make 
decisions about spending local funds on needle exchange programs and 
lobbying.
    While the relationship between the Congress and the citizens of the 
District of Columbia is a unique and sometimes very challenging one, I 
very much appreciate the committee's willingness to work closely with 
us and to respect our local sovereignty.
    This concludes my remarks today. Thank you for the opportunity to 
testify before you today and over the past several years. I look 
forward to answering any questions you may have.

    Senator Brownback. You might get more support for that 
congressional vote if you announced your candidacy.
    Mayor Williams. Oh, no, I think Eleanor--Congresswoman 
Norton is doing a great job for us.
    Senator Brownback. She has. And if Eleanor is listening, 
I'm not backing the Mayor for this, and I'm not opposed to 
Eleanor Holmes Norton, who is a tenacious advocate for the 
District. I've been the recipient of her tenaciousness over 
many, many a session, and she does a great job for the 
District.
    Chairwoman Cropp.

STATEMENT OF HON. LINDA W. CROPP, CHAIR, COUNCIL OF THE 
            DISTRICT OF COLUMBIA
    Ms. Cropp. Thank you very much, Chairman Brownback and to 
Senators Landrieu and Allard. It's indeed a pleasure for me to 
be here and testify on behalf of the citizens of the District 
of Columbia, and, of course, our Council. Thank you for 
submitting the entire testimony for the record, and I will just 
highlight a few points.
    This year I asked Council members to apply certain goals in 
the fiscal year budget. Some of the main ones continue our 
fiscal discipline and look for efforts to revitalize our 
neighborhoods and looking for affordable housing as a way for 
us to strengthen the workforce and the middle class in the 
District of Columbia and to promote continued economic 
stability and growth in the District of Columbia.
    As we look at certain issues, certainly the Mayor has 
mentioned many of them in which we have joint concerns and 
interests as opportunities for us to improve the District of 
Columbia. Education is probably the major issue, and the major 
one that needs to be strengthened as we continue the progress 
that we've experienced in the District of Columbia. Our budget 
reflects that, with quite a bit of budget increase in the area 
of education, whether it's in the programming aspect of it, or 
looking at our school facilities and recognizing that when you 
have facilities where the Herculean share of those buildings 
are 75 years in age or older, that we needed to have an 
infusion of support to modernize.
    The tuition assistant grant program has been very 
successful since its inception 5 years ago. Almost 5,000 young 
people have had an opportunity for higher education. We ask the 
subcommittee to approve the dollars that are in the budget for 
that program.
    Another aspect of the city's education initiative is to 
improve and repair our library systems. This is a high priority 
for the city. Many of our libraries are in need of extensive 
repair. There's also a need for improvement and upgrades in our 
services. We look at that as being one of the major components 
of making sure that the District continues its good progress 
that we've made over the past several years.
    In support of major economic development efforts proposed 
in the 2007 budget, we continue to seek support from the 
Federal Government for development initiatives along the 
Anacostia Waterfront. It will in doing that help to bring life 
to a body of water and an area of the city that needs it, 
whether or not we're talking about our ward 6, our ward 7, and 
our ward 8 communities that abut the waterfront. And it would 
provide tremendous economic growth and development for those 
neighborhoods and for the city as a whole and just revitalize a 
whole area. So I would ask that the subcommittee include the $5 
million that is part of the District's request.
    The Council also strongly supports the proposal for Federal 
funding of expanding and upgrading the Navy Yard Metro rail 
system. While the expansion of this station is essential to the 
new development programs, including the stadium that's going 
there, Federal funding for this expansion is especially 
justified due to the stadium's proximity to the 10,000 Federal 
employees who will be relocated to the new U.S. Department of 
Transportation headquarters there, and it would play a major 
role. Just as the Federal Government fully funded the expansion 
of the Mount Vernon Square Metro Station at the site of the new 
convention center, we ask for your support in this Navy Yard 
Station also.
    I would also like to ask for continued Federal payment for 
the consolidated laboratory. This laboratory would allow the 
District to operate its own facility, conducting forensic 
testing for crime scenes. It also would provide a facility for 
analyzing evidence associated with bioterrorism activities. The 
District has used the FBI laboratory for a number of years. 
However, when there is a high level usage of the laboratory by 
the Federal authorities, the District's work is delayed. This 
has a direct impact on the resolution of crimes in the District 
of Columbia, including the identification of the criminals. The 
city continually works to reduce crime, and the ability to 
complete forensic analysis in a timely manner would aid the 
city in resolving crimes and putting criminals behind bars.
    As the Nation's capital, the District is the prime target--
or a prime target for terrorist activities. With the ever-
increasing threat of these activities, the need for a forensic 
laboratory in the District that is readily available becomes 
more and more important. Therefore, I would ask this 
subcommittee to support the District's request for funding of 
the laboratory. The District, also as a primary target, 
particularly since we sit as the seat of Government for this 
great country, that we should not have a reduction in our 
Homeland Security budget. The threat level continues, and as 
the Nation's capital, we are a prime target.
    One area where this subcommittee can help us address a 
health issue is to grant us the authority to expend our local 
funds on needle exchange. Such programs have resulted in 
reducing HIV transmissions without increasing drug use. In 
addition, such programs have had a positive impact on hepatitis 
infections. Other State and local governments across the 
country provide funding for needle exchange programs, and 
therefore have benefitted from the improved health statistics. 
While D.C.'s rate of HIV/AIDS infection is deplorable, we must 
use every avenue possible to protect our citizens. Our rate of 
infection is increasing, and as the Nation's capital it 
certainly is not acceptable. The District government would like 
to add these improvements to its health program, but we do need 
your help. I ask the subcommittee not to include any rider 
preventing the use of local funds for needle exchange programs.
    And as the Mayor stated, it is extremely important that we 
get passage of the District of Columbia Fair and Equal Voting 
Representation Act. As we attend funerals for many of our 
neighbors and our relatives who are off fighting in a war to 
protect this country--in some instances, D.C. citizens have had 
more--the District has had more deaths of our citizens than 
some States, yet we do not have a vote to make a determination 
on whether or not we go off and fight that war. I would ask 
that you support the District of Columbia Fair and Equal Voting 
Representation Act so that the citizens of the District of 
Columbia would be franchised as every other citizen in this 
great country.
    In closing, I would ask that you pass this year's budget 
request in time for the start for the new fiscal year, and that 
no extraneous riders be placed on the bill.

                           PREPARED STATEMENT

    I want to thank you, Chairman Brownback, for this 
opportunity to share the Council's thoughts on the District 
budget and other issues important to this city. I look forward 
to working with you again on this year's appropriations 
legislation, and as always, we're available to answer any 
questions that you may have.
    Senator Brownback. Thank you very much, Chairwoman Cropp. I 
appreciate that, and I appreciate your kind demeanor as well. 
It's always appreciated.
    [The statement follows:]

                  Prepared Statement of Linda W. Cropp

                              INTRODUCTION

    Good morning, Chairman Brownback, Senator Landrieu and members of 
the Senate Appropriations Subcommittee on the District of Columbia. I 
am pleased to speak to you today about the District's appropriations 
and other operational items.

                   BUDGET GOALS AND FISCAL DISCIPLINE

    This year I asked the councilmembers to apply the following goals 
in establishing the fiscal year 2007 budget: Fiscal Discipline, 
Revitalize Our Neighborhoods, Invest in Our Youth, Protect our 
Vulnerable Residents, Commit to Affordable Housing, Oversee Executive 
Performance of Service Delivery, Promote Continued Economic Stability 
and Growth, and Expand Home Rule and Democracy.
    I would like to mention that the District Government, through the 
efforts of the Council and the Executive Branch, has continued its 
commitment to containing the growth of government through fiscal 
discipline. The Council has utilized various tools to achieve this 
discipline such as rainy day funds, economic triggers, to Pay-As-You-Go 
Capital Financing, financial safeguards, and the application of 
insurance and investment policies. These tools have yielded significant 
financial returns for the District including a growth in revenues, 
which are expected to yield a $52.7 million surplus at the end of 
fiscal year 2006.
    Through the efforts of the Council and the support of the Mayor, 
the District Government continues its commitment to its citizens to 
reduce taxes by implementing the final phase of the Tax Parity Act of 
1999. Personal income tax will be reduced in fiscal year 2007 bringing 
a savings of $51 million to citizens. In addition, further reductions 
in property taxes will be implemented in the next fiscal year bringing 
residents an additional savings of $$51.9 million.

                     BUDGET PROCESS AND HIGHLIGHTS

    The total budget as approved by the Council is $9.018 billion. 
Local dollars represent 56 percent or $5.079 billion of the total 
budget. The federal portion of the District budget totals $2.047 
billion or 22.7 percent of the total budget. The budget process 
included 314 hours of public hearings. Citizens from across the city 
participated in these hearings as well as by contacting the Council via 
other communications to express their positions on the funding of 
programs.
    Funding for Human Service programs was increased by $94 million and 
$50 million in additional funds were provided to implement 
recommendations from the Comprehensive Housing Strategy Task Force. 
Funds were also provided to hire an additional 100 police officers in 
our neighborhoods and $81 million for road repair, school 
rehabilitation, recreation center improvements and other capital stock 
upgrades. In addition, the Council continued its commitment to our 
employees by allocating funds now for pay raises in fiscal year 2008 
and setting aside additional funds for employee health and retirement 
benefits. This budget represents a reinvestment in the city and its 
future.

                               EDUCATION

    The Council is committed to continuing to support improvements to 
the educational system in the District through its approval of the 
city's budget and other legislative proposals. The budget amount for 
public schools and public chartered schools for next fiscal year is 
$1.2 billion. This represents nearly 17 percent of the proposed budget. 
Overall funding for public education for fiscal year 2007 was increased 
by $104 million.
    In addition, I introduced legislation, which is currently law that 
established a school modernization fund that dedicates revenue for the 
construction and modernization of school buildings. The law mandates 
the development of a master plan that would outline how the funds would 
be used in conjunction with requirements to consider consolidation and 
co-location of public schools and public charter schools, and 
development of special education and vocational education programs. In 
March the Council gave final approval to the School Modernization 
Financing Act of 2006. This act provides $100 million in dedicated 
capital budget funds for the public school system for fiscal year 2007 
with increases in the following four fiscal years.
    The Tuition Assistance Grant Program has been very successful since 
its inception 5 years ago. It has provided 4,754 young people with an 
opportunity for higher education. As of the 2004/2005 academic year the 
program carried its first full five cohorts. I want to thank the 
President and the House Appropriations Committee for including full 
funding for next fiscal year in their fiscal year 2007 proposed 
budgets. I ask this Committee to also approve the $35.1 million for the 
program.
    The Council supports the continuation of the federal payment for 
school improvement. The payment has been an important source of funds 
for improvements in curriculum, educational systems and training. The 
payment is essential to continuing the enhancements that both the 
District and Federal Governments want to see in the District schools.
    Another important aspect of the city's education initiatives is to 
improve and repair our library system. This is a high priority for the 
city. Many of our libraries are in need of extensive repair. There is 
also a need for improvements and upgrades to our library services 
including updated collections and expanded operating hours. In 
addition, there are plans for construction of some new libraries, most 
specifically our main library. To help the city address these needs the 
President included $30 million in his fiscal year 2007 budget. It is 
imperative that these funds be provided in order for the city to 
upgrade its library system. I would ask this Committee to include the 
$30 million in funding in its District budget proposal.

                          ECONOMIC DEVELOPMENT

    Last year the Mayor launched the New Communities and Great Streets 
initiatives. These initiatives are designed to decrease poverty and 
crime by creating mixed income neighborhoods that include affordable 
housing, and to create thriving neighborhood centers of business 
development along main corridors in the city. Over the last year the 
city has made progress under both of these initiatives. The Mayor has 
proposed in his fiscal year 2007 budget to continue these initiatives 
by enhancing the delivery of human and social services to the 
neighborhoods, and by providing business development funds for 
businesses that want to start or expand their operation. To support 
these initiatives the Council approved $128.5 million in economic 
development funds, an increase of $19.7 million over fiscal year 2006.
    In support of the Mayor's economic development efforts the proposed 
fiscal year 2007 budget continues to seek support from the Federal 
Government for development initiatives along the Anacostia Waterfront 
and at the site of the new baseball stadium. The Anacostia Waterfront 
is one of the city's major projects for providing both business 
development, which includes the proposed baseball stadium, but also the 
park areas including the pedestrian and bicycle trails. This 
development also provides for the beautification of the city and its 
waterways. I would like to request that this Committee include the $5 
million included in the District's request.
    The Council strongly supports the President's proposed federal 
funding for expanding and upgrading the Navy Yard Metrorail Station. 
While the expansion of this station is essential to the development of 
the new baseball stadium, Federal funding for this expansion is 
especially justified due to the station's proximity to the 10,000 
Federal employees who will be relocated to the new U.S. Department of 
Transportation headquarters building, on top of the thousands of 
existing Defense Department employees currently employed at the Navy 
Yard. The expanded station will also be needed to service the other 
major commercial, retail and residential developments that are planned 
in the area, including the 5.2 million square foot mixed use community 
that is proposed for the Southeast Federal Center site. These are key 
development projects for the city that will provide many economic 
enhancements. Just as the Federal government fully funded the expansion 
of the Mount Vernon Square Metro station at the site of the new 
convention center, we ask your support for full funding of the expanded 
Navy Yard Metro Station.
    One of the ways for the District to address its ongoing structural 
imbalance--which as you know was validated by the Congress' own 
Government Accountability Office--is to initiate development projects 
that will bring additional revenues to the city through an increased 
number of residents and businesses living, working and producing in the 
city. In his fiscal year 2006 budget the President proposed the 
transfer of certain vacant or underutilized federal land to the 
District as a way to begin to address the structural imbalance. Some of 
the land is along the Anacostia Waterfront, which would help the city 
build a world class recreational park, enhance access to the river and 
become a tourist attraction. Other parcels would provide additional 
park space as well as locations for housing and commercial development. 
The transfer of the proposed land would provide economic development 
opportunities consistent with the city's plans and assist the Mayor and 
the Council in moving the city forward. S. 1838, ``Federal and District 
of Columbia Real Property Act of 2005,'' is currently pending before 
the Senate Committee on Homeland Security and Governmental Affairs. 
While this legislation is not before this Committee I would like to ask 
for your support of it when it does come up for a vote. The passage of 
this legislation would have a major impact on the city's structural 
imbalance and financial stability.
    Congress and the President have approved the BRAC recommendation 
for the closing of Walter Reed Army base. The GSA and the Department of 
State have requested the base for an office park and a new chancery 
enclave. While the District feels these proposed Federal Government 
uses provide much less economic benefit to the District, the Council 
supports the allocation of some portion of the land to the city for 
retail development that is needed for that area of the city.

                      OTHER FEDERAL PAYMENT ITEMS

    I would like to ask for the continued federal payment for the 
consolidated laboratory. This laboratory would allow the District to 
operate its own facility for conducting forensic testing from crime 
scenes. It will also provide a facility for analyzing evidence 
associated with bioterrorism activities. The District has used the 
FBI's laboratory for a number of years. However, when there is a high 
level of usage of the laboratory by the federal authorities, the 
District's work is delayed. This has a direct impact on the resolution 
of crimes in the District, including the identification of the 
criminal. The city continually works to reduce crime. The ability to 
complete forensic analysis in a timely manner would aid the city in 
resolving crimes and putting criminals behind bars.
    As the Nation's Capital, the District is a prime target for 
terrorist activities. With the ever-increasing threat of these 
activities the need for a forensic laboratory in the District that is 
readily available becomes more and more important. Therefore, I would 
like to ask this Committee to support the District's request for 
funding of the laboratory.
    Because the District is a prime target for terrorist activities it 
is important that our allocation of Federal homeland security funds not 
be cut. The cut of $31 million in this year's allocation for urban 
areas will put the District and the National Capital Region in sever 
jeopardy in the event of future terrorist attacks. I ask that money be 
restored to both the National Capital Region's allocation and to the 
District's state allocation.
    One area where this Committee can help us address health issues is 
to grant us the authority to expend our local funds on needle exchange. 
Such programs have resulted in reducing HIV transmission without 
increasing drug use. In addition, such programs have had a positive 
impact on hepatitis infections. Other state and local governments 
across the country provide funding for needle exchange programs and 
have therefore benefited from improved health statistics. The District 
Government would like to add these improvements to its health program, 
but we need your help. I ask that the Committee not include any rider 
preventing the use of local funds for needle exchange programs.

                         VOTING REPRESENTATION

    I would like to end my testimony with a final request for support 
of H.R. 5388, ``District of Columbia Fair and Equal House Voting Rights 
Act of 2006.'' This bill would give the District a seat in the House of 
Representatives with full voting rights. The bill would maintain 
balance in the House by also giving Utah an additional congressional 
seat.
    Voting representation in Congress is a right to long denied to the 
residents of the District of Columbia. It continues to be 
unconscionable to the citizens of the District that they are denied the 
basic right held by every other citizen of the United States, that is, 
the constitutional right to be represented--to have a voice--a vote--in 
the Congress of the United States. While our residents fight for the 
freedom and right of representation for people in other countries like 
Iraq and Afghanistan our citizens are denied that same right here in 
the nation's capital. As a leader of the free world we should set an 
example for providing all citizens the rights of citizenship. This 
Congress should rectify the denial of this basic right.

                                CLOSING

    In closing I would like to ask that you pass this year's budget 
request in time for the start of the new fiscal year and that no 
extraneous riders be placed on the bill.
    I thank you Chairman Brownback for this opportunity to share my 
thoughts on the District's budget and other issues important to the 
city. I look forward to working with you again this year on the city's 
appropriations legislation. I am available for any questions you may 
have.

    Senator Brownback. Dr. Gandhi, you're up, and I'm afraid 
you guys are batting at the bottom of the order, and I really 
hope you can just summarize things so we can get to some 
questions, because with these stacked votes starting at 11, 
we'll be able to go until probably about 11:15, and then I'm 
going to shut the hearing down.

STATEMENT OF DR. NATWAR GANDHI, CHIEF FINANCIAL 
            OFFICER, DISTRICT OF COLUMBIA
    Dr. Gandhi. Mr. Chairman, I'm not going to read at all 
anything. I just wanted to draw your attention, sir, to the 
chart that I have brought with me. And it is quite fitting that 
we are here with this chart, this being the Mayor's last 
testimony here. This basically had happened, this dramatic 
financial recovery that has happened since 1995, is entirely 
under the Mayor's watch, since he was a Chief Financial Officer 
appointed in 1995 and after that, the Mayor. Obviously, the 
great credit goes to the Mayor and also to the Council headed 
by Council Chairman Cropp, and the congressionally mandated 
Control Board.
    The only point that I would like to suggest here is that in 
the mid-1990s we had about $518 million deficit in our fund 
balance. Today, we are enjoying $1.6 billion surplus in our 
fund balance. That's about a $2.2 billion turnaround. Other 
cities that have gone through such experience, Philadelphia, 
New York, and other cities, none has been able to come back as 
fast and as well as this city has. So it's a great, great 
credit to our elected leaders and the Congress that made it all 
possible. We were rated junk bonds in the mid-1990s; today we 
enjoy an A plus rating from all rating agencies, and with a 
positive outlook, meaning that it will go up again.

                           PREPARED STATEMENT

    This is remarkable. And one last factoid here is that we 
enjoy currently about $300 million of cash reserve for the 
foreseeable future in terms of our financial plan. No other 
city, State, or jurisdiction has that level of reserves, cash 
reserves, as a percentage of budget. So this is a remarkable 
recovery on the part of the District. And again, credit goes to 
the Mayor, our Council, the Control Board, and the great 
attention that the Congress has devoted to the District, 
particularly this committee.
    We appreciate your interest, Senator Landrieu, Mr. 
Chairman, thank you.
    [The statement follows:]

                 Prepared Statement of Natwar M. Gandhi

    Good morning, Chairman Brownback and members of the subcommittee. I 
am Natwar M. Gandhi, Chief Financial Officer for the District of 
Columbia, and I am here to offer brief remarks about the Fiscal Year 
2007 Proposed Budget and Financial Plan for the District.
    First, I will summarize the fiscal recovery over the past decade 
and discuss some of the highlights of the fiscal year 2007 budget 
request and the 5-year plan. I will also address our capital spending 
needs and the continuing structural imbalance--that is, the mismatch 
between capital spending needs and the ability to raise local revenues 
sufficient to fund those needs. Finally, I will address our on-going 
commitment to remain fiscally balanced in the future.

                       FISCAL RECOVERY 1996-2005

    The chart that appears as Attachment A to my testimony and that 
appears here before you is a history of the remarkable fiscal comeback 
achieved by the District over the past decade. Our fiscal low point 
occurred in fiscal year 1996, when the General Fund balance hit a 
negative $518 million. Through the efforts of Mayor Williams, the 
District Council and the Congressionally-mandated Control Board, we 
were able repeatedly to balance the District's fiscal operations, and 
the Control Board was de-activated in 2001. Between fiscal year 1996 
and the end of fiscal year 2001 there had been a $1.1 billion increase 
in the fund balance, to a positive $562 million by the end of fiscal 
year 2001. The real test for the District was the challenge of 
sustaining fiscal stability in the post-control period. As you can see, 
at the end of fiscal year 2005, the General Fund balance had risen 
another $1.0 billion, to $1.6 billion total. Of the $2.1 billion 
increase in General Fund balance between fiscal year 1996 and fiscal 
year 2005, the amount of gain since the control period ended was about 
equal to the gain during the control period, demonstrating the 
commitment of the District's leadership to ongoing fiscal restraint.
    The measure of this success is reflected in the District's bond 
ratings. All three rating agencies--Fitch Ratings, Moody's Investors 
Service, and Standard & Poor's--recognize the improved creditworthiness 
of our bonds by raising the District's bond ratings from ``junk bond'' 
status during the control period to ``A'' category ratings--the highest 
level ever achieved by this jurisdiction. It is notable that compared 
to other major cities that experienced periods of financial stress, 
including New York, Philadelphia, Cleveland and Detroit, this 
turnaround is the fastest in terms of both the time it took to return 
to investment grade, and the time to achieve their highest ratings 
(helped in part by our strong local economy, which added tax revenues 
that were used to provide essential services to our population).
    A great deal of the increase in fund balance was driven by the 
growth in local revenues, specifically by real estate, income and sales 
taxes resulting from the strong regional economy. Table 1 below shows a 
comparison of tax revenues, General Fund balance and reserve funds in 
fiscal year 1996 compared to fiscal year 2005 that reflects the revenue 
growth and prudent financial management that contributed to the 
increased General Fund balance.

             TABLE 1.--COMPARISON OF KEY FINANCIAL MEASURES
                         [Dollars in thousands]
------------------------------------------------------------------------
                                           Fiscal year      Fiscal year
                                               1996            2005
------------------------------------------------------------------------
Tax Revenues...........................      $2,402,521       $4,052,087
Operating Surplus/(Deficit)............        ($33,688)        $369,668
General Fund Balance...................       ($518,249)      $1,584,683
Reserves Available for Operations \1\..       ($332,357)        $428,900
Operating Reserves as percent of         ...............             8.5
 Expenditures (percent)................
------------------------------------------------------------------------
\1\ Includes Congressionally-mandated Emergency and Contingency Reserves
  plus unreserved undesignated General Fund balance.

                            REVENUE OUTLOOK

    The current economic outlook for the District similar to that 
projected for the nation as a whole is that of steady growth in 
employment, wages, and income. Continued high levels of federal 
spending and contracting benefit the District because so many of these 
dollars are spent here. Retail activity will continue to improve, as 
the number of retail outlets in the District continues to grow and as 
shoppers increase their spending.
    In fiscal year 2007, District general fund resources are forecasted 
to be $5.565 billion, an increase of $167 million above the fiscal year 
2006 approved budget. These amounts include local fund revenue, special 
purpose fund revenue, as well as proposed revenue enhancements and 
appropriated fund balance.
    The direction of the market for real property is a key question for 
the District in fiscal year 2006 and on into fiscal year 2007. Rising 
real estate assessments and transactions were major sources of revenue 
gains in fiscal years 2003 through 2005. The fundamentals affecting the 
District's real estate markets remain strong; the District's economy is 
growing, individuals and businesses both continue to demonstrate a 
desire to locate in the District, and the supply of housing and land 
for commercial development cannot increase very rapidly. Accordingly, 
the contributions of the real estate sector are expected to be 
significant in fiscal year 2006 and fiscal year 2007, as well, but the 
greater strength will be in the real property tax that is based on 
property valuation with a 2-year lag. Deed recordation and transfer 
taxes are expected to drop a bit, in keeping with the moderation in the 
volume of current year transactions in real property.

  HIGHLIGHTS OF FISCAL YEAR 2007 PROPOSED BUDGET AND FISCAL YEAR 2007-
                    FISCAL YEAR 2010 FINANCIAL PLAN

    The fiscal year 2007-fiscal year 2010 Financial Plan appears as 
Attachment B. Each of the four years is balanced. Tax revenues are 
projected to increase an average 5.8 percent per year and total local 
fund recurring revenues an average 5.4 percent. Total local fund 
resources are projected to increase an average 4.2 percent per year and 
total local fund expenditures an average 4.0 percent per year. 
Incorporated in the plan is the final phase of ``tax parity'' that the 
Mayor and Council initiated in 1999 to lower income tax rates and 
achieve better balance between D.C. and its neighbors. The plan also 
accommodates a major new expenditure starting in fiscal year 2008, 
namely, the required actuarial payment for post employment retirement 
benefits, thereby complying with the GASB requirement. It should be 
noted that the District was among the forefront of municipalities to 
recognize and provide for this liability. It put aside approximately 
$140 million in 2006, about two years earlier than required.
    The District's fiscal year 2007 proposed budget includes $5.022 
billion in local-funds spending supported by $5.020 billion of local 
revenues, with an operating margin of $1.8 million. (See Attachment C.)
    The Council's approved total local fund operating expenditures for 
fiscal year 2007, not including Paygo capital, Enterprise Funds or 
transfers to OPEB, is $4,927.8 million, an increase of $377.2 million 
or 8.3 percent over fiscal year 2006 approved expenditures of $4,550.6 
million.

                           GROSS FUNDS BUDGET

    The proposed fiscal year 2007 gross funds operating budget is 
$7.608 billion, an increase of $255.7 million, or 3.5 percent, over the 
approved fiscal year 2006 gross funds budget of $7.352 billion. The 
fiscal year 2007 appropriation is primarily due to higher funding 
levels for federal grants ($98.9 million) including Medicaid, and in 
programs supported by user fees, fines, the dedicated portion of deed 
recordation and transfer taxes transferred to its own separate fund 
(for housing production), and other special purpose revenues ($29.5 
million). The local and non-local funding components of the proposed 
fiscal year 2007 gross funds budget and the changes from fiscal year 
2006 are summarized in Table 2 below.

                           TABLE 2.--FISCAL YEAR 2007 GROSS FUNDS BUDGET BY FUND TYPE
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal year--
                             Fund Type                             ----------------------   Change      Percent
                                                                       2006       2007                  change
----------------------------------------------------------------------------------------------------------------
Local.............................................................   $4,949.5   $5,086.2     $136.7         2.8
Federal...........................................................   $1,939.1   $2,038.0      $98.9         5.1
Private Grants....................................................      $16.2       $6.8      ($9.4)      (58.0)
Special Purpose...................................................     $447.1     $476.6      $29.5         6.5
                                                                   ---------------------------------------------
      Total Gross Funds...........................................   $7,351.8   $7,607.6     $255.7         3.5
----------------------------------------------------------------------------------------------------------------

                        GENERAL FUND BALANCE USE

    It is the function of government to provide badly needed services. 
With this in mind, the fiscal year 2006 budget included provisions for 
spending a portion of the funds that had accumulated over the years as 
a result of unprecedented growth in local revenues. This drawdown of 
fund balance was largely driven by one-time spending on capital needs 
and programs. As approved, the fiscal year 2006 budget uses $467 
million of local fund balance, and we currently estimate a net 
reduction by September 30, 2006 of roughly $544 million in the General 
Fund balance. It should be noted that despite this reduction in 
cumulative fund balance, the District will still retain about $350 
million in operating reserve every year throughout the 5 year budget 
and financial plan. (See Attachment G.)
    The fiscal year 2007 proposed local funds operating budget includes 
a proposal to use another $176 million of fund balance. The use of 
these monies is for non-recurring expenditures: $46.5 million for 
school modernization in fiscal year 2007; $88.0 million for Paygo 
capital to fund various capital projects; and $41.9 million for various 
one-time operating program enhancements.

                            CAPITAL SPENDING

    The District continues to face a wide variety of infrastructure 
needs, placing great demands on its Capital Improvements Plan (CIP). 
The total proposed expenditures in the fiscal year 2007-2012 CIP is 
$3.193 billion (excluding the Highway Trust Fund, Local Streets Fund, 
and special financings). This six-year plan includes a net increase in 
budget authority of $2.341 billion from all sources.
    The fiscal year 2007 capital program includes $662.5 million in 
planned capital expenditures financed by $399.7 million in newly issued 
G.O. bonds, $188.0 million of pay-as-you-go (Paygo) transfers from the 
general fund balance, and $74.8 million of Master Equipment Lease 
financing.
    Despite this effort to fund the District's considerable capital 
needs, I must again point out to the Committee that this government 
continues to struggle to function under a structural imbalance. This 
means that D.C.'s revenue capacity, under national norms, falls far 
short of the cost of delivering services assuming average efficiency, 
again as measured by national norms. The reasons lie in high regional 
costs for labor, land, and other resources; in a large population in 
need; and in accumulated infrastructure deficiencies. D.C.'s fiscal 
stress is confirmed by the GAO in its 2003 study of the District's 
finances. This study is an extensive analysis comparing D.C.'s revenue 
and expenditure bases to those of state and local jurisdictions all 
across the United States. From every perspective on structural 
imbalance examined by GAO, the District is at or near the top of the 
most burdened jurisdictions in the nation.
    Although the District has made great strides in fiscal management 
and in providing better services, two difficult consequences of the 
structural imbalance between the District's revenue base and its 
spending requirements remain. These are: (1) a high per capita tax 
burden with some of the highest tax burdens in the region and the 
country; and (2) the highest per capita borrowing. D.C.'s tax burden on 
households ranks in the upper one-third when compared to the largest 
cities in the United States (for total state and local burden of sales, 
income, property, and automobile taxes) according to a highly-regarded 
annual study, prepared by my office, comparing tax burdens in D.C. to 
those of the largest city in each state.\1\
---------------------------------------------------------------------------
    \1\ Government of the District of Columbia, Office of the Chief 
Financial Officer, Tax Rates and Tax Burdens in the District of 
Columbia, A Nationwide Comparison, various years. This annual study is 
the basis for many public uses, such as an annual analysis by Money 
Magazine, and has been cited in the New York Times, Wall Street 
Journal, CNN, and many other places.
---------------------------------------------------------------------------
    The burden is greater on businesses. The District's tax rate on net 
business income is 9.975 percent (compared to 7.0 percent in Maryland, 
6.0 percent in Virginia, and exceeded by only 2 states, Alaska and 
Iowa); the gross receipts tax on public utilities used by businesses is 
11 percent (compared to 2 percent in Maryland and 1 percent in 
Virginia); and the real property tax on commercial property is $1.85 
per $100 of value as compared to a range of $0.92 to $1.16 in 
neighboring suburbs.
    The GAO ranks the District's tax burden among the very highest in 
the country:

    ``The District's tax burden (actual revenue collected from local 
resources relative to their own-source revenue capacity) is among the 
highest of all fiscal systems . . . . The District's actual tax burden 
exceeded that of the average state fiscal system by 33 percent, based 
on our lower estimate of its own-source revenue capacity, and by 18 
percent, based on our higher estimate of that capacity.'' \2\
---------------------------------------------------------------------------
    \2\ GAO-03-666, District of Columbia, Structural Imbalance and 
Management Issues, May 2003, page 41.

    There is no way for the District to tax its way out of structural 
imbalance-indeed, higher taxes simply make the problem worse.
    The District's very high per capita borrowing reflects the city's 
effort to sustain infrastructure generally provided by multiple 
jurisdictions. The District's per capita tax-supported debt burden 
exceeds $8,000, the highest of any major city in the nation. Clearly, 
we cannot borrow our way out of the structural imbalance.
    Challenges may arise, however, adding to D.C.'s structural 
imbalance in coming years. First, all state and local revenue systems 
are stressed by the changing nature of the economy, as it evolves more 
into a service oriented economy. Because state and local tax systems 
were developed around the manufacturing and sale of goods, the old ways 
of gathering tax revenue are increasingly inadequate to the newer 
economy. The revenue challenge is made even greater in the District by 
the Federal prohibitions against taxing incomes earned by non-residents 
workers and incomes earned by certain professional services. 
Additionally, a recent court finding challenges the District's capacity 
to tax any unincorporated business income generated in the District 
except as reported on the individual returns of residents. Already the 
partnership income of residents that is earned elsewhere is exempt from 
taxation here.
    Second, the District has a large urban population that needs help. 
Census data for 2004 estimate the D.C. poverty rate at about 19 
percent, the fourth highest in the nation when compared to states, 
after Mississippi, Louisiana, and New Mexico. Of D.C.'s 248,563 
households, 18 percent have income of less than $15,000.\3\ Median 
household income is about $46,600--in a metropolitan area with median 
household income of about $70,400.\4\ Only about a third of D.C.'s 
households are at or above the metropolitan median. Like other cities, 
D.C. is accountable for greater efforts to help the less advantaged in 
the city's population. Unlike other cities, however, the District does 
not have a State or suburbs that share in its overwhelming costs. The 
proposed fiscal year 2007 budget works hard to manage the expenditure 
needs and fiscal requirements of the District's lower income 
population.
---------------------------------------------------------------------------
    \3\ American Community Survey, 2004.
    \4\ American Community Survey, 2004 and Economy.com, 2004.
---------------------------------------------------------------------------
                               CONCLUSION

    The leadership provided by the Mayor and the Council, along with 
the hard work of the Office of the Chief Financial Officer, allowed us 
to produce this balanced budget for fiscal year 2007. As a result, we 
are certifying that the fiscal year 2007 budget and financial plan, as 
proposed, is balanced for fiscal year 2007 and beyond. I would like to 
thank this committee for its diligent and continuous oversight work on 
the District's finances during this sustained recovery period. We look 
forward to continuing to work with you and the subcommittee during the 
forthcoming budget deliberations.
                              attachment a
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                  ATTACHMENT B.--FISCAL YEAR 2007-2010 PROPOSED BUDGET AND FINANCIAL PLAN: GENERAL FUND
                                                                [In thousands of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                     Fiscal Year--
                                                              ------------------------------------------------------------------------------------------
                                                                                2006         2006         2007         2008         2009         2010
                                                               2005 Actual    Approved     Adjusted     Proposed    Projected    Projected    Projected
--------------------------------------------------------------------------------------------------------------------------------------------------------
Revenues:
    Taxes....................................................   4,052,087    4,101,533    4,157,782    4,412,599    4,676,088    4,949,484    5,224,222
    General Purpose Non-Tax Revenues.........................     352,427      340,522      315,226      317,277      317,138      325,336      325,095
    Dedicated Taxes--Housing Production Trust Fund...........  ...........  ...........  ...........      50,587       53,255       58,103       64,005
    Special Purpose (O-type) Revenues........................     311,789      264,254      354,667      368,657      364,748      361,830      373,639
    Transfer from Lottery....................................      71,450       73,100       72,000       72,100       72,100       72,100       72,100
                                                              ------------------------------------------------------------------------------------------
      General Fund Revenues..................................   4,787,753    4,779,409    4,899,675    5,221,220    5,483,329    5,766,853    6,059,061
                                                              ==========================================================================================
    Effect of Tax Changes....................................  ...........  ...........        (908)        (276)        (307)        (346)        (388)
    Gross Sales Tax Dedicated for School Modernization.......  ...........  ...........  ...........    (100,000)    (106,000)    (112,360)    (119,102)
                                                              ------------------------------------------------------------------------------------------
      Adjusted General Fund Revenues.........................   4,787,753    4,779,409    4,898,767    5,120,944    5,377,022    5,654,147    5,939,571
                                                              ==========================================================================================
    Bond Proceeds for Issuance Costs.........................       4,935       40,000       40,000       30,000       30,000       20,000       20,000
    Payment-in-Lieu-of-Taxes from WASA.......................  ...........       1,576        1,576        1,551   ...........  ...........  ...........
    Transfer from Federal and Private Resources..............  ...........       6,502        6,502        6,502        6,646        6,807        6,979
    Transfer from HPTF Special Revenue Fund for Debt Service.  ...........  ...........  ...........       6,000       12,000       12,000       12,000
    Transfer from Capital Funds (Bus Shelter Revenue) for      ...........  ...........  ...........       2,091       17,526       18,097       18,465
     Debt Svc................................................
    Fund Balance Use.........................................      80,781      591,642      605,662      284,287       65,385        8,399   ...........
    Transfer to Capital......................................  ...........     (30,000)  ...........  ...........  ...........  ...........  ...........
    Revenue Proposals........................................  ...........       8,729   ...........     113,268      137,307      139,470      145,228
                                                              ------------------------------------------------------------------------------------------
      Total General Fund Resources...........................   4,873,469    5,397,858    5,552,507    5,564,643    5,645,886    5,858,920    6,142,243
                                                              ==========================================================================================
Expenditures (by Appropriation Title):
    Governmental Direction and Support.......................     294,778      340,858      344,033      384,759      378,512      388,375      400,497
    Economic Development and Regulation......................     193,456      328,156      347,356      288,974      254,273      256,226      263,870
    Public Safety and Justice................................     805,471      827,037      838,654      943,295      961,120      990,839    1,023,552
    Public Education System..................................   1,082,177    1,189,302    1,189,051    1,223,971    1,245,784    1,277,734    1,311,343
    Human Support Services...................................   1,258,537    1,307,530    1,357,342    1,423,138    1,475,718    1,545,283    1,621,441
    Public Works.............................................     328,997      366,101      366,100      405,318      412,268      426,723      443,714
    Financing and Other......................................     421,070      561,276      552,287      586,296      670,135      710,075      758,932
    Cash Reserve (Budgeted Contingency)......................  ...........      50,000       48,400       50,000       50,000       50,000       50,000
    Lease Purchase Costs.....................................      22,058       27,441       27,441       43,955       46,320       49,320       51,320
                                                              ------------------------------------------------------------------------------------------
      Subtotal, Operating Expenditures.......................   4,406,544    4,997,701    5,070,664    5,349,706    5,494,131    5,694,574    5,924,669
                                                              ==========================================================================================
    Paygo Capital............................................      20,550      207,083      208,523       87,987   ...........  ...........  ...........
    Transfer to Trust Fund for Post-Employment Benefits......  ...........     138,000      138,000        4,700       81,000       86,200       91,800
    General Fund Contribution to Capital Fund Balance........  ...........      53,800       53,800   ...........  ...........  ...........  ...........
    Transfer to HPTF Special Revenue Fund....................  ...........  ...........  ...........     120,418       69,255       75,644       83,424
                                                              ------------------------------------------------------------------------------------------
      Total General Fund Expenditures........................   4,427,094    5,396,584    5,470,987    5,562,811    5,644,386    5,856,418    6,099,893
                                                              ==========================================================================================
    Operating Margin, Budget Basis...........................     446,375        1,274       81,520        1,832        1,500        2,501       42,349
                                                              ==========================================================================================
Beginning General Fund Balance...............................   1,215,015    1,584,683    1,584,683    1,040,541      738,086      654,201      628,304
    Operating Margin, Budget Basis...........................     446,375        1,274       81,520        1,832        1,500        2,501       42,349
    Projected GAAP Adjustments (Net).........................       4,074      (20,000)     (20,000)     (20,000)     (20,000)     (20,000)     (20,000)
    Deposits into Reserve Funds (From Fund Balance)..........  ...........  ...........  ...........  ...........     (34,524)  ...........  ...........
    Deposits into Reserve Funds (To Cash Reserves)...........  ...........  ...........  ...........  ...........      34,524   ...........  ...........
    Fund Balance Use.........................................     (80,781)    (591,642)    (605,662)    (284,287)     (65,385)      (8,399)  ...........
                                                              ------------------------------------------------------------------------------------------
      Ending General Fund Balance............................   1,584,683      974,315    1,040,541      738,086      654,201      628,304      650,653
                                                              ==========================================================================================
Composition of Fund Balance:
    Emergency Cash Reserve Balance (2 percent, formerly 4          70,532       84,622       70,532       73,001      102,004      103,154      103,452
     percent)................................................
    Contingency Cash Reserve Balance (4 percent, formerly 3       182,905      169,244      182,905      189,307      204,008      206,308      206,904
     percent)................................................
    Fund Balance not in Emergency & Contingency Reserves.....   1,331,246      720,449      787,104      475,779      348,189      318,842      340,297
                                                              ------------------------------------------------------------------------------------------
      Ending General Fund Balance............................   1,584,683      974,315    1,040,541      738,086      654,201      628,304      650,653
--------------------------------------------------------------------------------------------------------------------------------------------------------


                     ATTACHMENT C.--LOCAL FUNDS COMPONENT OF THE GENERAL FUND FINANCIAL PLAN
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                 Fiscal Year--
                             -----------------------------------------------------------------------------------
                                 2005        2006        2006        2007        2008        2009        2010
                                Actual     Approved    Adjusted    Proposed    Projected   Projected   Projected
----------------------------------------------------------------------------------------------------------------
Revenues:
    Taxes...................   4,052,087   4,101,533   4,157,782   4,412,599   4,676,088   4,949,484   5,224,222
    General Purpose Non-Tax      352,427     340,522     315,226     317,277     317,138     325,336     325,095
     Revenues...............
    Transfer from Lottery...      71,450      73,100      72,000      72,100      72,100      72,100      72,100
    Local Fund Revenues.....   4,475,964   4,515,155   4,545,008   4,801,976   5,065,326   5,346,920   5,621,417
    Effect of Tax Changes...  ..........  ..........        -908        -276        -307        -346        -388
    Gross Sales Tax           ..........  ..........  ..........    -100,000    -106,000    -112,360    -119,102
     Dedicated for School
     Mod....................
    Adjusted Local Fund        4,475,964   4,515,155   4,544,100   4,701,700   4,959,019   5,234,214   5,501,927
     Revenues...............
    Bond proceeds for              4,935      40,000      40,000      30,000      30,000      20,000      20,000
     Issuance Costs.........
    Payment-in-Lieu-of-Taxes  ..........       1,576       1,576       1,551  ..........  ..........  ..........
     from WASA..............
    Transfer from Federal     ..........       6,502       6,502       6,502       6,646       6,807       6,979
     and Private Resource...
    Transfer from Enterprise  ..........  ..........  ..........       6,000      12,000      12,000      12,000
     Fund (HPTF) for D......
    Transfer from Capital     ..........  ..........  ..........       2,091      17,526      18,097      18,465
     Funds (Bus Shelter R...
    Fund Balance Use: To      ..........  ..........  ..........      46,477      65,385       8,399  ..........
     Replace Dedicated......
    Fund Balance Use:         ..........     390,700     390,700      87,987  ..........  ..........  ..........
     Transfers to Capital
     and....................
    Fund Balance Use: One-        67,325      76,230      79,542      41,866  ..........  ..........  ..........
     time Expenditures......
    Transfer to Special       ..........     -54,395  ..........  ..........  ..........  ..........  ..........
     Purpose Revenues.......
    Transfer to Capital.....  ..........     -30,000  ..........  ..........  ..........  ..........  ..........
    Revenue Proposals--Tax    ..........  ..........  ..........      49,000      70,000      66,000      64,250
     Compliance Initiati....
    Revenue Proposals--       ..........  ..........  ..........      49,117      51,307      55,928      61,558
     Council actions incl. d
    Revenue Proposals/One-    ..........       4,976  ..........  ..........  ..........  ..........  ..........
     time Revenue...........
                             -----------------------------------------------------------------------------------
      Total Local Fund         4,548,224   4,950,744   5,062,420   5,022,291   5,211,883   5,421,445   5,685,179
       Resources............
                             ===================================================================================
Expenditures (by
 Appropriation Title):
    Governmental Direction       272,404     296,632     299,807     330,101     331,262     341,504     352,096
     and Support............
    Economic Development and      84,178     101,629     120,829     128,468     115,521     118,584     121,736
     Regulation.............
    Public Safety and            782,797     769,785     781,402     888,003     913,322     943,423     974,589
     Justice................
    Public Education System.   1,074,120   1,177,599   1,177,348   1,203,492   1,228,081   1,260,172   1,293,208
    Human Support Services..   1,229,443   1,273,676   1,323,488   1,369,566   1,429,407   1,499,342   1,574,001
    Public Works............     317,426     316,374     316,373     351,396     365,654     380,482     395,964
    Financing and Other.....     421,070     537,452     528,463     562,791     649,816     689,918     738,117
    Cash Reserve (Budgeted    ..........      50,000      48,400      50,000      50,000      50,000      50,000
     Contingency)...........
    Lease Purchase Costs....      22,058      27,441      27,441      43,955      46,320      49,320      51,320
                             -----------------------------------------------------------------------------------
      Subtotal, Operating      4,203,496   4,550,588   4,623,551   4,927,772   5,129,383   5,332,745   5,551,031
       Expenditures.........
                             ===================================================================================
    Paygo Capital...........      20,550     207,083     208,523      87,987  ..........  ..........  ..........
    Transfer to Trust Fund    ..........     138,000     138,000       4,700      81,000      86,200      91,800
     for Post-Employment....
    Local Fund Contribution   ..........      53,800      53,800  ..........  ..........  ..........  ..........
     to Capital Fund Bal....
                             -----------------------------------------------------------------------------------
      Total Local Fund         4,224,046   4,949,471   5,023,874   5,020,459   5,210,383   5,418,945   5,642,831
       Expenditures.........
                             ===================================================================================
      Operating Margin,          324,178       1,273      38,546       1,832       1,500       2,500      42,348
       Budget Basis.........
----------------------------------------------------------------------------------------------------------------


   ATTACHMENT D.--HOUSING PRODUCTION TRUST FUND: DEDICATED TAXES COMPONENT OF THE GENERAL FUND FINANCIAL PLAN
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                 Fiscal Year--
                             -----------------------------------------------------------------------------------
                                 2005        2006        2006        2007        2008        2009        2010
                                Actual     Approved    Adjusted    Proposed    Projected   Projected   Projected
----------------------------------------------------------------------------------------------------------------
Revenues:
    Dedicated Taxes--HPTF...  ..........  ..........  ..........      50,587      53,255      58,103      64,005
                             ===================================================================================
    Revenue Policy Proposals  ..........  ..........  ..........      15,151      16,000      17,542      19,420
                             -----------------------------------------------------------------------------------
      Total Dedicated Taxes-- ..........  ..........  ..........      65,738      69,255      75,644      83,424
       HPTF.................
                             ===================================================================================
Expenditures (by
 Appropriation Title):
    Governmental Direction    ..........  ..........  ..........  ..........  ..........  ..........  ..........
     and Support............
    Economic Development and  ..........  ..........  ..........  ..........  ..........  ..........  ..........
     Regulation.............
    Public Safety and         ..........  ..........  ..........  ..........  ..........  ..........  ..........
     Justice................
    Public Education System.  ..........  ..........  ..........  ..........  ..........  ..........  ..........
    Human Support Services..  ..........  ..........  ..........  ..........  ..........  ..........  ..........
    Public Works............  ..........  ..........  ..........  ..........  ..........  ..........  ..........
    Financing and Other.....  ..........  ..........  ..........  ..........  ..........  ..........  ..........
                             -----------------------------------------------------------------------------------
      Subtotal, Operating     ..........  ..........  ..........  ..........  ..........  ..........  ..........
       Expenditures.........
                             ===================================================================================
    Transfer to HPTF Special  ..........  ..........  ..........      65,738      69,255      75,644      83,424
     Revenue Fund...........
                             -----------------------------------------------------------------------------------
      Total Dedicated Taxes-- ..........  ..........  ..........      65,738      69,255      75,644      83,424
       HPTF Expenditures....
    Operating Margin, Budget  ..........  ..........  ..........  ..........  ..........  ..........  ..........
     Basis..................
----------------------------------------------------------------------------------------------------------------


               ATTACHMENT E.--SPECIAL PURPOSE REVENUE COMPONENT OF THE GENERAL FUND FINANCIAL PLAN
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                 Fiscal Year--
                             -----------------------------------------------------------------------------------
                                 2005        2006        2006        2007        2008        2009        2010
                                Actual     Approved    Adjusted    Proposed    Projected   Projected   Projected
----------------------------------------------------------------------------------------------------------------
Revenues:
    Special Purpose (O-type)     311,789     264,254     354,667     368,657     364,748     361,830     373,639
     Revenues...............
    General Fund Revenues...     311,789     264,254     354,667     368,657     364,748     361,830     373,639
    Fund Balance Use........      13,456     124,712     135,420     109,875  ..........  ..........  ..........
    Fund Balance Certified    ..........  ..........  ..........      -1,918  ..........  ..........  ..........
     but not used...........
    Transfer from Local       ..........      54,395  ..........  ..........  ..........  ..........  ..........
     Revenues...............
    Revenue Proposals/One-    ..........       3,753  ..........  ..........  ..........  ..........  ..........
     time Revenue...........
                             -----------------------------------------------------------------------------------
      Total General Fund         325,245     447,114     490,087     476,614     364,748     361,829     373,638
       Resources............
                             ===================================================================================
Expenditures (by
 Appropriation Title):
    Governmental Direction        22,374      44,226      44,226      54,658      47,250      46,871      48,401
     and Support............
    Economic Development and     109,278     226,527     226,527     160,506     138,752     137,642     142,134
     Regulation.............
    Public Safety and             22,674      57,252      57,252      55,292      47,798      47,416      48,963
     Justice................
    Public Education System.       8,057      11,703      11,703      20,479      17,703      17,562      18,135
    Human Support Services..      29,094      33,854      33,854      53,572      46,311      45,941      47,440
    Public Works............      11,571      49,727      49,727      53,922      46,614      46,241      47,750
    Financing and Other.....  ..........      23,824      23,824      23,505      20,319      20,157      20,815
                             -----------------------------------------------------------------------------------
      Subtotal, Operating        203,048     447,114     447,113     421,934     364,748     361,829     373,638
       Expenditures.........
                             ===================================================================================
    Transfer to HPTF Special  ..........  ..........  ..........      54,680  ..........  ..........  ..........
     Revenue Fund...........
                             -----------------------------------------------------------------------------------
      Total General Fund         203,048     447,114     447,113     476,614     364,748     361,829     373,638
       Expenditures.........
                             ===================================================================================
    Operating Margin, Budget     122,197  ..........      42,974  ..........  ..........  ..........  ..........
     Basis..................
----------------------------------------------------------------------------------------------------------------


                           ATTACHMENT F.--FEDERAL AND PRIVATE RESOURCES FINANCIAL PLAN
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                 Fiscal Year--
                             -----------------------------------------------------------------------------------
                                 2005        2006        2006        2007        2008        2009        2010
                                Actual     Approved    Adjusted    Proposed    Projected   Projected   Projected
----------------------------------------------------------------------------------------------------------------
Revenues Actual:
    Federal Grants..........   1,633,406   1,911,042   1,911,041   2,008,024   2,131,370   2,263,395   2,405,741
    Federal Payment/              89,166      34,500      62,617      36,400      37,258      38,099      38,960
     Contribution...........
    Private Grants..........       5,677      16,213      16,213       6,850       7,070       7,292       7,521
                             ===================================================================================
    Federal & Private          1,728,249   1,961,755   1,989,871   2,051,274   2,175,698   2,308,786   2,452,222
     Resources..............
    Fund Balance Use........      43,420  ..........  ..........  ..........  ..........  ..........  ..........
    Transfer to General Fund  ..........      -6,502      -6,502      -6,502      -6,646      -6,807      -6,979
                             -----------------------------------------------------------------------------------
      Total Federal &          1,771,669   1,955,253   1,983,369   2,044,772   2,169,052   2,301,979   2,445,243
       Private Resources....
                             ===================================================================================
Expenditures (by
 Appropriation Title):
    Governmental Direction       120,489     171,976     171,976     157,746     161,608     165,408     169,301
     and Support............
    Economic Development and      91,671     118,312     118,312     133,742     137,261     140,745     144,325
     Regulation.............
    Public Safety and              9,724      10,577      10,564       7,398       7,629       7,860       8,099
     Justice................
    Public Education System.     200,469     240,194     265,601     226,462     232,468     238,417     244,529
    Human Support Services..   1,300,169   1,405,819   1,407,551   1,500,033   1,610,111   1,728,991   1,857,830
    Public Works............      13,728       8,375       9,365      19,391      19,975      20,558      21,159
    Financing and Other.....      16,697  ..........  ..........  ..........  ..........  ..........  ..........
                             -----------------------------------------------------------------------------------
      Total Federal &          1,752,947   1,955,253   1,983,369   2,044,772   2,169,052   2,301,979   2,445,243
       Private Expenditures.
                             ===================================================================================
    Operating Margin, Budget      18,722  ..........  ..........  ..........  ..........  ..........  ..........
     Basis..................
                             ===================================================================================
    Beginning Federal &          139,607     117,947     117,947     117,947     117,947     117,947     117,947
     Private Fund Balance...
    Operating Margin, Budget      18,722  ..........  ..........  ..........  ..........  ..........  ..........
     Basis..................
    Projected GAAP                 3,038  ..........  ..........  ..........  ..........  ..........  ..........
     Adjustments (Net)......
    Fund Balance Use........     -43,420  ..........  ..........  ..........  ..........  ..........  ..........
    Ending Federal & Private     117,947     117,947     117,947     117,947     117,947     117,947     117,947
     Fund Balance...........
----------------------------------------------------------------------------------------------------------------

                              attachment g
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Brownback. So we're going to be able to cut our 
Federal contribution to the city then, Dr. Gandhi?
    Dr. Gandhi. No, sir. That is part of the testimony that I 
would love to read. We still enjoy----
    Senator Brownback. Maybe we should put you in charge of the 
OMB for the Federal Government?
    Senator Landrieu. Now, that's an idea. If you're available 
after this term, maybe you could help us out, because we're 
going in the opposite direction.
    Dr. Gandhi. I am waiting for an offer I cannot refuse.
    Senator Brownback. It's a great report. That's good news.
    Dr. Janey.

STATEMENT OF DR. CLIFFORD B. JANEY, SUPERINTENDENT, 
            D.C. PUBLIC SCHOOLS
    Dr. Janey. Yes, sensitive to the time factor, I am not 
going to read excerpts of my testimony, just give you a sense 
of the summary in terms where we are, and where we are headed. 
So I'll put this aside. It's available for the record, of 
course.
    Chairman Brownback, Senator Landrieu, I am pleased to be 
here to advance our portion of our city's budget, just over $1 
billion. I can report to you that we are still driven by three 
major objectives. A relentless pursuit to advance our student 
achievement. We've created a new assessment process this past 
spring and used it for the first time. Typically, the States 
take 3 to 5 years to do so. We did this in less than 1 year. We 
have seen some progress on our SATs, and the number of students 
scoring three, four, or five on the advanced placement. And 
looking at the previous assessment we used to compare 2003 to 
2004, we advanced the number of schools making AYP District-
wide from 63 to 72.
    With respect to goal number two which we are driven by, and 
that is to repair, restore, and rehabilitate, in some 
instances, our anemic business systems, in cooperation and 
collaboration with Dr. Gandhi's office and Suzeane Peck's 
office in the area of technology, we have completed the 
automation of all of our procurement system as part of a major 
program that we advanced in the last 18 months. It means 
particularly that schools can order supplies now in full cycle 
in about 8 days, and typically in the past it would have taken, 
just for the complete cycle of ordering, 30 to 45 days.
    We are now moving forward to modernize our human resource 
department and our payroll system. As you know, we have made 
some advancement in reducing the excess space in our buildings.

                           PREPARED STATEMENT

    And, thirdly and finally, we continue to stay focused on 
connecting schools, families, and communities. We will be 
opening up parent resource centers strategically located 
throughout the District of Columbia, creating greater access of 
information and, tying to the point that Mayor Williams 
mentioned, connecting our efforts, not only in the area of 
early childhood, with the city, but also in terms of waging 
what we think is an important war on adult illiteracy. And that 
gives you some context without actually reading my testimony.
    And I sit here along with my colleagues to respond to 
questions.
    [The statement follows:]

              Prepared Statement of Dr. Clifford B. Janey

    Thank you very much, Chairman Brownback, ranking member Landrieu 
and members of the committee. I am Clifford B. Janey, Superintendent of 
Schools for the District of Columbia Public Schools.
    I welcome the opportunity to appear before you to discuss the 
progress being made in the District's public schools and how that 
progress will be supported by the proposed fiscal year 2007 budget.
    The District of Columbia Public Schools has a diverse student 
population with equally diverse academic needs. Twelve percent of our 
students come from homes that represent more than 135 countries, and 
where more than 121 languages are spoken.
    Our student population ranges from children with special needs, to 
those who are advanced learners who need progressive academic 
challenges in order to keep them motivated to move to higher 
achievement levels.
    The fiscal year 2007 proposed budget for the District of Columbia 
public school as advanced by the city includes a total operating budget 
of over $1 billion, comprised of $808.3 million in local funding, 
$156.1 million federal, $4.7 million private, $10 million in revenue 
generating accounts and $52.2 million in intra-District funding which 
represents a two percent (2 percent) decrease from the fiscal year 2006 
approved budget. While the proposed funding levels will allow us to 
continue making progress in creating a sound and stable foundation for 
academic success in the District of Columbia Public Schools, this does 
not come without tough choices. I will discuss later the many efforts 
that are underway to better align our funding with our strategic goals 
as we continue to look for opportunities to maximize our resources.
    Over the last fiscal year, we have implemented new and more 
rigorous academic standards in reading/language arts and mathematics. 
Within the next month, we will release the results of the new student 
assessment based on those standards, and early results are encouraging. 
We have also recently adopted standards for science and social studies 
are pending final approval by the board.
    As it now stands, last year:
  --The number of schools meeting adequate yearly progress (AYP) in 
        both reading and math increased District wide; increasing from 
        63 schools in school year (SY) 2003-04 to 72 schools in SY 
        2004-05. At the elementary level, the number of schools meeting 
        these targets increased from 55 to 58 and at the secondary 
        level from 8 to 14.
  --Student attendance also increased, rising from 85 to 89 percent 
        district wide.
  --Additionally, English language learners dramatically improved their 
        proficiency in both reading and math; rising from 30.8 percent 
        to 50.4 percent in reading; and from 50.8 percent to 56.4 
        percent in math.
    We are also moving in the right direction on national benchmarks.
  --DCPS is one of 11 Districts to participate in the national 
        assessment of educational progress (NAEP) trial urban District 
        assessment (TUDA).
  --As illustrated in the recent report from the council of great city 
        schools, titled ``Beating the Odds,'' we have reduced the gap 
        between students performing below basic and those scoring at 
        proficiency on the NAEP: the percentage of students scoring 
        below basic decreased by 9 percent. And the percentage of 
        students scoring at proficient levels increased by 3 percent.
    We also continue to make progress in our ability to prepare 
students for success in postsecondary experiences.
  --The number of students taking advanced placement (AP) courses has 
        increased from 818 to 832. Moreover, the number of students 
        scoring 3, 4 or 5 on AP exams has increased from 531 to 549; 
        with a 17 percent increase among males alone.
  --In addition, we have seen a slight increase in student performance 
        on the scholastic achievement test (SAT), with average verbal 
        scores increasing from 412 to 414 and math scores from 402 to 
        404. To help students gain experience in taking the SAT, we 
        have begun to strongly encourage all eligible 9th graders and 
        all 10th and 11th graders to take the PSAT since studies 
        clearly show that students who take the PSAT score higher on 
        the SAT.
    Over twenty-one of our schools have recently been identified as 
high-performing schools. These are schools that met AYP in all academic 
and non-academic indicators and had 70 percent of their students 
scoring at or above proficient levels. Because of our desire to provide 
positive reinforcement, and to encourage innovation, these schools will 
receive additional money from our school incentive fund. They will set 
up demonstration sites of instructional best practices for other 
schools to model. A number of other schools have received awards for 
significant improvement. This effort was made possible with the support 
of this committee's $13 million investment for school improvement. We 
look forward to utilizing these funds in fiscal year 2007 to continue 
this successful program.
    To support academic progress, in the past year we have been 
fortifying our business systems. Recently, DCPS became the first school 
District in the country to partner with a municipality in operating a 
state-of-the-art procurement automated support system (PASS). PASS 
allows us to order supplies, equipment and instructional materials more 
quickly and more efficiently; as well as, helps leverage our buying 
power as a system. As a next step in improving our business operations, 
we will be tackling our human resources and payroll systems to ensure 
that they too, effectively support the work we have ahead.
    We are ever mindful of the need to have an efficient business 
system, given the fiscal realities we face. And because of those fiscal 
realities, we welcome effective partnerships that can help us reach our 
goals.
    Our recent partnership with the World Bank, for example, will 
assist us in our ability to recruit and train 100 teachers a year, for 
the next five years, in order to achieve national board certification 
for all teachers, which, in turn, will fortify the quality of teaching 
in our classrooms.
    I mentioned earlier the partnership with the city of the District 
of Columbia that resulted in our new procurement system. We are hoping 
for similar partnership opportunities as we improve our human 
resources, budget and technology infrastructure.
    Using the ``Declaration of Education,'' which is our strategic plan 
for change, as a foundation, we have developed a ``Master Education 
Plan'' that spells out the academic goals we have set for the children 
of the District of Columbia. These academic goals necessarily inform 
how our facilities will be used and so, we have also developed a 
``Master Facilities Plan'' which articulates our vision of having fully 
modernized state-of-the-art campuses for all of our children.
    This groundwork creates a clear-thinking approach to our current 
efforts to strategically plan for effective use of our buildings to 
support our academic mission. We have advanced to the board of 
education a set of recommendations on how to right size our facilities 
and maximize their use through educational consolidations, operational 
efficiency and co-locations with community-based organizations, city 
agencies and public-private partnerships.
    In short, we are making significant progress, both academically and 
programmatically.
    We have not--and cannot in the future--do this work alone. We have 
been fortunate to have the support of the mayor and the City Council of 
Washington, D.C.
    While their financial support has been significant, there still 
remains critical funding gaps in the current fiscal year 2007 proposed 
budget. We look forward to receiving contingency funding for special 
education related transportation, which has left us with a shortfall of 
approximately $10.3 million and confirmation of the availability of a 
$14.7 million reserve account for non-public tuition payments as 
indicated by the CFO. I share the sentiment of many of our stakeholders 
about the unusually high costs in these areas. As a result, we have 
begun implementation of an aggressive multi-year plan and I am hopeful 
that we will be able to reduce these costs over time with the 
appropriate policy and legislative support. The board and council have 
demonstrated a high level of commitment toward supporting some of the 
heavy handed strategies that will be needed to realize these goals.
    There also remains a need for significant additional financial 
support to fund elements of the master education plan which are 
critical to building on the success attained thus far. For example, 
additional funds will allow us to:
  --Expand our use of the DIBELS assessments for early elementary 
        school students. This will increase our opportunity to identify 
        potential special needs in children sooner.
  --Expand our Career Technical Education program and develop themed 
        high-schools that will better prepare our students for the 
        workforce and will help them identify careers that may interest 
        them.
  --Develop more rigorous graduation requirements so that our students, 
        whether furthering their education or entering the workforce 
        after graduation, will have diplomas that open more doors for 
        them.
    We anticipate your thoughtful consideration of how this committee 
can support the work that we are doing, which is anchored in our 
commitment to create a world-class education system that is reflective 
of this capitol city and that recognizes the untapped potential of our 
youth.
    Specifically, we look for your support in changing the DCPA fiscal 
year to July-June. While we recognize that this will necessitate 
changes to the appropriations calendar and that there may be other 
obstacles to implementation, we are willing to work with the city 
leadership and this committee to resolve those obstacles. We believe it 
is critical to improved operations to have a fiscal year that is 
aligned with our academic year.
    The ability to adopt multi-year budgeting and to carry forward our 
financial condition will also be a significant relief. This would help 
to eliminate the fiscally imprudent ``use it or lose it mentality'' of 
many of our schools, and to strengthen our capacity to more 
strategically and programmatically plan.
    And, we anticipate your support of our efforts to obtain CFO which 
reports directly to the superintendent. Although our current 
relationship with the CFO is better than it has been in the past, as a 
system, we cannot manage effectively based on a good working 
relationship as opposed to having a sound organizational structure of 
our own. As a school system, our mission is clearly different from that 
of other city agencies, and we should not be treated as just another 
District agency in this or other regards.
    I would now like to turn my attention to another major 
responsibility of the school system. As you are aware, DCPS serves as 
both a local education agency (LEA) and as a state education agency 
(SEA).
    Over the last year, we have begun to critically examine our state 
functions and to more clearly separate them from those of the LEA. For 
example:
  --We separated our federal grants and local grant personnel into two 
        discrete offices.
  --We recently conducted a time and effort study which would allow us 
        to track our other staff based on the time they dedicate to SEA 
        vs. LEA responsibilities.
  --The fiscal year 2007 budget was a first step in more accurately 
        separating our state and local budget by organizational units.
  --We have created a technical advisory committee to oversee our 
        efforts in developing the new state assessment and other areas 
        of accountability.
  --We also have created a state advisory committee for federal grants 
        and we are active participants in the mayor's state advisory 
        panel for special education.
    As you are aware, the District of Columbia Public Schools state 
education agency recently received a ``high risk'' designation by the 
U.S. Department of Education. This designation has provided a vehicle 
for much needed support and technical assistance from the department as 
the SEA continues to address some of the long-standing challenges that 
we have had.
    I am happy to report that my staff and I continue to meet regularly 
with the staff of the department and we are moving in a productive and 
promising direction.
    I appreciate this opportunity to come before you today to talk 
about where our schools are, where they need to be, and how we will get 
there in order to provide the kind of public education the children in 
our nation's capital deserve.
    This concludes my testimony. I will answer any questions that you 
have.

    Senator Brownback. Thank you very much. We'll run the time 
clock at, let's do it at 4 minutes, so that'll give us each a 
little bit of quick time.
    Mayor Williams, I want to start on--we've got--and this is 
a school issue as well--a problem--it's a narrow problem, and I 
think you've been advised about it--about a number of students 
earning out of the scholarship program. This year we're 
projected to have 144 students lose their scholarships because 
they earned out, sometimes by just a few dollars. I don't know 
if you've been made aware of this. This is something Senator 
Landrieu has just recently been made aware of. I talked to 
Senator Feinstein. I would hope that we could fix that in the 
law to allow students that once they get into this, they're 
allowed to stay into it. It would have a zero impact. It 
wouldn't increase the budget, and it wouldn't decrease it 
either. A number of people think this would actually decrease 
it. And I don't know if you have been made aware of this 
situation, and if you had a particular thought about it.
    Mayor Williams. Mr. Chairman, I am aware of it, and I am 
supportive of efforts to try to correct it, understanding, as 
you do, that it would have a net zero fiscal impact on the 
program, and I think it's a great program.
    Senator Brownback. It also helps us to measure whether this 
program works or not, if we can keep people in it.
    Mayor Williams. Right. I totally agree. I think the whole 
idea behind it, one of the merits of the program, is you're 
going to for the first time have--you know, a fancy word--
longitudinal study comparing the students in the three 
different schools for the first time. If you start changing the 
cohort, then you start polluting the results, and then you end 
up with the same arguments you started with, you know, everyone 
challenging the results. So for that reason, among many good 
reasons, I think it's a good thing to do.
    Senator Brownback. We've been working with your staff on 
family formation issues in the District. You had the successful 
launch of the marriage development accounts. We've identified a 
couple of areas that need improvement. The D.C. tax code has a 
marriage penalty within it. If you file as an individual, you 
have a $2,500 standard deduction; as a couple, it's $1,250. 
This is something we looked at in the Federal code, and I'm 
hopeful that's something you can look at. I'm told it would be 
a $2 million revenue hit to the District to do that, but I 
would urge you to look at it just from the standpoint that 
these are clear economic signals that are sent.
    There's a second one I understand we're not going to be 
able to work through now and that's to use some of the TANF 
funds to provide additional cash supplements to cover those in 
the first 2 years of marriage. We're pushing from the Federal 
end to get a grant to cover any cost of that to the District. I 
think that would really help us in sending a positive signal.
    And then there was also--you were talking about, and I 
think you're doing this as well--making low-income housing 
benefits higher priorities for married couples. Thank you, and 
we'll continue to work with you on this. I don't know if you 
had a particular comment on those programs.
    Mayor Williams. Well, Mr. Chairman, this is something that, 
you know, we talked about. And we went back and talked to our 
people in Housing and to Kate Jesberg--who has, I think, done a 
great job with TANF before her time heading up DHS and now is 
head of DHS--and looked at a number of different incentives 
that we could provide in partnership with the Federal 
Government to try to strengthen family formation, recognizing 
that the District has--we have one of the highest 
concentrations of poverty in the United States. And as everyone 
knows, there is a huge correlation between poverty and family 
situation.
    Senator Brownback. Well, thanks for working with me. My 
next question is about schools, but I want to turn to my 
colleague, Senator Landrieu, just to make sure we give adequate 
time, because I know she'll drill into that area, so I will 
join her questioning via Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman.
    Yes, a question, Dr. Gandhi, or perhaps the Mayor, either 
one that wants to address it. There were some concerning 
reports, very concerning, about $20 million that has been 
either lost or misplaced or unaccounted for through a contract 
that was let for investments relative to financing for charter 
schools.
    This subcommittee has worked very closely with the Mayor 
and with the Council trying to fashion--and with Superintendent 
Janey--trying to fashion some strategic new investments in 
promoting excellence in education through a limited voucher 
scholarship program, through a limited charter school 
initiative, and through limited additional funds to traditional 
public schools, Dr. Janey, to give you some flexibility and 
some opportunities. It's not a lot of money, we understand, 
relative to the budget, $200 million over 5 years compared to 
your billion dollar budget a year, but still $20 million to 
taxpayers is a lot of money. So where is it, what is the 
investigation showing, are we going to be able to recover any 
of it, and what are your words to this subcommittee about if 
there's anything we could do to assist you in getting to the 
bottom of this situation?
    Dr. Gandhi. All right. We appreciate your concern about 
that. Since 2005 when the Congress transferred that particular 
program from our so-called Office of Banking and Insurance and 
Securities to the Mayor's Office and State Education Office, 
and suggested that the funds should be managed by the Chief 
Financial Officer, we immediately took care of the assets that 
were there, and made sure, one, that a proper audit is done of 
the amount that was spent from 2000 to 2005; two, do initial 
audit on our own. And as we discovered some irregularities and 
some probable mismanagement, we immediately alerted the 
Inspector General's Office and the Attorney General's Office. 
We wanted to seize the funds that are available so far. So as 
of now, as I sit here, there are full investigations ongoing. 
The Securities and Exchange Commission is looking into that. 
The inspector general is looking into that, the U.S. Attorney's 
Office, and my own office. So as of now we are managing the 
funds, and we want to be absolutely sure, with the Mayor's and 
the Council's cooperation, that the charter schools that do 
need money and credit enhancement, they will be provided that 
funding. And from now on, we will manage the funds.
    Senator Landrieu. I appreciate that, but if there's a time 
line for the finality of those investigations, we would like to 
have it, and then a final report on either how much money was 
lost and is not retrievable, or how much we can retrieve, 
because people have to have confidence, of course, in the 
financial systems that underpin everything we're trying to do 
in education. So, I know it's again not a huge amount of money, 
but it's not pocket change either. So, let's get to the bottom 
of that.
    Dr. Janey, are you having any success----
    Dr. Gandhi. May I just add, Senator, that July, next month, 
we will have a final report from an external auditor, and the 
IG is also looking into these issues. But by next month we'll 
have a much clearer idea as to what had happened before the 
funds came to us.
    Senator Landrieu. One final question. The co-location 
effort that you have been spearheading, do you have any 
concrete successes on co-location as this school year starts to 
open up?
    Dr. Janey. Yes, we do. I proposed a collaboration and a 
partnership between Scott Montgomery Elementary School and Kipp 
Academy, and the Board of Education voted favorably on my 
recommendation. And that co-location will commence school year 
2006-2007. So we are in the planning process to bring those two 
school communities together. Ultimately, Scott Montgomery will 
have a pre-K through 4, and Kipp, as you know is a grade 5 
through 8. It will be in the same building, a pre-K through 8 
experience for families and students in that area. And I'm very 
pleased with that.
    Senator Landrieu. Because one of, Mr. Chairman, the 
solutions for excess space is to use it more effectively and 
efficiently, for the charter schools that are having to go out 
to commercial space and lease at high rates to come back into 
the public school buildings and to co-locate these facilities, 
which is a more efficient way to use that space. I won't take 
any more time, but I do want to just say that the Seed school 
just continues to be the model of hope, not just for this city 
but for the Nation. I can't tell you how many mayors have come 
from Louisiana to go to the Seed school, the first urban 
residential school for poor, moderate, and low-income children 
in this Nation, that's having extraordinary results.
    And, Mr. Mayor, you've taken a particular interest in that. 
And I want to just commend you, Mr. Mayor, for your fight for 
these kids to have equal opportunities, because their 
acceptance to Princeton or Columbia have not gone unnoticed. 
And we're going to continue to press the expansion of models 
like that.
    Senator Brownback. That's good.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I want to 
congratulate you on your surpluses and your bond rating. By 
having a higher bond rating, it does mean that you don't have 
to have to pay as much interest on your bond, which is 
obviously more money available for your program.
    In looking at some of your testimony, I've been impressed 
with the 5-year balanced budget plan, but you did refer to some 
obstacles in there. One of them was the notable housing market 
impact. I wonder if you would go into a little detail as to 
what's happening in our housing market that is going to have an 
impact on your budget.
    Dr. Gandhi. That is correct, sir. We see some softening of 
the housing market. However----
    Senator Allard. My property tax bill doesn't reflect that.
    Dr. Gandhi. Right. Because we have a 5-year plan, we have 
to make projections as to how does it look for 5 years. Our 
expectation is that going forward, the growth in our tax--real 
property tax revenue would not be as robust as it has been in 
the past. The past few years we had almost 10 to 11 percent a 
year growth in real property taxes. We don't expect that to 
happen, or to continue. However, we do not expect any downturn 
in our real property market, so the growth would be somewhat 
moderated, but we do not expect that that would be a big bust 
over there.
    There are three particular reasons as to why our real 
property market is going to stay strong. One is the Federal 
Government, and the amount of the money that is being spent, we 
in the region, and particularly in the District, are quite the 
beneficiaries of that. The second issue here is that the 
commuting issue is a nightmare, and people want to stay closer 
to where they work and very likely in the city. And third is 
that the city's image under Mayor and Council Chair Cropp 
fundamentally has changed over what it used to be 10 or 15 
years ago. We are a place now to be in.
    So currently we are the hottest real property market in, 
residentially, in the country; commercially, we are among the 
hottest in the world. People want to come here, invest money 
here. And great credit goes to our elected leaders, 
particularly the Mayor, for achieving that level of prestige 
for our city.
    Senator Allard. Thanks for that analysis.
    Dr. Janey, there's an article in The Washington Post 
stating that the D.C. School Board has recently halted charter 
school applications indefinitely until it decides governance 
issues surrounding these schools. And it's been brought to my 
attention that this is the second moratorium in as many years. 
We have a great deal of money invested in the charter school 
program and want to continue the choice program. Would you like 
to comment on those issues in The Washington Post? And should 
we be trying to expand the choices that parents have rather 
than restrict new charter school openings?
    Dr. Janey. Yes. As a nonvoting board member, I would like 
to comment. I think the members of the board want to take 
additional time in looking at their governance role with 
respect to charter schools. My own view is there's probably a 
mixed sentiment on the board. I think there are some members 
who would like to opt out of that governance responsibility, 
and there are other members who would wish to retain it, but 
find a better way to exercise their oversight responsibility 
for charter schools.
    Quite frankly, there is a problem in the way charter 
schools are managed, from my point of view. You have an 
executive director, and irrespective of the person, the model 
calls for an executive director reporting directly to a 
legislative body. And the way by which you can oversee that in 
terms of nine members of the board who have legislative 
responsibility, not executive responsibility, creates some 
management problems. So they want to take some time reflecting 
on how they do their business, and I will be there giving them 
some constructive guide.
    Senator Allard. You do have waiting lines, don't you, to 
get into those charter schools?
    Dr. Janey. It's mixed. Enrollment ranges--with the 17 
charter schools the board oversees--it ranges from about 40 
students to just over 1,000. And all of the charter schools do 
not have waiting lists. We have waiting lists in our public 
schools as well.
    Senator Allard. Are they all filled up to, then, to 
capacity, I would assume?
    Dr. Janey. No.
    Senator Allard. They're not?
    Dr. Janey. No.
    Senator Allard. And in what areas do you have the least 
enrollment in charter schools?
    Dr. Janey. I couldn't tell you offhand, but one of the 
board's legitimate interests is to make sure that the charter 
schools that they do authorize create some unique kind of 
innovative opportunity for learning.
    Senator Allard. Well, that's the whole idea.
    Dr. Janey. Yes. And some of the applications that have been 
advanced have not met that test.
    Senator Allard. I see. Thank you, Mr. Chairman.
    Senator Brownback. Yes. Thank you, Senator Allard. I want 
to enter two things into the record. One is a series of 
anecdotal information and then the charts on children earning 
out of the D.C. Scholarship Fund. And, the second one, Dr. 
Janey, I was just looking at this table of SAT participation 
scores, which I know you are very familiar with. There's two 
real striking things about this, to me, anyway. The percentage 
of males taking the SAT is below 40 percent, and females just 
above 60 percent. That seems quite skewed. Now, maybe that's 
not skewed nationwide. I don't know. But that seems to me to 
beg, well, what are we doing to try to get more young men to 
take the SAT? And then the national average is 200 points above 
the District, and I recognize it's an urban district, but that 
seems to be like a substantial difference in the national 
average and the D.C. average on the SAT scores. And as I met 
with you in the office, I told you we've got objective measures 
to look at and goals to hit, and these are things we really 
have to target in on to get people and attract them back into 
the school system in the District, to say that this is a system 
that produces a good product, that you can come here and learn 
very well. I think it's a numbers issue. I think we've got to 
hit these numbers better, and I know you're focused on that, 
but we're going to keep pressing what it is that we have to do 
to get these numbers better. And I'll enter this in the record 
as well.
    [The information follows:]

       TABLE 2.--SAT I PARTICIPATION FOR 2004-2005 GRADUATING SENIORS BY GENDER, RACIAL, AND ETHNIC GROUPS
----------------------------------------------------------------------------------------------------------------
                                                                   No. of Test-    Percentage of  Percent Change
                    Racial and Ethnic Groups                          takers        Test-takers   from Last Year
----------------------------------------------------------------------------------------------------------------
Males...........................................................             591            39.5              -5
Females.........................................................             905            60.5              -2
Asian...........................................................              52             3.5             +13
Black...........................................................             959            64.1              -2
Hispanic........................................................              99             6.6              +5
White...........................................................              91             6.1             +34
American Indian.................................................               6              .4             -25
Other...........................................................              30             2.0  ..............
No Response.....................................................             259            17.3             -19
                                                                 -----------------------------------------------
      Total.....................................................           1,496             100              -3
----------------------------------------------------------------------------------------------------------------

most recent sat scores and how those scores compare to the past 5 years
    Table 3 below illustrated the verbal, mathematics and combined SAT 
results for graduating seniors over the last five school years. Table 4 
further disaggregates the data by gender, racial and ethnic groups.

                      TABLE 3.--SUMMARY OF SAT RESULTS FOR GRADUATING SENIORS FOR 2001-2004
----------------------------------------------------------------------------------------------------------------
                                                                                  Average Scores
                           School Year                           -----------------------------------------------
                                                                      Verbal        Mathematics      Combined
----------------------------------------------------------------------------------------------------------------
2000-2001.......................................................             402             396             798
2001-2002.......................................................             400             396             796
2002-2003.......................................................             404             396             800
2003-2004.......................................................             412             402             814
2004-2005.......................................................             414             404             818
National Average 2004-2005......................................             505             515           1,020
----------------------------------------------------------------------------------------------------------------

   washington scholarship fund stories from our families earning out
    A pregnant mother, ``Danita,'' is renewing for her daughter and is 
over income by only $160. When her baby is born, the increase in 
household size will make her eligible again--allowing the daughter to 
return to the school she started Kindergarten in through the OSP--but 
only after being forced in and out of a new school every year.
    A family of four whose father is in U.S. military with an annual 
income of $31,000, took an optional $30,000 ``bonus''--an early payment 
out of their retirement fund--to tide them over. Now they are over the 
income threshold of $40,000 for their family of 4.

    Senator Brownback. The vote was called at 11:06--yes?
    Senator Landrieu. If I could just add one thing.
    Dr. Janey, I'd like to work with you, and I know the 
chairman will too, on this governance issue for charter 
schools, and also the accountability issue for all of our 
schools, because we are accountable whether we have public 
charters or traditional charters or even a scholarship voucher 
program. There is an accountability that we have to the 
students participating and their parents that we're providing a 
quality opportunity for them. And the challenge of this is 
happening all over the country. All districts are struggling 
with this; some are doing a better job than others. But I'd 
like to share some of the new models that I've learned about 
and work with you, the Mayor, and the City Council as we 
develop strong accountability, making sure that whether our 
children are in traditional public schools or public charter 
schools, they're getting a quality opportunity for a good, 
solid education. And I need to work with you on that in the 
next few months.
    Dr. Janey. I look forward to our continued collaboration on 
quality.

                         CONCLUSION OF HEARINGS

    Senator Brownback. Sorry the hearing had to be short, but I 
do appreciate it. And as all have said, Mayor Williams, we 
really do thank you all for your public service; it's been 
outstanding.
    The hearing is recessed.
    [Whereupon, at 11:20 a.m., Thursday, June 22, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Allard, Senator Wayne, U.S. Senator From Colorado:
    Prepared Statement of........................................    39
    Statement of.................................................    39

Brownback, Senator Sam, U.S. Senator From Kansas:
    Opening Statements of........................................ 1, 35
    Prepared Statements of....................................... 2, 36
Buchanan, Avis E., Director, Public Defender Service for the 
  District of Columbia...........................................    18
    Prepared Statement of........................................    19

Cropp, Hon. Linda W., Chair, Council of the District of Columbia.    47
    Prepared Statement of........................................    50

Gandhi, Dr. Natwar, Chief Financial Officer, District of Columbia    53
    Prepared Statement of........................................    53

Herring, Hon. Anita Josey, Presiding Judge, Family Court, 
  District of Columbia...........................................     1

Isaac, Reverend Donald, Executive Director, East of the River 
  Clergy-Police Community Partnership............................    28
    Prepared Statement of........................................    31

Janey, Dr. Clifford B., Superintendent, D.C. Public Schools, 
  District of Columbia...........................................    65
    Prepared Statement of........................................    66

King, Hon. Rufus G., III, Chief Judge, Superior Court of the 
  District of Columbia...........................................     1
    Prepared Statement of........................................    16
    Statement of.................................................    15

Landrieu, Senator Mary L., U.S. Senator From Louisiana: Prepared 
  Statements of.................................................. 2, 37

Quander, Paul A., Jr., Director, Court Services and Offender 
  Supervision Agency, District of Columbia.......................    28
    Prepared Statement of........................................    29

Sanchez, Joseph, Administrative Officer, District of Columbia 
  Courts.........................................................     1

Washington, Hon. Eric T., Chief Judge, District of Columbia Court 
  of Appeals, and Chair, Joint Committee on Judicial 
  Administration, District of Columbia...........................     1
    Prepared Statement of........................................     6
Wicks, Anne, Executive Officer, District of Columbia Courts......     1
Williams, Hon. Anthony A., Mayor, District of Columbia...........    35
    Prepared Statement of........................................    43


                             SUBJECT INDEX

                              ----------                              
                                                                   Page

                          DISTRICT OF COLUMBIA

A Responsible Budget.............................................    43
Budget:
    Goals and Fiscal Discipline..................................    50
    Process and Highlights.......................................    50
Capital Spending.................................................    56
Citizen Priorities...............................................    44
Democracy for the Nation's Capital...............................    47
Economic Development.............................................    51
Education........................................................    50
Fiscal Recovery 1996-2005........................................    54
Following Through on Landmark Initiatives........................    43
General Fund Balance Use.........................................    55
Gross Funds Budget...............................................    55
Highlights of Fiscal Year 2007 Proposed Budget and Fiscal Year 
  2007-Fiscal Year 2010 Financial Plan...........................    55
Other Federal Payment Items......................................    52
Priority Federal Funding for Critical Projects...................    45
Revenue Outlook..................................................    54
Voting Representation............................................    52

                                 Courts

Administrative Accomplishments...................................    28
Background.......................................................    20
Capital Budget Request...........................................    16
Complete Budget Request Summary..................................    13
Critical Fiscal Year 2007 Priority--Infrastructure...............     8
Family Court Implementation......................................    16
Fiscal Year:
    2005 Accomplishments.........................................    20
    2007 Request.................................................    20
General Program Accomplishments..................................    21
Integrated Justice Information System............................    17
Recent Achievements..............................................     7
The President's Recommendation...................................     7
Training.........................................................    27

                                   - 

</pre></body></html>
